<html>
<title> - STATUS OF THE DEPARTMENT OF VETERANS AFFAIRS TO IDENTIFY GULF WAR SYNDROME</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
   STATUS OF THE DEPARTMENT OF VETERANS AFFAIRS TO IDENTIFY GULF WAR 
                                SYNDROME
=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION
                               __________

                             APRIL 24, 1997
                               __________

                           Serial No. 105-38
                               __________

Printed for the use of the Committee on Government Reform and Oversight










                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                    Subcommittee on Human Resources

                CHRISTOPHER SHAYS, Connecticut, Chairman
VINCE SNOWBARGER, Kansas             EDOLPHUS TOWNS, New York
BENJAMIN A. GILMAN, New York         DENNIS J. KUCINICH, Ohio
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARK E. SOUDER, Indiana              TOM LANTOS, California
MICHAEL PAPPAS, New Jersey           BERNARD SANDERS, Vermont (Ind.)
STEVEN SCHIFF, New Mexico            THOMAS M. BARRETT, Wisconsin

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Robert Newman, Professional Staff Member
                       R. Jared Carpenter, Clerk
                Ron Stroman, Minority Professional Staff









                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 24, 1997...................................     1
Statement of:
    Donnelly, Michael, Major, U.S. Air Force, retired; Susan 
      Sumpter-Loebig, Sergeant, U.S. Army, retired; and Steven 
      Wood, Sergeant, U.S. Army, retired.........................    33
    Rostker, Bernard, Special Assistant for Gulf War Illnesses, 
      Department of Defense; Robert Walpole, Special Assistant 
      for Gulf War Illnesses, Central Intelligence Agency; and 
      Donald Mancuso, Deputy Inspector General, Department of 
      Defense....................................................    95
    Tucker, Jonathan B., director, Chemical and Biological 
      Weapons Nonproliferation Project, Center for 
      Nonproliferation Studies, Monterey Institute of 
      International Studies; Thomas Tiedt, researcher and 
      neuroscientist, Longboat Key, FL; and Satu Somani, 
      professor of pharmocolgy and toxicology, Southern Illinois 
      University School of Medicine..............................   261
Letters, statements, etc., submitted for the record by:
    Allen, Hon. Thomas H., a Representative in Congress from the 
      State of Maine, prepared statement of......................    32
    Donnelly, Michael, Major, U.S. Air Force, retired, prepared 
      statement of...............................................    39
    Mancuso, Donald, Deputy Inspector General, Department of 
      Defense, prepared statement of.............................   233
    Rostker, Bernard, Special Assistant for Gulf War Illnesses, 
      Department of Defense:
        Information concerning research that is now being done by 
          the DOD or VA..........................................   250
        Prepared statement of....................................   100
    Sanders, Hon. Bernard, a Representative in Congress from the 
      State of Vermont, prepared statement of....................     8
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Somani, Satu, professor of pharmocolgy and toxicology, 
      Southern Illinois University School of Medicine, prepared 
      statement of...............................................   320
    Sumpter-Loebig, Susan, Sergeant, U.S. Army, retired, prepared 
      statement of...............................................    64
    Tiedt, Thomas, researcher and neuroscientist, Longboat Key, 
      FL, prepared statement of..................................   301
    Tucker, Jonathan B., director, Chemical and Biological 
      Weapons Nonproliferation Project, Center for 
      Nonproliferation Studies, Monterey Institute of 
      International Studies, prepared statement of...............   264
    Walpole, Robert, Special Assistant for Gulf War Illnesses, 
      Central Intelligence Agency:
        Information concerning chemical exposure among Iraqis and 
          Kuwaitis...............................................   248
        Prepared statement of....................................   129
    Wood, Steven, Sergeant, U.S. Army, retired, prepared 
      statement of...............................................    48







   STATUS OF THE DEPARTMENT OF VETERANS AFFAIRS TO IDENTIFY GULF WAR 
                                SYNDROME

                              ----------                              


                        THURSDAY, APRIL 24, 1997

                  House of Representatives,
                   Subcommittee on Human Resources,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Snowbarger, Gilman, Souder, 
Sanders, Kucinich, and Allen.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Robert Newman, professional staff member; R. Jared 
Carpenter, clerk; Ronald Stroman, minority professional staff; 
and Ellen Rayner, minority chief clerk.
    Mr. Shays. I'd like to welcome our witnesses to this very 
important hearing, and our guests, and thank everyone for their 
patience.
    Accurate diagnosis and effective treatment of Gulf war 
veterans' illnesses requires a complete medical history of 
illnesses, allergies, exposures, inoculations, and a great deal 
more. For too many sick veterans, their medical history remains 
incomplete.
    Why? Because Gulf war records that might document toxic 
exposures remain missing or classified. Because detection 
reports that could fix the time and place of probable chemical 
releases are lost or incomplete. Because sick call rosters and 
shot records that display adverse drug reactions were 
destroyed. And because virtually no effort was made to record 
who took the anti-nerve agent tablets, the pyridostigmine 
bromide [PB].
    As a result, sick Gulf war veterans face an uncertain 
medical future because they lack critical evidence from their 
military past. In the absence of the records needed to 
correlate toxic causes with symptomatic effect, veterans are 
being misdiagnosed as stress cases and treated with ineffective 
therapies. That is simply unacceptable.
    Our purpose today is to access the impact of missing 
records on Gulf war veterans' health. We ask what evidence is 
available to corroborate veterans' recollections of toxic 
exposures, and what additional information may yet be 
discovered or declassified in the course of on-going Defense 
Department, the DOD, and the Central Intelligence Agency, the 
CIA, investigations. We also ask that the benefit or any doubt 
caused by missing records goes to the veteran who needs the 
benefit, as opposed to the military that lost the records and 
created the doubt.
    While a necessary and constructive step, it is not enough 
to extend the presumptive period of service-connected benefits 
eligibility for undiagnosed Gulf war veterans, too often the 
presumptive diagnosis is stress, the disability compensation 
rating low, and the treatment biased in favor of psychiatric 
over neurobiologic. That is also unacceptable.
    When it comes to matching cause to effect, diagnosis to 
treatment, presumptions are no substitute for the facts that 
are, or should be, in Gulf war medical, intelligence, and 
operations records.
    To sick veterans, the missing unit logs, chemical detection 
reports, PB labeling information, and classified intelligence 
analysis are not just military records of the war 6 years ago. 
They are medical records vital to proper health care today. 
Every surviving Gulf war record even remotely connected to 
veterans' health claims must be found. The survival of many of 
our veterans depends on it.
    As in our past hearings, we begin with testimony from Gulf 
war veterans. Theirs is the best intelligence available on the 
causes and effects of the mysterious cluster of maladies 
commonly called ``Gulf War Syndrome.'' We are honored by their 
past service, their continued bravery, and their presence here 
today. And we welcome them.
    DOD and CIA witnesses will testify on the status of their 
long-overdue efforts to investigate, analyze, declassify and 
disclose Gulf war records relevant to the health concerns of 
veterans.
    Our final panel will discuss what is known about low-level 
chemical exposures and PB use that can fill the gaps created by 
missing Gulf war records.
    We appreciate their being here, both the second and third 
panel, as well, and welcome their testimony, too. At this time 
I ask the gentleman, Mr. Sanders, if he has any comments he'd 
like to make.
    [The prepared statement of Hon. Christopher Shays follows:] 

[GRAPHIC] [TIFF OMITTED] T3668.001

[GRAPHIC] [TIFF OMITTED] T3668.002

    Mr. Sanders. Thank you very much, Mr. Chairman. I want to 
congratulate you for your long-standing efforts in trying to 
get to the root cause of this problem, your staff members--Bob 
Newman and the others--for the outstanding work that they have 
done, and the very fine work done by the minority staff. This 
has truly been a non-partisan issue. And I commend you for 
that.
    I must tell you that the whole issue of Gulf war syndrome 
has preoccupied a great deal of my time and energy. We have 
hired new staff--Don Edwards, a former general, National 
Guard--to help us with this issue. We're holding a conference 
in Vermont focusing on this issue. Mr. Chairman, let me briefly 
go over some of the recent Gulf war syndrome history and tell 
you the conclusions that I've reached and the recommendations 
that I will be making.
    As recent as 1 year ago, in April 1996, Assistant Secretary 
of Defense for Health Affairs, Steven Joseph, stated that there 
was ``no indication of a unique illness or a Persian Gulf war 
syndrome or a single entity that would account for illness in 
any large or significant fraction of these people.'' He was 
wrong. For years the Defense Department and the CIA denied that 
our soldiers were ever exposed to chemical warfare agents. But 
there is now wide-spread acknowledgement that thousands of 
soldiers were exposed to these agents at Khamisiyah. And we 
will hear evidence today of far greater exposure. In other 
words, the DOD and the CIA were wrong in what they were saying 
for years, and may well be underestimating the problem today.
    The President's Advisory Commission, relying heavily on the 
Department of Defense and other Government institutions for 
help, concluded, tragically in my view, that stress was the 
major cause of Gulf war syndrome. Dr. Jonathan Tucker, a 
chemical weapons researcher, was fired from his job with the 
Presidential Advisory Commission because he chose to talk to 
people outside the sphere of the Pentagon, who might have 
different opinions than the Pentagon, or the CIA about possible 
chemical exposures.
    I think history will prove that he was moving in the right 
direction, and they were wrong. In general, the attitude of the 
DOD, the CIA, and the VA has been, in the very beginning--No. 
1, there is no problem. It's all in the heads of the soldiers. 
No. 2, as time progressed: well, there may be a problem, but it 
is a stress-related problem, caused by stress. More time went 
on; they said, ``Well, no. None of our soldiers were ever 
exposed to chemical agents.'' Well, we're sure of that. More 
time went on: ``Well, yes. Maybe there were some exposures. But 
the problem is limited.'' More time went on: ``Well, maybe the 
chemical exposure is not so limited, and we'll have to 
investigate how many tens of thousands of our soldiers were 
affected.''
    Now, all of this comes from the DOD, an agency with a 
budget of $250 billion. Meanwhile, some 70,000 men and women 
who served in the Gulf are suffering from one or another Gulf 
war symptom, some of them terribly, terribly serious.
    Now, let's briefly look at some people with far more 
limited resources than the Pentagon who are seriously trying to 
address this horrendous problem. And I want to congratulate 
you, Mr. Chairman, because your committee has done an 
outstanding job in bringing some of these people to us and to 
the American people.
    In late January, we heard from Dr. Robert W. Haley--the 
University of Texas Southwestern Medical Center. And this is 
what he says. He says, ``Persian Gulf war syndrome is real. The 
syndromes are due to subtle brain, spinal cord, and nerve 
damage, but not stress. The damage was caused by exposure to 
combinations of low level chemical nerve agents and other 
chemicals, including pyridostigmine bromide in anti-nerve gas 
tablets, DEET, in a highly concentrated insect repellant, and 
pesticides and flea collars that some troops wore.''
    Another serious researcher, Dr. Muhammad Abou-Donia and Tom 
Kurt, from the Duke University Medical Center--they also have 
done some outstanding work. They study chickens. And the 
researchers specifically found that two pesticides--DEET and 
permethrin--and the anti-nerve gas agent PB, once again--were 
harmless when used alone, but when used in combination the 
chemicals caused neurological deficits in the test animals 
similar to those reported by some Gulf war veterans.
    Doctors Garth and Nancy Nicolson, University of Texas, 
concluded that some Gulf war veterans have multiple chronic 
symptoms that may eventually have their diagnoses linked to 
chemical exposures in the Persian Gulf such as oil spills and 
fires, smoke from military operations, chemicals on clothing, 
pesticides, chemoprophylactic agents, chemical weapons and 
others. Dr. Claudia Miller, a good researcher from Texas, sees 
a direct relationship between the problems of our Gulf war 
veterans and multiple chemical sensitivity. Dr. William Ray, 
also from Texas, says the same thing.
    Now, let me conclude, Mr. Chairman, by saying this: for 
whatever reason--and frankly I am not interested in speculating 
on that now--we could spend 10 hearings in speculation--I 
believe that the Department of Defense and the VA and the other 
Government agencies--CIA--have not been capable in either 
diagnosing or treating Persian Gulf war syndrome, or even fully 
analyzing the problem. In my opinion, there is no particular 
reason to believe that that is going to change.
    We can bring the DOD, the VA and the CIA before us month 
after month. We can criticize them. We can berate them. But I 
have the sad feeling that it is not going to change, and what 
we have seen in the past is going to continue into the future. 
Mr. Chairman, you and this committee have done an extraordinary 
job in helping to expose many of the problems that currently 
exist. But I suggest to you that we must now assume an even 
greater responsibility.
    I believe that this committee should, within the next 
several weeks, regroup, come together again, not for a hearing, 
but to formulate our conclusions. And then having done that, we 
should introduce a Manhattan Project type of organization which 
assigns responsibility and adequately funds individuals outside 
of the DOD and the VA to solve this problem. Whether those 
individuals should be within the civilian sectors of our 
Government, such as exists within the NIH, or whether they 
should be completely outside the
Government in a major university or research facility is 
something we can discuss. But I think we must reach the 
fundamental conclusion that the status quo approach is just not 
working. Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Bernard Sanders follows:] 
    [GRAPHIC] [TIFF OMITTED] T3668.003
    
    [GRAPHIC] [TIFF OMITTED] T3668.004
    
    [GRAPHIC] [TIFF OMITTED] T3668.005
    
    [GRAPHIC] [TIFF OMITTED] T3668.006
    
    [GRAPHIC] [TIFF OMITTED] T3668.007
    
    [GRAPHIC] [TIFF OMITTED] T3668.008
    
    [GRAPHIC] [TIFF OMITTED] T3668.009
    
    [GRAPHIC] [TIFF OMITTED] T3668.010
    
    [GRAPHIC] [TIFF OMITTED] T3668.011
    
    [GRAPHIC] [TIFF OMITTED] T3668.012
    
    [GRAPHIC] [TIFF OMITTED] T3668.013
    
    [GRAPHIC] [TIFF OMITTED] T3668.014
    
    [GRAPHIC] [TIFF OMITTED] T3668.015
    
    [GRAPHIC] [TIFF OMITTED] T3668.016
    
    [GRAPHIC] [TIFF OMITTED] T3668.017
    
    [GRAPHIC] [TIFF OMITTED] T3668.018
    
    [GRAPHIC] [TIFF OMITTED] T3668.019
    
    [GRAPHIC] [TIFF OMITTED] T3668.020
    
    [GRAPHIC] [TIFF OMITTED] T3668.021
    
    [GRAPHIC] [TIFF OMITTED] T3668.022
    
    [GRAPHIC] [TIFF OMITTED] T3668.023
    
    [GRAPHIC] [TIFF OMITTED] T3668.024
    
    Mr. Shays. I thank the gentleman. I would thank him for his 
extraordinary dedication to this issue. You spend a great deal 
of time on this issue, and have been a major part of this 
committee's investigation and have been a tremendous help.
    Mr. Sanders. Thank you, Mr. Chairman.
    Mr. Shays. At this time I would call on Mr. Snowbarger, the 
vice chairman of the subcommittee.
    Mr. Snowbarger. Thank you, Mr. Chairman. I really don't 
have a formally prepared statement. I do want to thank you for 
continuing the hearings on this process, also thank the panel 
for helping us to try to find the answers to these questions 
that have long plagued us. I appreciate the frustration that 
you have gone through. We're frustrated, as well, in trying to 
get the answers, as Mr. Sanders has indicated. And I appreciate 
your being with us here today. I look forward to your testimony 
and questioning period.
    Mr. Shays. I thank the gentleman. Mr. Gilman, the chairman 
of the Foreign Affairs Committee, as I call it.
    Mr. Gilman. Thank you, Mr. Chairman. And I want to thank 
you for convening this hearing this morning as part of your 
series of ongoing hearings related to the Gulf war syndrome. I 
believe that these hearings are important as they help keep the 
Department of Defense focused on an uncomfortable issue and 
remind both officials at the Pentagon and the members of the 
public as well as Congress' determination to address this 
unfortunate legacy of the Gulf war.
    This morning's hearing is particularly important, because 
it goes to the heart of the matter regarding DOD's response to 
this issue. Along with, I'm sure, many of my colleagues, I've 
heard numerous allegations from our constituents about the poor 
initial response to our veterans' concerns from both DOD and 
the VA. And yet when we in the Congress raise these issues time 
and time again, our intelligence and the DOD assured Members of 
both the House and Senate that there was no evidence that any 
troops were exposed to any chemical weapons in the Gulf. 
Moreover, the VA was eager to accept these statements. So 
eager, in fact, that VA officials did not feel that any 
exposure to chemical agents even merited consideration when 
ascertaining the causes behind the symptoms experienced by the 
affected personnel.
    And then, last year, when faced with overwhelming evidence 
to the contrary, officials at the Pentagon reversed themselves 
and stated that 400 of our troops at the Khamisiyah 
ammunitionsite were exposed to chemical agents. This figure 
later grew to approximately 20,000 of our troops. Since this 
initial revelation, additional distressing facts have come out 
as the CIA and the DOD have engaged in finger-pointing and 
blame-shifting over what was actually known at the time and 
what was communicated. To me, the most shocking fact is the 
revelation to this subcommittee last January, that 80 percent 
of the nuclear biological chemical logs from the theater of 
operations--165 pages of a total of 200--are now missing.
    For one, I think I'm losing patience with the DOD in this 
issue. It's troubling enough that Pentagon officials were 
categorically denying troop exposure to chemical agents despite 
overwhelming evidence to the contrary. Now, however, we find 
out that most of the record logs that were intended to track 
these incidents are classified or missing. The charges of 
cover-up no longer seem so far-fetched. These facts, as they've 
dribbled out over the last 6 years, point to the following 
conclusion: simply put, we were not prepared to handle the 
contingency of widespread chemical use by the Iraqi forces 
during the Gulf war, and that it was only by the grace of God 
that Saddam Hussein did not resort to the use of such weapons.
    Mr. Chairman, the Congress needs and deserves straight, 
honest answers from the DOD. For too long, we've been dealing 
with commanders who apparently were more interested in 
protecting their own careers and reputations than in looking 
out for the welfare of the personnel under their command. It's 
bad enough to discount the thousands upon thousands of alarms 
and detections that occurred during the war. But what is far 
worse is a pattern of deceit and misrepresentation that's been 
waged with the Congress and the American people. If we had a 
problem in addressing widespread chemical exposures during the 
Gulf war, then let's admit it and move on. The hand-wringing, 
double-talk, and the finger-pointing that's occurred over the 
last few months is pointless and counter-productive. More 
importantly, it does nothing to help our veterans, who put 
their lives, both theirs and their families' health on the line 
for our Nation. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman for his very fine 
statement. Mr. Allen, it's nice to have you here. You have the 
floor.
    Mr. Allen. Thank you, Mr. Chairman. I will be very brief. 
First of all, I want to thank you for holding these most 
important hearings, and to thank all of the panelists who are 
here to testify. I would just say this: When we send the young 
men and women in our armed services into harm's way, we have an 
obligation to do well by them when they return, and to care for 
them and to make sure that we investigate whatever may have 
happened to them. The record in this, frankly, appears to be a 
sorry record. And I hope that one outcome of these hearings 
today is that we make sure that it doesn't happen again, that 
we are able to detect illnesses from chemical warfare or 
biological warfare and deal with them efficiently.
    And it's not clear to me at all that that's been the 
practice over the last few years. And I am here, as I believe 
all of you are here, to try to understand what happened, and 
make sure it doesn't happen again. Thank you, Mr. Chairman.
    [The prepared statement of Hon. Thomas H. Allen follows:] 
    [GRAPHIC] [TIFF OMITTED] T3668.025
    
    Mr. Shays. I thank the gentleman. Mr. Souder. What I would 
like to do first is before calling my witnesses, just get some 
housekeeping out of the way, and ask unanimous consent that all 
members of the subcommittee be permitted to place an opening 
statement in the record and that the record remain open for 3 
days for that purpose. And without objection, so ordered. And I 
ask further unanimous consent that all witnesses be permitted 
to include their written statements in the record. And without 
objection, so ordered.
    At this time, the committee will convene the first panel. 
The panel consists of three American heroes: Maj. Michael 
Donnelly, U.S. Air Force, retired, a Persian Gulf war veteran 
from South Windsor, CT. Our second panelist is Sgt. Susan 
Sumpter-Loebig, U.S. Army, retired, a Persian Gulf war veteran 
from Hagerstown, MD. And our third witness will be Sgt. Steven 
Wood, U.S. Army, retired, a Persian Gulf war veteran who 
presently resides in Germany.
    Mr. Donnelly, I understand that you're in a wheel chair and 
will not be able to stand, but I would ask the other two 
witnesses to stand, and I'd ask all three of you to raise your 
right hand. We swear our witnesses in.
    [Witnesses sworn.]
    Mr. Shays. Thank you. Note for the record that all three 
witnesses have responded in the affirmative. And we will go 
from Maj. Donnelly, and then we'll go to you, Sergeant, and 
then to you, Sgt. Wood. But we'll start with you, Mr. Donnelly. 
It's nice to have you here.

STATEMENTS OF MICHAEL DONNELLY, MAJOR, U.S. AIR FORCE, RETIRED; 
SUSAN SUMPTER-LOEBIG, SERGEANT, U.S. ARMY, RETIRED; AND STEVEN 
               WOOD, SERGEANT, U.S. ARMY, RETIRED

    Maj. Donnelly. Thank you, Congressman Shays and members of 
the committee. I want to thank you for the opportunity to be 
here today.
    Mr. Shays. Maj. Donnelly, what I'm going to do--it may be a 
little difficult, but I'm going to ask you to put the mic a 
little closer to you.
    Maj. Donnelly. Sure.
    Mr. Shays. It might mean that your papers have to overlap 
the--thank you.
    Maj. Donnelly. OK. How's that? Better?
    Mr. Shays. I think it is better. And I'm going to ask you 
to lift the mic up just slightly. Thank you. That's perfect. 
That's great. Thank you very much.
    Maj. Donnelly. As you've already stated, my name is Maj. 
Michael Donnelly. And I am not the enemy. I come to you today 
to tell you that I am yet another Gulf war veteran with a 
chronic illness. I was medically retired in October 1996 after 
15 years and 1 month of service in the Air Force as a fighter 
pilot. At the time Iraq invaded Kuwait, I was stationed at Hahn 
Air Base in Germany, flying F-16s.
    Mr. Shays. I'm sorry to interrupt you again. I'd like all 
witnesses to just tap their microphones and make sure that 
they're--it's the one on the stem. I don't think yours is on, 
sir.
    Maj. Donnelly. Great.
    Mr. Shays. Could you check that for us? It's not really 
picking up. We're going to trade microphones, then, if we can't 
get it working.
    Maj. Donnelly. Kind of the way things have been going for 
me lately.
    Mr. Shays. Mr. Donnelly, this is a good day. I started out 
and lost $20. It is a good day. It's wonderful to have you 
here, sir. And it is a very important day to have you 
testifying. This is a good day.
    Maj. Donnelly. Great.
    Mr. Shays. Thank you.
    Maj. Donnelly. And I'm happy to be here.
    Mr. Shays. Thank you.
    Maj. Donnelly. As I stated, my name is Maj. Michael 
Donnelly. And I am not the enemy. I come before you today to 
tell you that I am another Gulf war veteran with a chronic 
illness. I was medically retired in October 1996 after 15 years 
and 1 month as a fighter pilot in the U.S. Air Force. At the 
time Iraq invaded Kuwait, I was stationed at Hahn Air Base in 
Germany flying F-16s. My unit deployed to Abu Dhabi, which is 
in the United Arab Emirates, on January 1, 1991, and redeployed 
back to Germany on May 15, 1991. During the war, I flew 44 
combat missions. On those missions I bombed a variety of 
targets, such as strategic targets to include airfields, 
production and storage facilities, and missile sites.
    I also bombed tactical targets, which included troops, 
battlefield equipment and pontoon bridges. I also flew combat 
air support, which is troops in combat, and combat air patrol 
missions. Never during any of those missions was I ever warned 
of the threat of any chemical exposure from chemical or 
biological weapons. Had I been warned, there were steps I could 
have and would have taken to protect myself. I can tell you 
that I flew throughout the entire region of Iraq, Kuwait, much 
of Saudi Arabia, to include in and around the oil smoke.
    Evidence now shows that chemical munitions storage areas 
and production facilities that were bombed by us released 
clouds of fallout that drifted over our troops through the air. 
I know of other pilots who do remember a specific incident that 
later caused them to become ill. Upon returning from the Gulf, 
I was reassigned to McDill Air Force Base in Tampa, FL. That is 
when I first started to notice that something was wrong, that I 
didn't feel quite right.
    By the summer of 1995, I was stationed at Shepperd Air 
Force Base in Wichita Falls, TX. It was here that my current 
illness started. I began to suspect that it was related to the 
service in the Gulf. During the summer, I was exposed several 
times to malathion, which is a fairly dilute organophosphate-
based pesticide used for mosquito control. The base's policy 
there was to spray with a fogging truck throughout the base 
housing area, where I lived with my family. I was exposed to 
the malathion while jogging in the evenings. I would like to 
point out something here that I learned later: organic 
phosphate is the chemical basis for all nerve agents. It is a 
poison that kills just like a pesticide does.
    It was immediately after my exposure to malathion that I 
started to have serious health problems. After this, every time 
I ran I would get a schetoma--or blind spot--in front of my 
eyes and my heart would beat erratically. I started to have 
heart palpitations, night sweats, sleeplessness, trouble 
concentrating on my work, trouble remembering, trouble taking a 
deep breath, frequent urination, and I was extremely tired all 
the time. It wasn't until December 1995, that I started to have 
trouble walking. I had weakness in my right leg.
    It was then that I decided to go and see the doctor. Right 
after the holiday season, on January 2, 1996, I went in to the 
flight surgeon at Shepperd Air Force Base. When I finished 
explaining my symptoms to him I mentioned that I had been in 
the Gulf war. He immediately started to talk to me about the 
effects of stress and delayed stress. He told me that the other 
problems--heart palpitations, breathing difficulty, 
sleeplessness--all that, was most definitely stress-related, 
but we needed to look into why I had weakness in my leg.
    I was referred to the neurologist. During the first visit 
with the neurologist, it was one of the first times that I 
heard the line that I would hear throughout the entire Air 
Force medical system. And that line was: ``There has never been 
any conclusive evidence that there's any link between service 
in the Gulf and any illnesses.'' Each time I heard this line, 
it was almost as if the person was reading from a script.
    How can they say that they're looking for answers when they 
deny it's even possible? How can they say there's no connection 
when they don't study the individuals who present themselves 
with symptoms that might prove that connection. Instead, I got 
the line, which proved that no one was looking to see whether 
there was a problem with my connection, only to deny that it 
exists. At one point a doctor at Wilford Hall Medical Center 
gave me a 3-minute dissertation on how my illness absolutely 
could not be linked to service in the Gulf.
    One thing else I noticed at Wilford Hall during my five or 
six visits was a room on the neurology labeled Gulf War 
Syndrome Room. In none of my visits was the door to this room 
ever open or the light on. I started to realize that because 
the military medical system would not acknowledge that my 
illness could be related to the Gulf war, I would not get help. 
Once I realized that I began to seek help from civilian 
doctors, many of whom had already made the connection between 
service in the Gulf and the high incidents of unusual illnesses 
among Gulf war veterans. Because the military has not 
acknowledged this connection, my family and I have been forced 
to spend over $40,000 of our own money on this effort.
    Our search led us to people around the country with the 
same illnesses who were also Gulf war veterans. In the past 12 
months I've travelled all over this country and even to Germany 
looking for help.
    Incredible as it may seem, the Air Force medical system 
initially wanted to retire me with 50 percent disability and 
temporary retirement. Only after we hired a lawyer at our own 
expense and went to the medical board did we get that changed 
to 100 percent and permanent retirement. I chose not to fight 
over whether my illness was combat-related, because I had 
already seen the stonewalling that was going on, and because I 
wanted to move my family back home. That was a personal 
decision made at a time when I knew I had far greater battles 
yet to fight.
    Upon my retirement from the Air Force, I found myself 
worked into the VA medical system. What alternative did I have 
after 15 years of service? I guess I'm one of the lucky ones, 
since I was: one, still on active duty when I got sick; and, 
two, given a poor prognosis which required them to treat me and 
compensate me. What alternative did they have?
    The VA bureaucracy is difficult and slow at best. I'm 
suffering from a fatal illness where every month matters. I 
could sit here today and tell you that despite my situation, 
which you would think would warrant expeditious treatment and 
action, I ran into a red tape and paperwork nightmare that 
continues to consume my life today. However, once I finally got 
to see them, the medical personnel who have treated me have 
been very kind and understanding, despite the fact there isn't 
much they can do. Maybe if we hadn't had 6 years of cover-up 
there would be something that they could do.
    To this day, no one from the DOD or VA has contacted me 
personally to involve me in any tests or studies. I, myself, 
have found nine other Gulf war veterans, some who have already 
come before this committee, who are also suffering from ALS, an 
unusual illness that rarely strikes individuals under the age 
of 50. In fact, with the 10 of us who have ALS, we are certain 
there are more. We just can't find them. The incidence of ALS 
already far exceeds the normal incidence, given the number of 
soldiers who served in the Gulf. One thing I can tell you: this 
is not stress. With every other Gulf war veteran we have found 
who has ALS, the common thread has been subsequent exposure to 
some kind of strong chemical or pesticide, such as malathion, 
diazinon, and lindane.
    Why aren't the DOD and the VA warning every one else who 
served in the Gulf that they may get sick in the future, just 
as I got sick 4 years after I returned from the Gulf?
    How many other people out there are waiting for that one 
exposure that's going to put them over the top? Why is no one 
putting the word out? A warning could save the lives and health 
of many individuals. I'll tell you why: because that would take 
admitting that something happened in the Gulf that's making 
people sick.
    I wonder how many flight mishaps or accidents that have 
happened since the war have involved Gulf war veterans. Those 
numbers shouldn't be hard to find. The military keeps records 
on all of that. In fact, I'll wager someone out there already 
knows the answer to that question and hasn't shared, whether 
because of a direct order not to, or because the right people 
haven't asked the question.
    How many pilots are still out there flying who don't feel 
just quite right, just as I flew for 4 years after I returned 
from the Gulf? How many other pilots fear for their livelihood 
and the repercussions they know they would encounter were they 
to speak up because they've been told, ``There's no conclusive 
evidence that there's any link between service in the Gulf and 
any illness.''
    Imagine my dismay when the DOD announces $12 million to 
study the Gulf war illness, and four of those studies are 
centered around the effects of stress or post-traumatic stress 
disorder. You would think that the DOD and the VA would have an 
indepth knowledge of the effects of stress after all the wars 
that this country has fought, most of them a lot more stressful 
than the Gulf war. Why aren't they taking our illnesses 
seriously? I'll tell you why: because that would take admitting 
that something happened in the Gulf war that's making people 
sick.
    Part of the ongoing cover-up has been to trivialize the 
illnesses the Gulf war veterans are suffering from. You hear 
about skin rashes and joint aches and insomnia and fatigue, and 
there's no doubt that these are real symptoms and are 
debilitating in and of themselves. But what you don't hear 
about is the high incidences of rare cancers and neurological 
diseases and immune system disorders that are totally 
debilitating. This is not stress. This is life and death.
    Why is it impossible to get the right answers from the DOD 
and the VA about how many veterans are sick or have sought 
treatment? Why is it more important to protect high-placed 
Government officials than to care for veterans who are sick? 
The national defense issue now is that it's public knowledge 
that the DOD mistreats the people who serve. America will have 
no one else to fight its wars when people learn this.
    The primary goal at this point is not to find out whose 
fault all this is, although some day someone will need to 
investigate that, and find out what happened and why. The 
people responsible for this tragedy should be held responsible 
and punished.
    The top priority now is for all of us to help veterans and 
their families get their health and lives back. Or at least 
that should be the goal. That should be your goal. It's obvious 
now that there has been a cover-up going on all this time as 
more and more information gets released or discovered. It's 
time for people who know something--and they do exist--to come 
forward. Maybe we can save some lives.
    During and after the war we proclaimed to ourselves and the 
rest of the world how we learned the lessons of Vietnam and 
fixed the military. We learned the lessons of Vietnam and we 
did it right this time. Last week, Gen. Powell stated that we 
suffered only 149 casualties in the Gulf war. I'm here to tell 
you: the casualty count is still rising. Just like in Vietnam 
with Agent Orange, it appears that we did not learn all the 
lessons. We still mistreat veterans. This country has again 
turned its back on people who fight its wars: the individuals 
to whom it owes the most.
    I want to thank you for what you are doing for the veterans 
of this country, many of whom were squeezed out of the military 
right after the war and now find themselves out on the street 
fighting the very institution they fought for. Congressman 
Shays, in the military, we have a tradition called the salute, 
and it's used to show admiration and respect for an individual 
who has earned it.
I salute you for what you are doing. You go a long way to 
restoring this soldier's waning faith in a country that could 
so willingly desert its own. Remember: I am not the enemy. 
Thank you.
    [The prepared statement of Maj. Donnelly follows:] 
    [GRAPHIC] [TIFF OMITTED] T3668.026
    
    [GRAPHIC] [TIFF OMITTED] T3668.027
    
    [GRAPHIC] [TIFF OMITTED] T3668.028
    
    [GRAPHIC] [TIFF OMITTED] T3668.029
    
    Mr. Shays. Thank you, Maj. Donnelly. Major, your testimony 
is very helpful. We're going to be hearing from two other 
veterans and then we'll be asking you some questions. Thank you 
for honoring us with your presence. Sgt. Susan Sumpter-Loebig, 
if you would testify now.
    Sgt. Sumpter-Loebig. Good morning, ladies and gentlemen. 
Thank you for taking the time to listen to the ongoing struggle 
that I and other Gulf war veterans have been enduring since our 
return. I am 29 years old and was a sergeant E-5 in the Army 
Military Police Corps. My military occupational specialties 
are: Victor 5 investigations, senior military customs 
inspector, nuclear physical security, enemy prisoner of war 
camps, canine assistant, route reconnaissance specialist. And 
I've worked with CID numerous times.
    I was released from active duty on March 18, 1997. January 
through April 1991, I was assigned to mortuary escort perimeter 
security at Dover Air Force Base. My job was to ensure the safe 
transportation of fallen soldiers from Southwest Asia back to 
the continental United States. Once processed and identified, I 
then escorted the remains back to their families and stayed to 
perform funeral detail. I was also to provide condolences and 
return any belongings to the families. It was also my 
responsibility to present the flag from the coffin to the 
family members. This done, I then helped the family finish 
anything they may have forgotten or left out.
    I was then assigned in April to St. Louis as security for 
the new helicopter prototypes being displayed at the stadium. I 
was there for 3 weeks and was taken to the Air Force hospital 
with intestinal bronchitis the second week. I recovered and 
then returned home. Although I still felt bad, I took my annual 
PT test on April 12, 1991. My scores were 20 push-ups, 53 sit-
ups, and I ran a 14:48 on my 2-mile run--a total of 232 points, 
which is passing for my age bracket.
    In May, I was assigned to Fort Detrick, MD for the release 
of DOD police to take classes and do their training. I was 
there for 1 month. My duties included patrol, desk officer, 
gate duty and general police work. I had a cold most of the 
time I was there, but brushed it off as the cost of traveling 
that I had been doing back and forth through the country. I 
returned home 2 days later and was told that I would be 
returning to Southwest Asia. In June, I returned with the 164th 
Direct Support Maintenance Company. We were to perform numerous 
jobs in the few months we were there. We were stationed at 
KKMC.
    My jobs were as follows: senior customs inspector, arms 
room, route reconnaissance, shotgun escort in and out of Dahran 
and Kuwait City, and general military police duties. Our first 
duty was to ship connex's of equipment, food, supplies, et 
cetera, back to the United States. They had to be emptied, 
inventoried, cleaned, inspected, packed, and sealed for 
shipment back to the United States. We were never issued any 
type of protective gear for this duty. In August, we received a 
severely damaged connex of unknown origin. Upon opening this, 
myself, Sgt. 1st Class Jattan, Staff Sgt. Henry Brown, Staff 
Sgt. Bogden and Sfc. Kevin Knight were drenched in a noxious, 
fuming gas that burned.
    We found later that the contents was DS, CS and super-
topical bleach. The substances mixed with the water that 
constantly drenched the tarmac and created this smoke. Everyone 
who had been in contact was rushed to the TMC and the rack was 
shut down; 2 to 3 days later it was reopened and we returned to 
duty. Two weeks after that it was shut down permanently and we 
were not permitted anywhere near it.
    Upon returning home in December, my symptoms have been 
severe headaches, nausea, peeling skin, fatigue, rashes, 
unknown scarring, dry mouth, weight loss, weight gain, numbness 
of the hands and feet, constant colds, the inability to heal 
well, consistent bleeding of the rectum, severe acid 
indigestion, sleeplessness, night sweats, vivid recurrent 
memories, unusual movements in the abdominal region, hair loss, 
slight memory lapses, consistent soreness of the joints and 
heart palpitations. I am seriously concerned over the symptoms 
and I'm heartily fed up with being told they are a figment of 
my imagination, that I'm getting old, or that I'm making myself 
ill, because I had been, but my mind is making my body think 
that it is unwell.
    I have never been anywhere near this ill in my entire life, 
had so many frequent colds, or felt so run-down. These symptoms 
also change from bad to worse. I get used to feeling bad and 
then get worse. And then I get used to that and it changes 
again. It's not getting any better, and I cannot accept that my 
mind wants to make these awful things happen to me. Walter Reed 
Army Medical Center claims it's somatiform disorder. The VA is 
saying PTSD. I can accept PTSD, purely because I was stationed 
in a combat zone. Walter Reed Army Medical Center's diagnosis 
is way off-base and has no merit.
    These doctors care nothing about us. They didn't even want 
to hear about what my unit or I went through, or any of the 
other soldiers that were stationed there. Somebody has to put a 
stop to this. We cannot continue to be treated this way. I'm 
sorry. We served our country loyally and without hesitation. We 
all deserve better. A GAO study needs to be done on all the 
facilities, and records need to be researched. How many of us 
have been treated and diagnosed in the same manner? There is a 
pattern here, and I'm sure that my testimony will not only help 
myself but all other Gulf war veterans who are going through 
the same uncalled for treatment.
    The thousands of us out here who are suffering along with 
our families cannot be mass-hypnotized into thinking that this 
is in our heads. Something is seriously wrong, and it needs to 
be investigated. I'd like to thank you for taking the time to 
listen to me. And God bless you.
    Mr. Shays. Your full testimony will be put in the record. 
You left out a good chunk of it, didn't you?
    Sgt. Sumpter-Loebig. Yes, I did.
    Mr. Shays. Well, God bless you. Sgt. Wood.
    Sgt. Wood. Yes, Mr. Chairman, distinguished committee 
members, my name is Staff Sgt. Steven Wood. I would like to 
thank you all for listening to me today. My road to sitting 
before you today began some 6 years ago in the desert sands of 
Iraq. Before I joined the on-line world 2 years ago, I was 
alone in my search for answers. I luckily found others on the 
Internet who are experiencing the same problems as I am. I 
stayed in contact with Denise Nichols. Her interest in what my 
German neurologist found is why I'm here today to tell you my 
story and the stories of the other sick veterans. These are the 
veterans who have been forced to seek medical assistance 
outside this great country's borders.
    These are my medical records from before I went to the 
desert. And these are my military medical records from 
afterwards. When I boarded the airplane in Germany that took me 
to Saudi Arabia in 1990, I was in perfect health, as these 
records indicate. Except for a massive infection in my left leg 
caused by a burn I received in combat I came through the Gulf 
war unscathed. Or so I thought. I even was awarded a bronze 
star medal from a unit I was not assigned to. In the Gulf war, 
my primary job was as a launcher's support team leader.
    My men and I were attached to Alpha Battery 4th Battalion, 
27th Field Artillery Regiment, Multiple Launch Rocket System. I 
stayed with this unit my entire time in Southwest Asia until 
returning to Germany a few weeks early in 1991 because of my 
health. As a school-trained area nuclear biological and 
chemical defense NCO, I was also the detachment NBC specialist.
    My health problems started some time around the first week 
of March 1991. While part of a convoy leaving Kuwait and 
heading back into Iraq, my driver and I stumbled across 
something that I feel changed our lives. We noticed an 
artillery round that was roped off with yellow engineer tape.
    Not only was this not normal, seeing as the other rounds in 
the same area were not treated this way--but the round itself 
appeared to be blue. Upon closer examination I saw it was a 
sort of a greenish-blue in color, with green and yellow painted 
bands. I remember thinking to myself how silly it was that 
someone would have brought practice rounds to a shooting war. 
Later that same day we arrived at our new position on what I 
believe was highway 8, replacing the 82nd Airborne.
    I now had time to look in my manuals for the markings I had 
seen earlier on the shell. I was shocked to see it was a 
perfect match for a Soviet nerve agent. Later that evening I 
developed flu-like symptoms and massive diarrhea. I submitted 
an NBC 1 report, but never heard anything else about the 
incident.
    While in this area bunkers were constantly being destroyed. 
One explosion in particular was extremely large. And we were 
told by our senior leadership, the engineers had just destroyed 
the largest Iraqi ammunition dump. The nearest town to our 
position was An Nasiriyha. When I returned to Germany, I 
continued to seek answers as to why I was not getting better.
    For at least 6 months straight I tried to get help and had 
many, many tests performed. It was about this same time I 
discovered that my medical records from shortly before the war 
until then had disappeared. It was at this point I began to 
suspect something might be amiss. I continued to get worse, and 
was sent from doctor to doctor. I never found anyone in the 
Army who was serious about helping me--or anyone else, for that 
matter. I was told to suck it up and drive on.
    And being a good soldier, I did. Unfortunately it got the 
point where I could no longer work to the standards of the U.S. 
Army. While still on active duty, I never received any real 
health care. I was told to quit faking, it's all in my head, 
and my all-time favorite: we do not know what's wrong with you, 
but you will be better in 2 weeks.
    In October 1995, I was placed on the temporary disabled 
retired list at a rate of 30 percent disabled. In April 1996, I 
was seen by a German civilian doctor who did more testing in 2 
hours than the Army did in 5 years. He found neurological 
damage during this visit. He told my wife and I, it looked to 
him as if I had been poisoned, and I might have multiple 
sclerosis. I took this information to an Army neurologist and 
was shocked at what I heard. I was told, ``I do not like you 
Gulf vets that say you're sick. I was there, and I'm not 
sick.''
    This doctor then proceeded to tell me she felt I had no 
neurological problems before even examining me and she flatly 
refused to even read the German doctor's findings. I have 
stayed in Germany along with numerous other veterans for a very 
good reason: free unbiased health care. The doctors may not 
have been able to fix us yet, but they are at least trying to 
get to the bottom of this mystery. Another very important 
aspect is that we do not have to deal with actual VA doctors. 
Every VA examination is done by a German civilian contractor.
    The Army states it is doing all it can for us. I was 
recently offered permanent retirement at 30 percent from the 
Army. This follows the Army telling Sen. Strom Thurmond in a 
letter that I was healthy and basically slipped through the 
cracks. Nearly every military doctor I have seen has stated 
they think nothing is wrong before they even examine me. The 
one military doctor that tried to help me was forbidden to do 
so at the last minute.
    In light of the hard time I have had with the Army and 
their attempts to understate what is wrong to me, I must make 
one thing clear to all of you: I have been found totally 
disabled by the Veterans Administration. In 5 days I have a 
formal Army medical board to appeal my rating of 30 percent. I 
am interested in what happens, since the Army still refuses to 
acknowledge that my health problems are Gulf war-related. It 
will be especially interesting since the VA has decided, ``The 
veteran was seen as exposed to an unspecified chemical.''
    Not only do I have to fight the Army for a fair disability 
rating, they have even refused to acknowledge my service and 
have withheld other awards from me. As I mentioned earlier, the 
VA has rated me at 100 percent disabled. This is retroactive to 
November 1, 1995. The VA currently owes me well over $20,000 in 
back benefits. Since speaking with the Washington regional 
office when I arrived here Monday, I have found out that 
Philadelphia did not take the appropriate actions to release 
this payment to me. Right now I have no idea when I will see 
the money that I was supposed to have weeks ago.
    I truly believe that if something had been done sooner to 
help me I would not be as bad as I am today. I am a non-
commissioned officer. I always took care of my soldiers. We 
need your help to take care of the others that can't get it. 
Thank you.
    [The prepared statement of Sgt. Wood follows:] 
    [GRAPHIC] [TIFF OMITTED] T3668.030
    
    [GRAPHIC] [TIFF OMITTED] T3668.031
    
    [GRAPHIC] [TIFF OMITTED] T3668.032
    
    [GRAPHIC] [TIFF OMITTED] T3668.033
    
    [GRAPHIC] [TIFF OMITTED] T3668.034
    
    [GRAPHIC] [TIFF OMITTED] T3668.035
    
    [GRAPHIC] [TIFF OMITTED] T3668.036
    
    [GRAPHIC] [TIFF OMITTED] T3668.037
    
    [GRAPHIC] [TIFF OMITTED] T3668.038
    
    [GRAPHIC] [TIFF OMITTED] T3668.039
    
    [GRAPHIC] [TIFF OMITTED] T3668.040
    
    Sgt. Sumpter-Loebig. Sir, if I may, could I finish my 
statement? I think it's very important.
    Mr. Shays. I would be happy to have you finish your 
statement.
    Sgt. Sumpter-Loebig. Thank you very much. I'm very sorry 
for the interruption. This is important to me and important to 
the two gentlemen who are here with me and every other veteran 
in the United States and anywhere else who is going through 
this. This is my experience at Walter Reed Army Medical Center 
in the Gulf war program. I was seen there by Col. Raymond Chung 
on Ward 64--is what they call it. And I started the program in 
August 1994. I felt the program hadn't helped any of the 
current and past symptoms I have experienced.
    Dr. Chung made the statement, ``You have to realize that 
you're getting old, Sgt. Sumpter.'' This was made in the 
presence of my husband. I will be 30 in July. The only answer 
I've been given is an ultimatum: send in my results to a board 
now and be awarded 10 to 20 percent of base pay for 1 year as a 
settlement or go through a 4-week physical training program 
designed to help me learn to cope with my symptoms--which they 
are describing as sympathetic and mind-induced--be taught how 
to be socially active with the rest of the world, learn how to 
use PT to forget my mind-induced sympathetic symptoms, and be 
sent back to duty.
    This is regardless if the symptoms are gone or not. We will 
do 1 to 2 hours of PT in the morning, then for the rest of the 
day be seen by numerous psychologists, psychiatrists, 
nutritionists, family counsellors, dieticians, and be placed on 
a certain schedule of times. The social activation will be 
trips to Washington to see the sights and learn how to interact 
with people. There will not be visitors or family allowed, no 
mail, and few if any phone calls. The reasoning for this, to 
Dr. Chung, is that we are being caused undue stress from our 
children, spouses, family, friends and strangers around us 
every day.
    Spouses and children will be allowed a few hours on 1 day 
near the end of the program to visit the programs. There will 
be only six to eight people at one time allowed through this 
program. After this extensive program we are then to go back to 
our units and dishonestly tell them that we are cured. When I 
pointed this out I was told that I would not be lying, and that 
if I believed this, the program would not work for me because I 
had a poor attitude.
    In January, I had been scheduled to take a psychological 
test for 6 hours for Dr. Fallensby. It was a battery of 
questions someone might be asked to take as a semester final in 
high school. There were lots of pictures, and I was asked to 
look at them and then later--5 to 10 minutes later--asked to 
draw what I remembered. I was given a letter of the alphabet 
and then asked to write down as many words as possible in that 
time that I could think of--and other such questions of the 
same nature. Based upon this test Dr. Fallensby determined that 
I was severely depressed, suicidal and angry at the world. This 
was all told to me by him during a session in his office during 
the space of maybe 30 minutes to an hour.
    This is a man I had never met and I do not know personally 
or even as an acquaintance. I find Dr. Chung's and Dr. 
Fallensby's comments and diagnoses degrading, unfounded, 
unprofessional and totally out of line and character, as do my 
family and friends, especially the rest of the world. My 
religious preference all my life has been Church of God. And 
the only thing that makes me angry is the fact that individuals 
who don't know me are insinuating that I could possibility take 
my own life when it is against my moral beliefs and 
understandings.
    If this was the case, why have I spent most of my life 
trying to help people, bring happiness, and, most of all, have 
been given a beautiful child to raise? I have dealt with my 
symptoms and numerous doctors for nearly 5 years now, and have 
always been patient and cooperative with everyone. Even through 
all the red tape and paperwork, no one could ever claim that I 
had no patience. Case in point, I recently found out that I 
have never been paid for my dependent.
    I have not been paid since December 1994 for monthly 
incapacitation pay and received only 4 travel voucher checks 
out of 20 completed and sent in August 1994. The problems all 
started when Maj. Cusack from the surgeon's office at ARPERCEN 
retired in February and Capt. Crisp took over his position and 
was then sent on TDY for 3 months. This happened before. It's 
all been caught up now. But this had happened in May. And since 
his departure a woman named Denise had been working in his 
place. And she is a civilian employee.
    I had not spoken to any military person within that office 
in that period of time. And shortly after he left for TDY, I 
spoke with Maj. Block, who was the individual who found my 
dependent paperwork on the bottom of my file. All military 
personnel have been very cordial and helpful since I was first 
enrolled in this program in January 1992. But this civilian, 
Denise, has answered all calls in-going to Maj. Block since and 
refuses to let me speak with them. When I have important 
questions she asks what they are and sometimes asks Maj. Block 
and calls back or gives her own advice.
    Example: when I call to speak with Maj. Block about the 
physical program settlement program option Dr. Chung was 
proposing, she said she didn't understand what the problem was 
in going through with the program, that her mother had to go 
through a similar program and it was very helpful to her. When 
I inquired whether or not her mother was a Desert Storm veteran 
her reply was no, but it didn't make a difference, I should be 
grateful for the program, finish it and go back to my unit and 
duty, that complaining about good military doctors who knew 
what they were doing was just plain silly, and to her it 
sounded as if I did not want to return to work at all.
    She refused to let me speak to Maj. Block about it. And 
when I stated that I was not satisfied with her answers, she 
replied she was only a civilian and could not or did not know 
what I needed. During this phone call I was home in my home 
town in my brother and sister-in-law's house with my fiance and 
my other brothers present. They heard the whole conversation. 
Is this what any veteran deserves? Do we mean nothing to 
anyone? Are we expected to be treated like this and not be 
upset with these programs? If two doctors--one civilian and one 
military--have declared that something is wrong and put it in 
writing, then why are their findings being dismissed by Walter 
Reed? Why are we being told to go through a program that wants 
us to lie to ourselves and to our unit? Why does this sound so 
much like a cover-up, not wanting us to really have an answer 
to any of this.
    What I want out of this is the disability that I think I 
deserve and so many veterans who have served in the Gulf. We 
went over and put our lives on the line. We were in areas we 
should have never been in. This isn't right. I would like to 
give you an account of what happened to me at the physical 
evaluation board at Walter Reed. And this was on January 7, 
1997 of this year. On January 30, 1996, I was seen at 
Martinsburg VA, West Virginia for a regional evaluation similar 
to Walter Reed Army Medical Center's Gulf war clinical 
evaluation. Dr. Bradley Soule, M.D., regional psychiatrist, met 
me for around 2 hours. His findings stated that I did not have 
somatiform disorder, that in his opinion it was quite clear 
that I have post-traumatic stress disorder. His explanation for 
PTSD hit close to home for me in that it finally gave me some 
sort of clue as to why I'm having some of the feelings and 
problems I am experiencing mentally in addition to the findings 
of other physicians concerning and acknowledging my chemical 
exposure without my previous admission of being exposed.
    This three-page letter of diagnosis was then submitted to 
Col. Carr, head of PEBLO, in January 1996 as a rebuttal of 
their somatiform diagnosis. Col. Carr's reply was that it was 
not admissible, and that Walter Reed Army Medical Center would 
stand by their diagnosis from Dr. John Fallensby. As you can 
imagine, I was shocked. Walter Reed Army Medical Center told me 
to seek other opinions and then told me that they were not 
acceptable.
    Dr. Soule is not the only psychiatrist I have seen and been 
evaluated by, either. In December 1996, I went back to the VA 
in Martinsburg to seek further evidence and medical attention. 
I was seen by Dr. John Haram, L.C.S.W. and Dr. Ali Asghar, 
M.D., in mental hygiene. After almost 2 hours with them they 
came to the same diagnosis as Dr. Soule. Their opinion was that 
my PTSD was so regressed and hidden consciously that I am now 
being counseled at their vet center every week. On the morning 
of January 7, 1997 at the PEB at Walter Reed, I presented the 
new evidence and the diagnosis of two different psychiatrists. 
Counsel and I were vying for the change of diagnosis from 
somatiform to PTSD.
    Capt. Jinny Chen met with the board and presented my offer 
to them. They declined it and told her that if I chose to be 
seen before them I would be found fit for duty due to my neat 
and healthy-looking appearance. One of the board members saw me 
and my husband in the waiting area and made this comment to 
counsel after my request had been submitted. I told counsel 
that I did not care about the rating or the money involved, I 
only wanted the diagnosis changed to PTSD from somatiform 
because of the opinions that I heard from other physicians and 
psychiatrists. Below are the two major reasons that I fought 
for this change.
    The definition of undifferentiated somatiform disorder is 
characterized by unexplained physical complaints lasting at 
least 6 months that are below the threshold for a diagnosis of 
somatization disorder. Somatization disorder, historically 
referred to as hysteria or Briquet's Syndrome: a poly 
symptomatic disorder that begins before age 30, extends over a 
period of years, and is characterized by a combination of 
unknown pain, gastrointestinal, sexual, and pseudo-neurological 
symptoms. Post-traumatic stress disorder, on the other hand, is 
the development of characteristic symptoms following exposure 
to an extreme traumatic stressor involving direct personal 
experience of an event that involves actual or threatened death 
or serious injury or threat to one's physical integrity or 
witnessing an event that involves death, injury or a threat to 
the physical integrity of another person, or learning about 
unexpected or violent serious harm or threat of death or injury 
experienced by a family member or other close associate. The 
person's response must involve disorganized agitated behavior. 
The characteristic symptoms resulting from the exposure----
    Mr. Shays. I just need to interrupt you. I'm trying to 
understand your point now. I'm losing your point.
    Sgt. Sumpter-Loebig. OK.
    Mr. Shays. I'm losing your point.
    Sgt. Sumpter-Loebig. The point is that the somatiform 
disorder is basically they're telling us that--well, they're 
telling me that I'm a hypochondriac, that there's nothing wrong 
with me, that I'm making myself sick with this somatiform 
disorder. OK? And if there is anything mentally wrong with me 
that has been found that I can actually believe in, it would be 
PTSD, purely based on the fact that I was in a combat zone for 
a year. That is the only point I was trying to make.
    Mr. Shays. OK.
    Sgt. Sumpter-Loebig. Is that OK? So I can skip the rest. As 
you can see from these definitions, I am thoroughly disgusted 
with Walter Reed and their poor excuse for a physical 
evaluation board. They know full well that they can throw us 
out and the VA will pick up where they leave off. This so-
called board is a sham, disgrace, and basically a sold-out jury 
of three officers who have found an excellent loophole for the 
military to escape responsibility to their used soldiers. This 
physical evaluation board says that I am not fit for duty or my 
civilian job title. But they aren't going to admit that there 
is a problem caused by our Southwest Asia service, because we 
are no longer of any use to them.
    From the moment an ill soldier walks into one of these 
military facilities and mentions they were in the Gulf, the 
decision and diagnosis are already decided upon. To cover 
themselves, they tell us to bring in other evidence to dispute 
their doctor. And when we do it is dismissed as irrelevant and 
non-admissible. These boards do not want to know how we are at 
home, how we feel, how our families and our friends are coping 
with what we're going through, what we were like before and 
what we are like now. They bring down their judgment swiftly 
and without any thought to our well-being.
    They didn't want to hear about the incident at the wash 
rack, the injections, the unfriendly fire we received, the 
contaminated areas we were assigned to, or any chemical-related 
incident. They also did not want to hear how their own 
physicians never asked any questions pertaining to my service 
in the Gulf or even with the mortuary. Fallensby didn't even 
know I was a veteran. He assumed my husband was the veteran. 
Something must be done to stop this. We cannot allow this to be 
ignored any longer than it already has been. It isn't just the 
soldier who is ill now. It's also the family members and 
spouses, children, friends. For once the Government needs to 
put an end to the cover-ups. After all, did we learn nothing 
from the Vietnam war?
    Are we going to head down the same path? Every soldier who 
has fought in a war for this country has the right to be 
treated like a human being and not some machine to be discarded 
when it can no longer function. Again, a GAO study needs to be 
done on the military hospitals, the physical evaluation 
process, physical evaluation boards and members, the VA system 
and members who have already been through these, and the 
physicians. Again, I would like to thank you for your patience 
in listening to me today.
    [The prepared statement of Sgt. Sumpter-Loebig follows:] 
    [GRAPHIC] [TIFF OMITTED] T3668.041
    
    [GRAPHIC] [TIFF OMITTED] T3668.042
    
    [GRAPHIC] [TIFF OMITTED] T3668.043
    
    [GRAPHIC] [TIFF OMITTED] T3668.044
    
    [GRAPHIC] [TIFF OMITTED] T3668.045
    
    [GRAPHIC] [TIFF OMITTED] T3668.046
    
    [GRAPHIC] [TIFF OMITTED] T3668.047
    
    [GRAPHIC] [TIFF OMITTED] T3668.048
    
    [GRAPHIC] [TIFF OMITTED] T3668.049
    
    [GRAPHIC] [TIFF OMITTED] T3668.050
    
    [GRAPHIC] [TIFF OMITTED] T3668.051
    
    [GRAPHIC] [TIFF OMITTED] T3668.052
    
    Mr. Shays. Thank you very much. The military hospitals took 
a pretty big hit today. And we're going to be asking some 
questions of all of you just to understand a bit about your 
experience. We'll begin with Mr. Sanders.
    Mr. Sanders. Thank you very much, Mr. Chairman. I want to 
thank all three of our brave veterans who are here today. It's 
not an easy thing to do, and we thank you for coming forward. 
Let me start in reverse order with Sgt. Wood.
    Sgt. Wood. Yes, sir.
    Mr. Sanders. Sergeant, I would like to concentrate on 
pyridostigmine bromide.
    Sgt. Wood. Yes, sir.
    Mr. Sanders. You indicate that you were given PB tablets--
I'm going to ask you a few questions, and then you respond 
however you're feeling comfortable. And I want to know if you 
were ever informed as to why you were taking the PB tablets? If 
you ever received any written material that describes the side 
effects of PB? Were you informed that PB had not been approved 
as a protection for chemical warfare? Did anyone attempt to 
monitor your medical condition after requiring you to take PB? 
Were you ever asked about your medical history before requiring 
you to take PB, and basically what you have learned about PB 
since your experience? Do you want to talk a little bit about 
that?
    Sgt. Wood. Yes, sir. As a school-trained NBC NCO I was 
taught that PB tablets were the treatment to take. They were 
there. And it's what we had to take if we wanted to survive. In 
the desert when we took the tablets, we were not told of any 
side effects. No record was given of taking PB tablets even 
whether we demanded that records be maintained.
    Mr. Sanders. What about the dosages? Were dosages 
controlled? Did people----
    Sgt. Wood. Yes, sir. A formation was held before the war 
started and we actually crossed into Iraq. A formation was 
held, and every soldier was monitored to take the pills. Once 
we crossed into Iraq during the war, every, I believe, 6 or 8 
hours, a radio call was put out and everyone was ordered to 
take their pills.
    Mr. Sanders. What do you mean by monitored? What I'm trying 
to get at, were the pills given out on a pretty strict basis? 
Were some people swallowing more, perhaps, than they should 
have? Was there supervision?
    Sgt. Wood. There was no supervision, sir. The full dosage 
was given--enough for 2 weeks, I do believe. Each soldier had 
their own in their blister pack.
    Mr. Sanders. Each soldier had their own?
    Sgt. Wood. Each soldier was issued their own. Yes, sir.
    Mr. Sanders. Might it have been possible that some were 
gulping down others?
    Sgt. Wood. It's highly possible that someone that was 
scared could have taken more.
    Mr. Sanders. And nobody really checked up on that? Do you 
have that impression?
    Sgt. Wood. No, sir. They did not check on it. The only 
checks made were: take your pills.
    Mr. Sanders. What's your conclusion? Have you learned or 
been thinking about PB since?
    Sgt. Wood. I've read much on PB, sir, since then, and it 
scares me. It scares me. I've learned that PB is designed to 
protect against one nerve agent: soman. And from the 
intelligence I saw when I was in the desert, soman was not a 
threat to us.
    Mr. Sanders. Have you talked to any of your comrades who 
might have also had problems that might be associated with PB?
    Sgt. Wood. The only incident of PB from people I served 
with, sir, are the people who refused to take it, and pretended 
to take it, and threw it away instead of swallowing the pills. 
And not one of them is sick.
    Mr. Sanders. That's interesting. You know, Mr. Chairman, we 
also know that--if my memory is correct--the French soldiers 
did not take PB as well, as opposed to some of the other 
coalition forces. And the initial readings that I found is that 
they may be doing better. The chairman would like me to ask 
you, what do you mean by ordered to take? Talk about that.
    Sgt. Wood. Ordered to take. The pills were issued. The 
commander or the 1st Sgt. of the unit would come across the 
radio and say, ``Take your pills now.'' Everything that we were 
given, from shots to PB tablets, were on threat of court-
martial if you did not take them.
    Mr. Sanders. OK. And you are familiar now with some 
research which suggests that the combination of PB combined 
with exposure to other types of chemicals and pesticides might 
be a cause of some of the problems some of our soldiers are 
suffering?
    Sgt. Wood. Yes, sir. I have read the studies that show if 
you take PB tablets and are exposed to a common bug spray, that 
you can actually force it across your brain membrane and cause 
the damage that I have and the other veterans have.
    Mr. Sanders. OK. Thank you very much. If I could very 
briefly ask Sgt. Sumpter-Loebig, to the best of your knowledge, 
are women who served in the Gulf coming down with particular 
ailments? Have you been bumping into other women who are 
suffering problems as well?
    Sgt. Sumpter-Loebig. As in female problems that men can't 
discuss?
    Mr. Sanders. Yes. Sure.
    Sgt. Sumpter-Loebig. Symptoms that the men are not having?
    Mr. Sanders. Yes.
    Sgt. Sumpter-Loebig. Basically, it's the hair loss and a 
change in our cycles.
    Mr. Sanders. Menstrual problems?
    Sgt. Sumpter-Loebig. Right. The bleeding rectum part of it 
I have encountered with very few males that I keep in contact 
with from my unit. It's mostly the females that are having this 
problem. And it's not just certain bowel movements, it's every 
movement.
    Mr. Sanders. Sergeant, just out of curiosity, did you take 
PB as well?
    Sgt. Sumpter-Loebig. We were given the pills by a staff 
sergeant who just said, ``Here, take these. You're supposed to 
take them. The medics gave us these to take.''
    Mr. Sanders. And do you remember how people--did people 
take them on a strict regimen or were they just stuffing them 
in their mouths? How did that work?
    Sgt. Sumpter-Loebig. He came around every so often.
    Mr. Sanders. Every so often. Yes?
    Sgt. Sumpter-Loebig. And just handed us four and five 
pills. And said, ``Here. Here's your medication.''
    Mr. Sanders. In your various treatments in the hospital, 
has anyone talked to you about that or asked you if you've 
taken them?
    Sgt. Sumpter-Loebig. No. Never.
    Mr. Sanders. OK.
    Sgt. Sumpter-Loebig. The first day I went to Walter Reed 
was August 30, 1994. And they took me into this nice little 
waiting room. And there was all these little doctors running 
around.
    Mr. Sanders. I'm going to cut you off. You know why? 
Because that yellow light turns red. The chairman is going to 
be nice to me. But let me keep moving here.
    Sgt. Sumpter-Loebig. OK. They were giving us coffee and 
stuff, and they gave us this little nine-page questionnaire. 
How's the treatment here? Did you take any of these pills? And 
they told us not to sign it. And then we turned it in to them. 
That's the first things they gave us: to see how the treatment 
at Walter Reed was.
    Mr. Sanders. OK. Thank you. Let me ask the major a 
question. Major, did you take PB, by the way?
    Maj. Donnelly. I took PB for about 3 or 4 days at the 
beginning of the air war.
    Mr. Sanders. Why only 3 or 4 days?
    Maj. Donnelly. Well, there was some discussion about 
whether the stuff was good for you or going to work or 
whatever. Probably the highly skeptical pilot crew. The way 
they gave it to us was, the flight surgeon just put it out in 
the little bubble packs, and said, this is for our protection 
against nerve agents. We took it for about 3 or 4 days. It 
seemed like the thing to do at the time. It looked like the war 
was going to be over fairly quickly. It was going well. There 
was no evidence that he was using the chemicals. Stopped taking 
it.
    Mr. Sanders. OK. Let me ask you this: I am interested in 
your remarks that, as I understand it, your symptoms became 
worse when you were out jogging and you were exposed to 
malathion?
    Maj. Donnelly. Malathion, yes.
    Mr. Sanders. Malathion. I'm sorry. What conclusion do you 
draw from that, or do your doctors draw from that? What 
happened as a result of that chemical----
    Maj. Donnelly. I believe that the initial incursion that 
happened to me that made me sick was something in the Gulf war. 
Studies on the inoculation for botulism and the anthrax shots 
we got, the PB pills, evidence now that we may have undergone 
low-dose multiple chemical exposures over there, started some 
problem in my system that the last rip of the paper or drop in 
the bucket or whatever was this organophosphate-based 
pesticide.
    Mr. Sanders. So, you think that just could have triggered 
off?
    Maj. Donnelly. Sure.
    Mr. Sanders. Yes. Now, you say something that's very 
interest-
ing, and I want to know more about this. You indicate--you have
a very serious and rare illness--and you said, ``I myself have 
found more than nine other Gulf War veterans, some who have 
already come before you, who are also suffering from ALS.'' You 
have found nine soldiers--and you're understanding, this is a 
very rare disease--and you obviously do not have the resources 
of DOD.
    Maj. Donnelly. Right.
    Mr. Sanders. Now, that is a very startling--and this is an 
unusual disease for people under 50. So statistically----
    Maj. Donnelly. I've been to neurologists and doctors all 
over the country, and to see how many people actually fought in 
the war and the number of people that have this diagnosis, the 
incidence is way too high. A lot of them are very interested in 
trying to find out the names and medical histories of these 
people, but the only people who really know all the names 
aren't letting them out. I know of--you know, I've had a doctor 
from the VA system, I think, tell my parents--or whatever--that 
there's 12 names on the list. But they won't give them the 
names because of patient confidentiality. I don't know if I'm 
on the list either. And some of them are no longer with us.
    Mr. Sanders. You're guessing, though, that there's an 
unusual cluster?
    Maj. Donnelly. Absolutely.
    Mr. Sanders. OK.
    Maj. Donnelly. If we get the real data out of the DOD or 
the VA, I believe that there would be some startling evidence.
    Mr. Sanders. I gather--and it's the basis of your 
testimony--but I'm gathering that you have no doubt in your 
mind that for somebody your age, somebody who has previously 
been in good health, that your condition was caused by your 
experience?
    Maj. Donnelly. Because of the way that it started and 
because of the similarity with the other people that have this 
disease from the Gulf war, yes.
    Mr. Sanders. OK. Major, thank you very much. Thank you, Mr. 
Chairman.
    Mr. Shays. I thank the gentleman. Mr. Souder.
    Mr. Souder. I want to say up front that not everybody in 
Congress or even on this committee begins to have the knowledge 
level of having gone through all the hearings like the chairman 
and the ranking member. And part of the point of this is not 
only to educate Members of Congress but also America as the 
information gets out. And you're to be commended for coming 
forth and speaking openly. Because when people know your 
patriotism and your commitment to the armed forces it comes 
across differently. And they can see it in your testimony than 
somebody who might be trying to weaken our military or what 
we're trying to do. There's an honest concern.
    And on the surface, as I've heard the issue in hearing 
today, it is hard to conceive, even if it isn't an established 
link, why the lack of interest in pursuing it isn't immoral as 
well as stupid even from a scientific standpoint. From the 
military standpoint as long-term. It's hard to fathom the types 
of stories you're saying, that you wouldn't immediately 
respond, ``Oh, this is something really important.''
    Not only is it fair for you as an individual, but to us as 
a country, to understand what's on here as the times are 
changing. And it's nearly unfathomable for me. It's also very 
hard to ask you questions because it is so personally 
devastating to you, the career you've chosen, the way you feel 
about your country, the health problems you've had and so on. 
But there's a couple that I want to ask. And understand that 
I'm trying to learn some of what's going on. One is that I was 
interested on the PB question that Sgt. Wood, you said that you 
knew that those who hadn't taken the pills didn't show the 
symptoms. Is there a data collection process now going on that? 
Is that an informal thing that you've learned?
    Sgt. Wood. No, sir. It's just the people I've talked to 
over time and met with. But the people that aren't sick aren't 
coming forward.
    Mr. Souder. Do you have any threshold or number of that? Is 
that something that--I mean, as we look at pursuing some of 
this, how many cases are--when you say that you know personally 
there are?
    Sgt. Wood. Highly informal, sir, at least seven or eight 
that I've bumped into, just from my old unit.
    Mr. Souder. And several of those didn't take the pills and 
they aren't showing the symptoms?
    Sgt. Wood. The seven or eight that did not take the pills 
have zero symptoms.
    Mr. Souder. And how many who took the pills are showing 
some of the symptoms?
    Sgt. Wood. I've met probably three times as many as that 
from my old unit.
    Mr. Souder. I had a similar question for Sgt. Sumpter-
Loebig. You said there were five of you--you gave, I think, 
five different names in the specific incident where there was 
the spillage?
    Sgt. Sumpter-Loebig. Right. The chemical spill.
    Mr. Souder. Are the other four showing different symptoms? 
I know different people react different ways. Some people 
aren't necessarily going to be as forward, some are time 
delayed. But I'm just trying to sort through, because you have 
the advantage of a very specific incident. What has happened to 
the others in that incident?
    Sgt. Sumpter-Loebig. Sgt. Jattan is from North Carolina. He 
is having bladder problems, and they're not getting any 
better--the same symptoms that I'm having. Sgt. Dowell in South 
Carolina has been diagnosed with cancer. He's receiving 100 
percent from the VA. He's not doing well at all. Sgt. Bogden in 
California cannot get any treatment from anybody, which I find 
unusual. He cannot even get treatment from the VA. So, he 
hasn't had any luck at all.
    Mr. Souder. But he's showing symptoms, as well?
    Sgt. Sumpter-Loebig. He has the same symptoms that we have. 
Henry Brown is in Arizona. And his wife is now showing the 
exact same symptoms that he is. Although the only different 
diagnosis that she has that's different from his is, there's 
something different with her blood work. I believe it's 
diabetes that has suddenly shown up. But these are 
individuals--we went through a 2-week medical test in Fort Dix. 
We were fit, healthy, PT-tested, stamped grade-A, good to go. 
And we come home and this is what we came home like. And it was 
not that we went over this way. We came home like this. Because 
we were perfectly healthy when we went.
    But the chemical spill, I think, triggered something more 
than that. We were sick when we got there. The entire unit was 
down with a flu-like cold after being injected with the shots. 
And that's when it started for all of us. My entire unit--the 
entire 164th was sick. We had three medical people there: a 
spec 4, a PFC, and a sergeant. And that is it. They took care 
of us.
    Mr. Souder. Maj. Donnelly, I have a similar question for 
you. You flew through the oil fires and were in several 
locations.
    Maj. Donnelly. Right.
    Mr. Souder. And you said some of the people had some of the 
different pills. Have you seen other people in your particular 
unit, in your area, have similar type things, different? How 
could you describe some of the correlation of those who were 
similarly exposed like yourself?
    Maj. Donnelly. Part of the difficulty in doing that is that 
my unit got back to Germany and was immediately disbanded as 
part of the draw down. So, you know, 35 to 40 guys in a flying 
squadron all went different ways for the most part. In my 
efforts to try and track them down--one other guy in my unit 
that I've found has been having problems with dizzy spells and 
things like that. I have run into other Gulf war pilots who 
were in other aircraft that have had the same kind of heart 
palpitations, sweats, trouble concentrating, fatigue, things 
like that.
    Mr. Souder. Well, you being here today, hopefully will make 
some others in your unit aware if they're having problems. It 
would be helpful, because just from a--let me ask you another 
question. Given the fact that at least two of you gave, now, 
specific instances with a reasonable sample size, has anybody 
in the military or in the VA or any doctor said that they've 
looked at the group as a whole to look at any commonality?
    Because what you tend to see in the media are a lot of 
random-type things. But you've given us examples that there's 
names, there's a time, there's a date, there's a number of 
people, there's a pattern. You're saying you've seen, at least 
informally, you've got potentially a sample size of 25-30 
there. Those things--why do you think--well, we can speculate 
as to why we think there hasn't been--do you have anything 
other than the fear that it might look bad or monetary? It just 
seems so strange that somebody wouldn't pursue this. Or, like 
you say, that they have the names and nobody else can follow it 
up. Anything else you want to suggest into the record as to why 
that's the case, why, if you were in command, you wouldn't do 
that?
    Sgt. Sumpter-Loebig. I know by personal experience that, 
when they sent my unit--the 164th--to the KKMC, that that city 
was evacuated because it was contaminated and they knew it. And 
they sent us there anyway. The water was contaminated. The area 
was contaminated. Everything was stripped and gone. And they 
sent us in there. Even the Saudis were not there. They were 
evacuated.
    Mr. Souder. Let me ask you this question--and this is a 
really difficult question--but to some degree, when you go into 
the military, there's going to be a certain amount of risk, and 
you know that risk. And presumably, you knew there was some 
risk as you were going through this because they were bringing 
up the tablets and some of that. But isn't one of the presumed 
things that when you take the risk, that you're going to be 
covered if the risk--in other words, there are two sides to the 
risk? And that's one of the scary things as a parent and as 
somebody who is concerned about how we maintain a volunteer 
army, is that you, in fact, knew there was some risk, because 
you've already eluded to the fact that there was a question of 
whether he was going to use chemical weapons, you knew they 
were giving you pills, you knew that conditions weren't always 
going to be sanitary. But you assumed the good faith that the 
military was trying to do what they could, and if it didn't 
work they'd take care of you. Is that a correct assumption?
    Sgt. Wood. Yes, sir. That's true. And I'm sure I speak for 
everyone. When you join the military you fully realize that 
you'll go to war. And when you go to war, you're fully prepared 
to give your life to do what your country asked you to do. But 
we were all wounded on the battlefield and then swept under the 
carpet. Not one promise was kept to take care of us. I was one 
of the first participants in the comprehensive clinical 
evaluation program. I was not asked one single time what I did 
in the Gulf war by any member of DOD. Not once.
    Sgt. Sumpter-Loebig. Then, too, they take us through basic 
training, and we train completely throughout our career in the 
military using mock gear, know how to use your weapons. Well, 
when you get over there and you get into a war like we got 
into, we didn't even get issued any protective gear. There was 
none to be issued. There was nothing.
    Mr. Souder. Once again, thank you for your work for our 
country. And hopefully, by you coming forth you cannot only 
help yourselves but others.
    Mr. Shays. The Chair now recognizes Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman. Thank all of you. Your 
testimony has had an impact, I know, on me, and I'm sure on 
every member of this committee, the people in the audience and 
across the country. You've done a real service to your country 
today. I can't help but think back to almost 20 years ago when 
I was representing some people who had been sprayed, whose 
homes and gardens had been sprayed with an herbicide.
    And many of the symptoms that they complained about were 
the same. And I have a question, but first a general comment. 
What strikes me about this entire situation is that our medical 
profession is able to say, if it's a virus or a bacteria or a 
physical cause, we go after it. But we are not doing a good 
job, certainly within the military, and perhaps, to some 
extent, outside the military. We are not doing a good job 
identifying the cause of some--whether it's pollution or 
chemical or biological agents that cannot be easily and quickly 
identified, we simply are not doing a good job about that.
    And I said earlier, this is a sorry record of performance. 
And it needs to be improved. And I really believe that we have 
to focus on how to get to the bottom of illnesses that do not 
affect each individual in exactly the same way, because they 
are not caused by one virus or one bacterium. They affect 
different human beings in different ways. And it strikes me 
that we have failed at doing that. Maj. Donnelly, I do have a 
question for you. This is a hearing about the Gulf war and what 
happened there. And your testimony, for all three of you, has 
been compelling on that ground.
    But I was struck by the statement that you made that when 
you were at Shepperd Air Force Base in Texas, it was the base's 
policy to spray with a fogging truck throughout the base 
housing, where you lived with your family, the chemical 
malathion. I have some apple trees. I don't use malathion, 
because it's bad stuff. And Mr. Chairman, I don't know if this 
is appropriate, but I can't remember what the malathion label 
says, but I'd like leave to go down to the hardware and get a 
bottle and put the warnings on the label into this record.
    Because I think that that in itself is something that 
should be looked at. And, Major, I'd be interested--you said in 
your testimony that in talking with other people who have ALS 
and other Gulf war veterans, that there seemed to be a common 
thread. And you described that common thread as some kind of 
subsequent exposure to a strong chemical or pesticide. Could 
you elaborate on that?
    Maj. Donnelly. Sure, Maj. Randy Ebert, U.S. Marine Corps, 
testified before this committee--I don't know if you remember, 
his dad read his testimony, his wife was there--he came back 
from the Gulf and he was doing OK until they sprayed his house 
for cockroaches. He happened to be in the house and in the 
garage when they sprayed it. Immediately after that he started 
having the same trouble I did.
    Mr. Jeff Tack testified before this committee. He came back 
from the Gulf, didn't feel quite right, but wasn't having any 
serious problems until they treated his whole family and 
himself with lindane for head lice because the school had been 
having a problem. Right after that he started having the same 
symptoms, and was subsequently diagnosed with ALS.
    Mr. Allen. Do you take this to be an indication that 
exposure to chemical agents can sensitize human beings to 
subsequent exposure, so that the kind of exposure to malathion 
or some other chemical agent that for most people would not 
have an effect, for some people who have been previously 
exposed would set off all the alarms or cause health problems 
or contribute to the accentuation of health problems that they 
already have to some degree?
    Maj. Donnelly. Do I feel that's true?
    Mr. Allen. Yes.
    Maj. Donnelly. Absolutely. What you said--your opening 
statement--was right on the head. You nailed it.
    Mr. Allen. OK.
    Maj. Donnelly. And you're going to find that some people, I 
think, are genetically predisposed. Some people have 
environmental or exposures prior to, which they are not able to 
detox and the body hangs on to. It's like ripping a piece of 
paper or filling a bucket with water: eventually you get the 
last drop, which, if you follow that line of reasoning, they 
should be warning the other people who are out there to say, 
``Hey, either you stay away from that kind of stuff or you're 
going to get sick, too.'' Some may not ever. Some people may be 
able to handle it just fine.
    Mr. Allen. Right.
    Maj. Donnelly. But I don't want anybody else to have to go 
through this.
    Mr. Allen. I don't want anyone to do that, either.
    Maj. Donnelly. Right.
    Mr. Allen. Thank you very much.
    Mr. Sanders. Would the gentleman yield briefly for a 
second?
    Mr. Allen. I'd be glad to yield.
    Mr. Sanders. Mr. Allen touches on almost the definition of 
what is now called multiple chemical sensitivity. And that is, 
the body has absorbed a significant amount of chemicals and 
then exposure to something new and strong occurs; it triggers 
off a reaction. And I think the point that the major is making 
is of extraordinary importance. And that is, we may have 
hundreds, thousands--we don't know--of walking time bombs of 
young men and women who served, who, if exposed to a strong 
chemical, could trigger off a serious problem. And I think your 
point is an excellent point, Major, in that to the degree that 
we understand that, that word should get out, that if you think 
you're sick now, stay away from these things. And did you want 
to elaborate on that?
    Maj. Donnelly. That would be preemptively treating people.
    Mr. Sanders. That's right.
    Maj. Donnelly. Yes.
    Mr. Sanders. That's a very important point.
    Mr. Allen. I'd be glad to yield the balance of my time.
    Mr. Sanders. I'm fine.
    Mr. Allen. Thank you very much.
    Mr. Shays. We don't have a time problem in this committee. 
And, so, we can come back. Thank you. Thank you, Mr. Allen. Mr. 
Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman and members 
of the committee. I want to say first that Chairman Shays, I 
know you've held numerous hearings on this, and I'm proud to be 
on your committee, because you've done an excellent job of 
bringing this issue to light. When no one else really wanted 
to, you'd pursued the truth on this. And the facts that are 
being extracted are crucial to understand what happened in the 
Gulf, and also crucial to helping veterans who have been told 
too long that their symptoms are psychological.
    And as has been pointed out by Representatives Sanders and 
Allen, perhaps, to provide some further caution to those who 
have not yet been affected by the symptoms but could be. 
There's a few things that are apparent here, Mr. Chairman. And 
that is that the Department of Defense failed to properly warn 
of the dangers, that the Department of Defense failed to 
properly diagnose or treat the veterans, that the Department of 
Defense is failing to adequately compensate the people who have 
been affected, and, based on what we just heard, that they are 
failing further to caution in the sense to provide preemptive 
treatment.
    The question I have to all of these things that are 
becoming obvious with the testimony is why. Why not inform 
people if they're taking PB that there could be consequences 
and symptoms based on the dosage? Or why not inform people that 
malathion, whether it's sprayed in an area that's safe and in 
the States or in the field, could have serious effects? Why not 
inform people when they're being inoculated for these various 
potential disease encounters that can have side effects.
    I'm wondering why--and if it is true that the CIA in fact 
didn't know in 1984 that the--we're told that the CIA has 
received numerous warnings starting in 1984 that chemical 
weapons were stored in Iraqi munitions bunkers, but failed to 
alert the United States military. You know, you, the witnesses 
here, you did not fail your country, your country is failing 
you. And what we need to do in order that we justify your 
presence in that war, is to get the answers: what did the CIA 
know; when did they know it; why didn't they communicate it to 
the Department of Defense or did they communicate it to the 
Department of Defense; and for some nebulous idea of national 
security, nothing was said?
    Your presence here cries out for justice, for you 
personally, for your fellow servicemen and servicewomen. But it 
gets into some deeper issues of national security which have to 
do with, if we knew those dangers were out there in the first 
place and that our troops could be exposed to chemical weapons 
in the first place, what in the world were they doing there? 
And later on you pay the price. But, you know, Mr. Chairman and 
members of this committee, there are profound national security 
interests that were at stake there. But was the national 
security best served by sending people out into an area when 
the U.S. Government was in the position of information that 
there were munitions stored there?
    And they were in position of information because the CIA 
received warnings. That's what we have a CIA for. And they're 
supposed to pass that information on so that our men and women 
out in the field are not going to be hurt, so that they're 
protected. Now, it's not enough for the Department of Defense 
to say that they really didn't know, and for the CIA to admit 
that they had received some warnings but didn't pass it on. So, 
this committee, while we have an obligation to assist you who 
are testifying here today in getting vindication, in getting 
treatment, but not just treatment. Because from what I hear 
you've all been treated and treated and treated.
    But what we're not being treated to by the Department of 
Defense is the truth. It is reprehensible that people who have 
these multiple symptoms are just told that it's all in their 
minds. I'd like to know, Major, as a high ranking officer, were 
you given any indication of the numerous dangers that could lie 
ahead from your superiors?
    Maj. Donnelly. I knew full well what the dangers were. I 
knew they had chemical weapons. I knew they had surface-to-air 
missiles. I knew they had AAA. I knew what I was getting myself 
into when I signed up.
    Mr. Kucinich. Were you told that the chemical weapons were 
stored in Iraqi munitions bunkers?
    Maj. Donnelly. I knew that they had storage areas and 
production facilities. I was told that the way that we bombed 
them and the munitions that we used to bomb them would totally 
eradicate the material and not release into the atmosphere. 
Because we were worried about that, too. But the munitions we 
used against those known facilities and the way that we bombed 
them was supposed to wipe this stuff out.
    Mr. Kucinich. But that didn't happen? Or did it?
    Maj. Donnelly. Well, I think evidence shows now that it 
didn't happen.
    Mr. Kucinich. And what kind of bombs were you using?
    Maj. Donnelly. My unit specifically?
    Mr. Kucinich. Right.
    Maj. Donnelly. I did not use any--I used regular high 
explosive incendiary bombs, some cluster bombs, things like 
that.
    Mr. Kucinich. Now, Mr. Chairman and members of the 
committee, one of the most difficult things for our country to 
assess at any time is the possibility that we may have brought 
greater casualties upon ourselves than the enemy did. And the 
testimony here leaves so many open questions as to what you 
were told and what happened that it not only justifies this 
hearing but it justifies, I think, a deeper inquiry. I was 
listening to the testimony, making out my own little chart here 
of exposure symptoms and exposures--and people didn't have 
symptoms, and people who weren't exposed and showed symptoms, 
and people who neither had exposure nor showed symptoms.
    And you wonder, if I can do that in a few minutes listening 
to your testimony, why hasn't some person in the Department of 
Defense who has lived with this for years been able to just do 
a study which I think would probably demonstrate that people 
who were exposed to PB, malathion, inoculations and chemical 
warfare have been demonstrating these symptoms, and that people 
who were exposed and perhaps didn't have symptoms, and then 
come up with an epidemiological study. Mr. Sanders.
    Mr. Sanders. Will the gentleman yield?
    Mr. Kucinich. I'll yield.
    Mr. Sanders. I think you raised the question that I raised 
in my opening remarks, in that what is very frustrating for 
many of us who have gone to these excellent hearings put 
together by the chairman and his staff, is that these same 
questions come up over and over again: why not, why not, why 
not? Now, the good news is that outside of the Pentagon and the 
VA some very serious research is being done showing the 
correlation, the problems of the synergistic effect of PB and 
various other chemical exposures. Some very important findings 
are taking place. They're not taking place within the defense 
establishment. The conclusion that I have reached, for whatever 
reason--I'm not even interested in speculating--is that it 
isn't going to happen.
    You know, you can knock it and knock it and knock it. But 
for whatever reason, it's not going to happen. Therefore, I 
think we owe something to 70,000 veterans who are sick today to 
say, ``Sorry, the defense industry is not going to do it. The 
Defense Department is not going--we're going to have to go 
where the action is.'' And there's some very fine researchers. 
And I think we should bring them together, probably either at a 
university or in a non-military agency of the U.S. Government, 
bring the best minds together, develop a Manhattan type 
project, say we want immediate analysis, diagnosis, and 
treatment therapies. I don't think it's going to--I think if we 
keep going with the DOD and the VA, we're going to have this 
discussion 10 years from now. And I think we've got to 
recognize that.
    Mr. Kucinich. I thank the gentleman for his perceptive 
comments. I think we also need to pursue this to make sure that 
it doesn't happen again. Because PB is still being used. Is 
that--I would assume. Does anyone have information to the 
contrary? You know, there's still spraying with malathion going 
on. It's still--I don't think it's banned. They're still 
inoculating people if they're going into areas that are 
potential hazards. And we still have the threat of chemical 
warfare. That issue is before the Senate right now.
    So, considering that all those factors are still evident, I 
guess part of the challenge here is not only to try to remedy 
the horrible pain and suffering that you've been through, along 
with the other service persons, but also, what can we do to 
make sure that this doesn't happen again? We're clearly being 
given plenty of testimony to suggest that there is a causal 
relationship here. And if there is, as your hearings have 
revealed, Mr. Chairman, then we certainly are in a position to 
make recommendations to be certain that more service men and 
women are not going to be affected the way that you have.
    Because we're doubtless going to be ending up in situations 
in the future that are similar. How do we stop it from 
happening again? Thank you, Mr. Chairman. Thank you, members of 
the committee.
    Mr. Shays. I thank the gentleman. And it's good to have you 
on the committee. I just need to clarify a few points before we 
go on to the next panel. All three of you were career 
servicemen and women?
    Maj. Donnelly. Yes, sir.
    Sgt. Wood. Yes, sir.
    Sgt. Sumpter-Loebig. Yes.
    Mr. Shays. Note for the record all three have responded in 
the affirmative. There are many things, as committees learn. 
And we're getting to the point where we'll be issuing a report 
and making some recommendations as well as continuing our 
hearing. One thing that is very clear is that there is no one 
illness, no one symptom, no one cause. That seems fairly clear. 
Another thing that is eminently clear is that all of our 
soldiers who were ill were voices crying in the wilderness 
literally. And your treatment with, in many cases, with 
military hospitals, and with the VA, were found wanting in a 
significant way. That's very clear.
    It's very clear that nobody wanted to know what you did in 
the service. They didn't want to know how you were exposed. And 
I can't think of anything more heart wrenching when you're in 
front of someone who you're seeking help from who seems very 
disinterested. It's also very clear to me that the military 
misuses chemicals, workplace chemicals, in ways that we would 
never allow in the public sector and in the private sector back 
home. That is very clear to me. And with that, I first want to 
ask you, Ms. Sumpter, Sergeant, you had experiences of using 
lindane? Were you involved with using lindane on the troops, or 
were you just in an area where that was happening?
    Sgt. Sumpter-Loebig. KKMC was the area where we were 
bringing any stray enemy prisoners of war in.
    Mr. Shays. Right.
    Sgt. Sumpter-Loebig. And there was a containment area. And 
while we were guarding this perimeter--it was nothing more than 
concertina wire in three different perimeters.
    Mr. Shays. Right.
    Sgt. Sumpter-Loebig. OK? There was the outside perimeter. 
And they had a couple of guards. And then your inside perimeter 
was a little more. And then further inside it was more. And 
then there was the prisoners. And that's the only way that we 
could contain them. And this was out in the open all day and 
all night. And, yes. They sprayed them off out there. And with 
the wind. And there's no trees. And the storms. Everything blew 
back right in our faces.
    Mr. Shays. OK. So, you weren't administering the spray, but 
you were----
    Sgt. Sumpter-Loebig. We all were wet with it when we were 
out in that area.
    Mr. Shays. OK. And this happened for an hour or so? Or did 
this happen for days?
    Sgt. Sumpter-Loebig. It depended on how rapidly we were 
moving the prisoners in through this containment area and then 
getting them to the hospital.
    Mr. Shays. So, you were basically, in a sense, managing 
these--herding people into one room--escorting them, whatever--
and so this happened on a continual basis?
    Sgt. Sumpter-Loebig. Yes, sir.
    Mr. Shays. OK. Now, let me just--you had that experience. 
Lindane, in this country, would be regulated in its use.
    Sgt. Sumpter-Loebig. It's supposed to be regulated.
    Mr. Shays. Yes.
    Sgt. Sumpter-Loebig. But it was being used. These people 
were really infested with a lot of little creatures.
    Mr. Shays. Yes. OK. Now, when you came to both the military 
hospital and the VA and you maybe explained an experience like 
that, was there any interest?
    Sgt. Sumpter-Loebig. Through the VA?
    Mr. Shays. Yes.
    Sgt. Sumpter-Loebig. There was some interest at the VA when 
I was speaking with one of the specialists who was examining 
the scars that I received over there.
    Mr. Shays. How about the military hospital?
    Sgt. Sumpter-Loebig. No.
    Mr. Shays. Did you attempt to explain to them?
    Sgt. Sumpter-Loebig. Yes, I did.
    Mr. Shays. Now, you had another experience with the 
chemical that--the canister and so on. Would you just very 
briefly describe that again to me?
    Sgt. Sumpter-Loebig. The chemical wash rack experience?
    Mr. Shays. Yes.
    Sgt. Sumpter-Loebig. We had received a damaged connex that 
was brought in. We had no clue where it was, who it belonged 
to. When we opened it, these chemicals all came out and hit the 
water. We had a standing pool of water like this all the time. 
We had fire hoses deconning the inside of these connexes for 
shipment back to the United States. Everything had to be 
cleaned and packed and made sure there was no living animals, 
no plants, no illegal substances in the containers.
    Mr. Shays. Right. And in the process of the chemical 
spilling, what happened? Was there a fog? Was there a mist? Was 
there a----
    Sgt. Sumpter-Loebig. It was a really, really thick--if you 
want to call it a mist, a fog. It just turned into this really 
thick cloud of smoke.
    Mr. Shays. Now, when you attempted to explain--because that 
was of concern to you, correct?
    Sgt. Sumpter-Loebig. Pardon me?
    Mr. Shays. That was of concern to you?
    Sgt. Sumpter-Loebig. Yes. That was a great concern to me. 
We were working on this wash rack. And I've been a Customs 
Inspector for 10 years. And they're telling me we don't need 
any chemical protective gear out there. We're using equipment 
to decon these containers, but we don't need any chemical 
protective gear.
    Mr. Shays. Let me just have a sense, never having served in 
the military. If you said, ``There is no way in hell that I am 
going to do this, because I think this is dangerous,'' what 
would happen?
    Sgt. Sumpter-Loebig. That was brought up several times by 
myself and the other NCOs that were on the wash rack. We were 
told to do our jobs, that the wash rack was priority No. 1, and 
that all other matters were expendable.
    Mr. Shays. So, you had concern at the time and wanted to 
show more caution, but you were under orders to proceed?
    Sgt. Sumpter-Loebig. We were under orders to proceed. This 
was priority No. 1.
    Mr. Shays. There's a gentleman in Connecticut who, from New 
Britain--Sgt. Dulka--whose job was to spray lindane day in and 
day out on the thousands of troops that were caught in his 
area. He died of pancreas cancer, I think. And he was in a 
confined area. I think he was actually in a tented area with no 
ventilation for days in and days out. That would never be 
allowed in a civilian population. The Government would go after 
whoever did that and prosecute them. In Mr. Dulka's case, he 
was under orders. He would have been court-martialed if he 
didn't carry out his orders.
    Sgt. Sumpter-Loebig. Correct.
    Mr. Shays. So, one thing is very clear to me. The workplace 
of the military, and what soldiers have to do, has to be 
totally examined by the Defense Department. Anyhow, Mr. Wood, 
your concern is that you were--Sergeant. I'm sorry.
    Sgt. Wood. That's OK.
    Mr. Shays. Your concern was that you were at Khamisiyah 
exposed to the plumes, et cetera, from the blowing up of the 
depo, is that correct?
    Sgt. Wood. No, sir. I actually was sick before that 
happened.
    Mr. Shays. Pardon me?
    Sgt. Wood. I was sick before those explosions occurred, a 
day or two before. We went through and ammunition storage area 
that had been blown up by the allies. There were chemical 
rounds laying on the ground that I accidentally stumbled 
across. And that was the day I got sick. And that has been 
attested to by my commander at the time.
    Mr. Shays. Now, again, you didn't find much sympathy when 
you expressed concerns. First off, were you ever required to 
carry out an order that you thought was dangerous to your 
health, like Sgt. Sumpter; she and her crew expressed concern 
about it. But you weren't in that same kind of circumstance. 
You weren't administering chemicals and so on.
    Sgt. Wood. No, sir.
    Mr. Shays. But was there anything--did you have protective 
gear?
    Sgt. Wood. Yes, sir. We have protective gear.
    Mr. Shays. Did you ever go to MOPP4?
    Sgt. Wood. Yes, sir.
    Mr. Shays. OK. How many times?
    Sgt. Wood. I can't even begin to count, sir.
    Mr. Shays. Seriously? More times than you can think of?
    Sgt. Wood. Well, I also have trouble remembering, sir.
    Mr. Shays. OK.
    Sgt. Wood. But it was a minimum of 10 times we went to 
MOPP4 before we even went into Iraq.
    Mr. Shays. OK. And in every instance, you're being told 
that that was a false alarm?
    Sgt. Wood. Practice.
    Mr. Shays. OK.
    Sgt. Wood. Practice, sir.
    Mr. Shays. It was practice. It was not based on an alarm?
    Sgt. Wood. No, sir.
    Mr. Shays. OK. So, you never had an alarm go off that said, 
you better put on your gear?
    Sgt. Wood. Almost every day during the air war, sir. Almost 
every day during the air war our alarms went off. And at times, 
the alarms would go off, and they would say, ``It's OK. Do not 
put your gear on. This is practice.'' I would get into my truck 
with my men to go pick up spare parts or deliver a port that 
had to be taken somewhere else. And every other unit on the way 
is in MOPP4.
    Mr. Shays. OK. Now, but were you also in Khamisiyah, as 
well?
    Sgt. Wood. We were in the area. We were near An Nasiriyha, 
is what we were told. And one explosion, in particular, that I 
remember, was so huge it actually shook the tent sides. You put 
sand on the side of the tent to hold it down, to keep wind from 
blowing through. And it knocked the sand off the tents. It was 
that big of an explosion. And we were told that we were near An 
Nasiriyha.
    Mr. Shays. Now, is it your testimony that your--your wife 
is German, is that correct?
    Sgt. Wood. Yes, sir.
    Mr. Shays. And you live in Germany today?
    Sgt. Wood. Yes, sir.
    Mr. Shays. Is your testimony that you are there as a 
convenience or because you believe that you will get better 
health attention there? If health was not an issue, would you 
be in the United States today?
    Sgt. Wood. When I was being processed out of the military 
for retirement, we had to decide what we wanted to do. We could 
either stay in the United States or come to Germany. And we 
weighed all of the possibilities. In the United States our 
money would go much further, and we could have so much more in 
housing and so forth. But I could not get medical care. I could 
not get insurance. In Germany, I am covered. I am covered for 
free. And the doctors have zero limitations on what they can 
do. I am in Germany because of health care.
    Mr. Shays. OK. You're in Germany because of health care, 
but not because it's free?
    Sgt. Wood. It is free for me, yes, sir.
    Mr. Shays. No. But it would not be free for you in the 
United States as a retired medically-discharged soldier? I'm 
not clear about this.
    Sgt. Wood. Access to the hospital would be free. Yes, sir. 
Medical care? I have never seen it.
    Mr. Shays. OK.
    Sgt. Wood. In a military facility.
    Mr. Shays. It is also regarding--I want to be really clear 
on this.
    Sgt. Wood. Yes, sir.
    Mr. Shays. And I don't want to put words in your mouth.
    Sgt. Wood. Yes, sir.
    Mr. Shays. So, what I was hearing you imply was that you're 
there because you also think you get better health attention, 
not just because it's free?
    Sgt. Wood. Yes, sir. To make it more specific. If I walked 
into a military hospital today, after speaking with you, I 
would still more than likely be told, ``There's nothing wrong 
with you,'' be offered no treatment. But if I go to a German 
physician, he will do tests. He will try to do his best to find 
out what's wrong and treat me. Yes, sir. That's what I'm 
saying.
    Mr. Shays. And--does the gentleman need to yield?
    Mr. Sanders. No. I was just--another subject. As an 
advocate of a national health care system, which Germany has, I 
think that tells us something about the care. But that's 
another subject.
    Mr. Shays. Well, but--and we can get into that--but what I 
want to get into is, I just want to know if your testimony 
today as an American citizen is that, as someone who I sent 
with my vote, to the Persian Gulf, because I have absolute 
total conviction that your mission was extraordinary 
important----
    Sgt. Wood. Yes, sir.
    Mr. Shays [continuing]. And I believe what all three of you 
did was not just for the good of the United States and Europe, 
but for the entire free world. I believe that with all my heart 
and soul. I just want to know if you're saying to me that you 
are in Germany today because you think that doctors in Germany 
will pay more attention to you and provide better diagnosis and 
treatment for you, even though you aren't even a German 
citizen, than you would get in the United States? And that's 
what I'm trying to nail down.
    Sgt. Wood. Mr. Chairman, I am American. I love my country. 
And it pains me terribly. But, yes, that is what I am saying. I 
must live in Germany to get the care I need.
    Mr. Shays. Would the issue of the nerve pills----
    Sgt. Wood. Yes, sir?
    Mr. Shays. The military had to go to the FDA and have an 
informed consent waiver. The pyridostigmine bromide [PB] is 
used for treatment of a particular illness.
    Sgt. Wood. Yes, sir.
    Mr. Shays. And this was being used in a different way. Now, 
the military was given permission--allowed to have you all take 
these pills. But they were not given permission not to inform 
you. In other words, the deal was, you were to be informed.
    Sgt. Wood. Yes, sir.
    Mr. Shays. Now, all three of you took these pills. And I'm 
going to ask each of you. Were you informed that this was, in a 
sense, an experimental drug and it could have negative side 
effects? And I'm going to ask each of you. Sgt. Wood.
    Sgt. Wood. No, sir.
    Sgt. Sumpter-Loebig. No, sir.
    Maj. Donnelly. I don't recall. I was never given anything 
in writing. I don't recall exactly what the flight surgeon said 
when he put them down. I do remember a discussion of, what is 
this?
    Mr. Shays. Right.
    Maj. Donnelly. Some kind of mistrust of it. But nothing any 
specific----
    Mr. Shays. That's just because you're a pilot.
    Maj. Donnelly. Yes.
    Mr. Shays. You're taught to think that way. You know, and 
Major, I was thinking, you flew for almost 15 years.
    Maj. Donnelly. Yes.
    Mr. Shays. And you're in a wheel chair today. And you want 
to be healthy. And you also probably want to fly.
    Maj. Donnelly. Yes.
    Mr. Shays. There's the one issue of the misuse of chemicals 
by the military. And all military personnel being under orders 
sometimes to use chemicals that is not appropriate. But you 
follow orders. That's what you're taught. And then there's the 
whole issue of offensive or defensive use of chemicals. In 
other words, defensive is when we blew up chemical munitions 
plants and depos of the Iraqis, some by plane, some by 
personnel on the ground. Maj. Donnelly, are you aware whether 
any of our targets were chemical plants?
    Maj. Donnelly. I don't think I bombed specifically a 
chemical plant. I bombed some weapons storage areas like 
Khamisiyah. When you look at it from the air, it's a huge 
complex. I have video tape from my airplane of Khamisiyah. We 
used to fly the combat air patrols over that area after the war 
was over in the no-fly zone. So, we would check on those areas 
daily. I bombed several of those. Airplanes coming and going 
inside of the theater. There was an iron highway of airplanes. 
There were things blown up all over the place.
    Mr. Shays. Is your concern just--we're going to get to the 
next panel here, because I do know that we have to move on. But 
let me understand this: Is your concern that you were exposed 
to chemicals in flight or at your base, or both?
    Maj. Donnelly. My base was outside of the range of any 
known threat like the Scuds. I landed several times at a place 
called KKMC. We used to do what we called quick turns out of 
there. We'd land, get more bombs and fuel, go back up there. I 
found out later that KKMC was one of the areas that they found 
to be contaminated. Sometimes right after an early morning Scud 
strike we'd land in there and everybody would be running around 
talking about, we just had a Scud come in. Nobody in MOPP gear. 
Or nobody other than just excited about the fact that a Scud 
came in. I don't have a specific example when I can remember of 
an event that happened to me during the war.
    Mr. Shays. Yes. I'll just tell you, the last thing that I, 
as chairman, at least, am wrestling with, and the committee in 
general is wrestling with, and that is, we have testimony from 
the VA and others that medical science doesn't know how to 
truly diagnose and treat chemical exposure. That's the 
testimony. And it's clear to us that the VA in particular has 
very few people who have any expertise in chemical exposure. 
And the goal of this committee is to properly have you 
diagnosed, treated, and compensated for your service. And yet, 
there are only two countries in the world--Israel and the 
Netherlands--that have a specialty, a school that just focuses 
in on chemical exposure. And my understanding is, our medical 
institutions don't really provide much training, except there 
are some who are industrial hygienists and environmental 
toxicologists and so on.
    But this is kind of a side issue for the military and the 
VA. And it's conceivable that one of our recommendations will 
be that we, like the Netherlands and Israel, have to do this. 
But all of you--I mean, I know Maj. Donnelly, you spent time in 
Texas, I believe, with someone who was trying to get the 
chemicals out of your body. Did you feel that was a 
constructive exercise?
    Maj. Donnelly. I learned a lot that I didn't know before 
about what we deal with in our environment every day. The 
organo-phosphates are not testable inside of your body after 
about 48 hours. So, it was an effort to see, given the options 
I had, if that would do any good.
    Mr. Shays. But the bottom line is, medical science kind of 
looks, scans with discredit, at some of the things that you 
found yourself wanting to experiment. Is that correct?
    Maj. Donnelly. Right.
    Mr. Shays. I mean, one was to kind of sweat out the 
chemicals from your body. And you did all those kinds of 
things. Correct?
    Maj. Donnelly. Right.
    Mr. Shays. Do you have any comment about that?
    Maj. Donnelly. How much time you got?
    Mr. Shays. We don't have a lot of time.
    Maj. Donnelly. My main point on that is that I've learned a 
lot about our medical system with all the doctors that I've 
seen. They are not open to leading edge investigation of 
anything. If it's not written and published in an AMA journal 
or JAMA or something, it does not exist. That's the problem 
with treating Gulf war illness, is that people buy the--they 
buy the misdirection. They buy the misinformation coming out of 
our Government that there is not Gulf war illness. So, they 
don't even look, some of them. There are some who believe there 
is something there. You don't have to look hard to see. You 
know, here we are. I'm not a rocket scientist, but even a pilot 
can figure that one out.
    Mr. Sanders. Let me interrupt you, if I might, Major, 
because I think you put your finger--all of you are doing a 
terrific job, and I appreciate it. You put your finger right on 
the issue. I don't think that there's malice. We all believe 
that the DOD and the VA want to do the right thing. But what 
you're suggesting--you used the word cutting edge. The VA and 
the DOD are not cutting edge. Unfortunately, if you guys were 
shot, they probably are the best doctors in the world. We can 
do something fantastic things for battlefield injuries. The orb 
is that what you are suffering from is not conventional type of 
wounds and injuries.
    You are probably--you know, I'm not a doctor--but evidence 
that we have heard before this committee is that you may be 
suffering from a synergistic impact of different type of 
chemicals combined with the drugs that you took. And you know 
what? The Major is absolutely right. There's virtually no 
knowledge of that within the DOD and the VA right now. The 
point that I'm trying to make is that we're going to have to go 
outside of the system to those cutting edge people, who may be 
doing experimental things. Maybe they're not right 100 percent 
of the time. But to do the same old thing when they're not 
making the diagnosis or coming up with the treatment is 
knocking our heads against the wall. Is that what you're 
saying, Major?
    Maj. Donnelly. Absolutely.
    Mr. Sanders. But what's troubling is, after World War I, 
the general--Dr. Joseph, when he was testifying before us, 
basically made the analogy that if they weren't--and I have to 
be fair to him, because I don't have the record in front of 
me--but I'll tell you my interpretation. My interpretation was 
that if they weren't dying on the battlefield because of 
chemical exposure, there was no chemical exposure.
    Maj. Donnelly. Right.
    Mr. Sanders. And yet we know in this environment in the 
Unit- ed States, that low-level chemical exposure leads to bad 
health and ultimately death. We know that. What's hard for me 
to reconcile-- and I'm saying this, Dr. Rostker, there's a 
possibility that you could respond to it, who will appear in 
the next panel--what is troubling me is if in World War I, we 
knew that some soldiers died on the battlefield because of 
nerve agents and so on, others came back home and died years 
later, but prematurely because of low-level ex- posure. We know 
that happened in World War II, the Korean war.
    We do know that with radiation--nuclear radiation--men and 
women who were--particularly men who were cleaning the planes, 
and others who were exposed to nuclear radiation with Agent Or- 
ange--it would seem to me that the Pentagon would have the top 
experts with chemical exposures. And it seemed to me the VA 
would have it. And we wouldn't just be great at dealing with a 
bul- let wound or some shrapnel wound. So, that's what this 
committee is wrestling with. You know, we want to have these 
hearings. We want to also lead it to some conclusion.
    One thing we do know--or at least we're convinced--you 
wouldn't know about Khamisiyah today if it wasn't for these 
hear- ings. So, we know that there's some good in that. And the 
other thing we do know is that your testimony is very powerful, 
is abso- lutely the core of it. You are the most important 
people that will appear before us today, without any question. 
And as someone who played a part in sending you there, I want 
to play a part in making sure you get better. So, I thank you--
all three of you--for being here.
    Sgt. Wood. Thank you.
    Sgt. Sumpter-Loebig. Thank you.
    Maj. Donnelly. Thank you.
    Mr. Sanders. Thank you.
    Mr. Shays. We will go to our next panel. And we'll just 
maybe take a 2-minute break to exchange the witnesses.
    [Recess.]
    Mr. Shays. I'd like to begin with or second panel: Dr. 
Bernard Rostker, the Special Assistant for Gulf War Illnesses 
at the Department of Defense, Mr. Robert Walpole, Special 
Assistant for Gulf War Illnesses for the Central Intelligence 
Agency. Mr. Walpole, is that a new position?
    Dr. Walpole. Yes, it is.
    Mr. Shays. And Mr. Donald Mancuso, Deputy Inspector 
General, Department of Defense. I think, as you all know, we 
have a tradition, we swear in all our witnesses, including 
Members of Congress.
    [Witnesses sworn.]
    Mr. Shays. For the record, our witnesses have responded in 
the affirmative. I think we're going to be able to--do any of 
you have time restraints other than Mr. Rostker. I mean, I 
think we won't have any--Dr. Rostker. I'm sorry. Does anyone 
else have any time restraint?
    Mr. Rostker. No, sir.
    Mr. Shays. I appreciate the fact that you all three were 
here for the testimony of our veterans. And that means a lot to 
this committee that you were here for their testimony. And also 
thank you for not doing what some like to do and say, ``We're 
here in official capacity and would like to be first.'' So, I 
also thank you for that. While I pointed out that the first 
panel was the first important, it's all in degrees. And you are 
a very important panel, and it's nice to have you here. And Dr. 
Rostker, I think we'll start with you.
    Mr. Rostker. Thank you, Mr. Chairman.
    Mr. Sanders. Thank you for your testimony. It was very 
helpful.
    Mr. Shays. Will you lower your mic just a bit?

 STATEMENTS OF BERNARD ROSTKER, SPECIAL ASSISTANT FOR GULF WAR 
   ILLNESSES, DEPARTMENT OF DEFENSE; ROBERT WALPOLE, SPECIAL 
ASSISTANT FOR GULF WAR ILLNESSES, CENTRAL INTELLIGENCE AGENCY; 
  AND DONALD MANCUSO, DEPUTY INSPECTOR GENERAL, DEPARTMENT OF 
                            DEFENSE

    Mr. Rostker. Mr. Chairman, I appreciate the opportunity to 
appear before the subcommittee this morning. In previous 
testimony presented in January, I outlined the mission of my 
office and described the full extent of the commitment of the 
Department of Defense. It is imperative that we find out 
everything we can to determine the possible causes of illness 
while providing the best possible care for those who are ill. 
We also have an eye toward the future as we learn from our Gulf 
experience and make the necessary changes in policy, doctrine, 
technologies to protect our forces in the future.
    With that as sort of my mission, I would like to comment on 
this morning's testimony which I applaud the committee for, and 
I personally found very useful. Three points that I think might 
help you put the testimony this morning in perspective. First 
of all, you know of our significant efforts to understand low-
level chemical exposure and Khamisiyah. But that's not all 
we're doing. And we've stood up an environmental team which is 
explicitly charged to look at issues such as pesticides.
    They are of great concern to us. And we are trying to 
understand how they were used in the Gulf and the possible 
health consequences from their use. We've also commissioned a 
medical review paper that would provide us with state-of-the-
art knowledge about what you've talked about as multiple 
chemical exposures, or I like to think of the hyper-sensitivity 
to chemicals, and that those issues are also part of our focus 
for new research. So, we share your concerns for the issues 
that we raised this morning about pesticides. An issue was 
raised, also, about incident reporting. And one of the Members 
made reference to the fact that there were people here and 
there might be a cluster.
    We might have seen a unit that had an exposure. And wasn't 
anybody in the Department of Defense looking at that. In fact, 
we are. We have a 800 number that is doing exactly that. And 
it's highlighted in this little handout that we give out to 
veterans, and has been on armed forces radio and television. 
The item on the back says DOD incident reporting line. It 
focuses on examining incidents which occurred during the Gulf, 
the hazardous exposures that may have resulted from these 
incidents, and the broader implications of such incidents.
    So, we are very eager to track down the kind of clusters 
that we discussed here this morning, and to try to make sense 
of them within the broad pattern. So, the question of was 
anybody interested in the Defense Department, the answer is, 
yes. We are very interested in talking to people that have had 
these kinds of experiences. As you well know, the only way 
we're going to get at what happened in the Gulf is to talk with 
and involve the people who served in the Gulf in our inquiries. 
And that's a major focus of what we have been doing.
    Finally, the issue of ALS was raised, and questions were 
asked about, well, couldn't we figure out what the incidents of 
ALS is. In fact, we've done that. After your hearings in 
December where somebody with ALS was also a witness, I went 
back and asked exactly that question. Currently, the two 
combined registries--the defense registry and the VA registry--
are carrying nine veterans who have a diagnosis of ALS. The 
normal rate of occurrence for ALS within the general population 
under 40 per 100,000 of population is between 1.0-1.5. In other 
words, for the population that served in the Gulf, we would 
expect to see roughly between 7 and 11 cases of ALS. And we're 
looking at nine cases of ALS.
    I can provide for the record the more specific numbers and 
the site for the general population if you'd like, sir. But 
that doesn't take away from the tragic nature of the disease. 
And our hearts go out to the Major. And we wish he and his 
family the best. But those are the basic statistics as we 
understand them. Having said that, let me now return and review 
for you some of the significant progress we have made since I 
last appeared before the subcommittee.
    We have embarked on a comprehensive research program which 
has resulted in many proposals being received to examine the 
consequences of a number of potential causes for illnesses, but 
particularly low-level chemical agents. The proposals are 
undergoing internal and external non-DOD peer review. Awards 
will be made. We have eliminated the backlog of calls from 
veterans who contacted the 800 number that I just referred to. 
Approximately 90 percent of those who have called have been 
fully debriefed by a trained investigator. That's around 1,600 
phone calls.
    Our technique is to take the initial call, and then within 
72 hours a trained investigator calls back and does a complete 
debrief, ensuring that the information is passed to the right 
analysis team, assuring that we maintain contact with the 
veteran. These debriefs often last for well over an hour, and 
some over 2 hours. In reality, it's not just debriefing on what 
happened in the Gulf, but talking to the veteran and often 
referrals to the VA, and other issues are raised and we try to 
deal with them.
    But we've accomplished over 1,600. In truth, sir, we have 
more people working the telephones--the 800 number--than the 
department had investigating Gulf illnesses before my group was 
stood up. We have launched an outreach effort, in January 
mailing surveys to approximately 20,000 Gulf war veterans who 
may have been within 50 kilometers of Khamisiyah. To date, more 
than 6,000 veterans have responded. Of that number, 
approximately 300 commented on their illness or health, and 
approximately 300 provided information on what they saw in 
Khamisiyah. And all of these are in the process of receiving 
phone calls and being debriefed.
    The latter group receives followup calls from the 
investigation to try to understand specifically what they may 
or may not have seen at Khamisiyah. Our GulfLINK home page is 
now interactive. Veterans now can e-mail their concerns. And 
we've opened up a two-way dialog with the veterans rather than 
a static home page. We've also gone to news articles on the 
home page so that we can communicate to the veterans what we're 
doing and what's going on rather than just posting transcripts 
of hearings, although I'm sure, sir, you appreciate that the 
transcripts of your hearings are outstanding.
    And the veterans need to see that. But there's more that 
we're doing than just testifying. We have strengthened our 
relations with the veterans service organizations and the 
military service organizations with monthly roundtables on such 
topics as the chemical gear used in the Gulf, depleted uranium 
and the like. And as you know, I kicked off a nine city town 
hall tour. Last night I was at the American Legion post in 
Atlanta. And tonight I'll be in Boston. These meetings are 
productive, and they provide the front-line contact that is 
necessary for us to fully appreciate the concerns of our 
veterans.
    I know the committee has been concerned about the missing 
portions of the chemical and biological logs. The investigation 
of the CENTCOM chem logs has been turned over to the DODIG. My 
office has taken this investigation to a point where the 
assignment to the DODIG is quite appropriate to provide the 
additional resources that her office can provide. Our inquiry, 
which will be expanded by the DODIG, indicates that the 
chemical log pages that survived were extracted from a full set 
of logs that survived at least until 1994.
    We believe they survived because the specific pages that--
the 30-some odd pages that we still have--we believe they 
survived because they were used to prepare testimony for the 
defense science board. In other words, these were the pages 
that were actually taken out of the larger number of pages in 
the log because they carried significant chemical events. With 
the exception of Khamisiyah, almost every major chemical event 
we are investigating, such as the Czech-French detections, the 
Marine breaching operation which was testimony here to your 
committee, are carried in the chemical logs.
    Moreover, we would not expect to see Khamisiyah on these 
pages because it was not viewed or reported by the troops on 
the scent at the time as a chemical event. It is my best 
assessment that these missing pages did not contain information 
about chemical exposures. In addition, we do have the core 
situation reports for the 18th Airborne Corps for the specific 
days around Khamisiyah. And they do not mention chemical events 
at Khamisiyah. We also have the logs for the 82nd Airborne 
Division, of which the 37th Engineers was a part. And they also 
do not mention chemicals at Khamisiyah. They do talk about the 
explosions that went on at Khamisiyah, but there was no 
reporting of chemicals.
    There are a number of other collateral efforts underway to 
obtain more detailed information which is supportive of the 
work in my office. The Army IG is also conducting an 
investigation of the events at Khamisiyah. And we are providing 
them with additional leads as we gain those leads. So this is 
an independent effort. But we are coordinating to make sure 
that their effort is fully comprehensive to our best knowledge 
of any supporting events. The assistant to the Secretary of 
Defense for intelligence oversight is undertaking an 
independent and further investigation of what the intelligence 
community, and particularly the defense intelligence community, 
knew concerning Khamisiyah before and after the events at 
Khamisiyah.
    These investigators are well-coordinated and we welcome 
their support in this action. Some of the efforts of the 
investigators involved continued--we continue to search and 
interview veterans who were in the Khamisiyah area at the time 
of the demolitions. Working with the CIA, we are trying to 
estimate what is known as the source term, or how much agent 
may have been released at Khamisiyah, and then what the wind 
patterns were that might have carried the agent over American 
troops.
    Because our position time data base is frankly so poor, 
it's a bottom up data base. We are assembling this month the 
division commanders and brigade commanders from the 18th 
Airborne Corps who were in the Gulf. And we're using their 
expertise of their military operations to try to identify any 
additional troops that might not have been captured in the 
official data base of time and location. And we're also 
conducting an analysis of participation rates in the combined 
CCEP and VA registry to see if there is any pattern of 
participation in those registries that might be correlated with 
time and location of Khamisiyah.
    All of these efforts are directed toward a single purpose 
of determining what is causing our veterans to be ill. While 
doing this, we are ensuring that Gulf war veterans are 
receiving the best possible care. Finally, we then must make 
certain to apply the lessons learned for the Gulf to our future 
deployments. You have my commitment that no effort will be 
spared to determine that causes of these illnesses and respond 
to the health needs of our veterans. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Rostker follows:] 
    [GRAPHIC] [TIFF OMITTED] T3668.053
    
    [GRAPHIC] [TIFF OMITTED] T3668.054
    
    [GRAPHIC] [TIFF OMITTED] T3668.055
    
    [GRAPHIC] [TIFF OMITTED] T3668.056
    
    [GRAPHIC] [TIFF OMITTED] T3668.057
    
    [GRAPHIC] [TIFF OMITTED] T3668.058
    
    [GRAPHIC] [TIFF OMITTED] T3668.059
    
    [GRAPHIC] [TIFF OMITTED] T3668.060
    
    [GRAPHIC] [TIFF OMITTED] T3668.061
    
    [GRAPHIC] [TIFF OMITTED] T3668.062
    
    [GRAPHIC] [TIFF OMITTED] T3668.063
    
    [GRAPHIC] [TIFF OMITTED] T3668.064
    
    [GRAPHIC] [TIFF OMITTED] T3668.065
    
    [GRAPHIC] [TIFF OMITTED] T3668.066
    
    [GRAPHIC] [TIFF OMITTED] T3668.067
    
    [GRAPHIC] [TIFF OMITTED] T3668.068
    
    [GRAPHIC] [TIFF OMITTED] T3668.069
    
    [GRAPHIC] [TIFF OMITTED] T3668.070
    
    [GRAPHIC] [TIFF OMITTED] T3668.071
    
    [GRAPHIC] [TIFF OMITTED] T3668.072
    
    [GRAPHIC] [TIFF OMITTED] T3668.073
    
    [GRAPHIC] [TIFF OMITTED] T3668.074
    
    [GRAPHIC] [TIFF OMITTED] T3668.075
    
    [GRAPHIC] [TIFF OMITTED] T3668.076
    
    [GRAPHIC] [TIFF OMITTED] T3668.077
    
    Mr. Shays. Thank you, Dr. Rostker. Mr. Walpole.
    Mr. Walpole. Thank you, Chairman Shays, Congressman 
Sanders. I appreciate the opportunity, as well, to appear 
before you today to discuss CIA's and the intelligence 
community's efforts on the issue of Gulf war veterans' 
illnesses and possible exposure of some of those veterans to 
chemical weapons agent. We know how important this issue is to 
veterans, and that our intelligence is essential to 
understanding what occurred during and immediately after the 
war.
    In fact, I would like to submit for the record a copy of 
the Khamisiyah historical perspective paper and the 41 
documents that we released with that, because it helps 
understand what was known about Khamisiyah since 1976 on that 
issue. In response to President Clinton's tasking to his 
advisory committee on Gulf war veterans illnesses, and after 
determining that the issue required additional resources, 
George Tenet, Acting Director of Central Intelligence, 
appointed me his Special Assistant. And that was on February 
27.
    So, from that point it was a new position. And he asked me 
to have a task force running by March 3. Since that time, we 
have made efforts to keep the staff of this subcommittee as 
well as several other committees apprised of our efforts. The 
purpose of our efforts is to help find answers as to why the 
veterans are sick. And I particularly appreciate the couple of 
hours spent this morning with some of those veterans. It helps 
keep our focus on that purpose. We're supporting numerous 
Government efforts on this issue and are searching for any 
intelligence we have in our files that can help answer those 
questions.
    Let me turn first to our mission. Our mission is to provide 
aggressive, intensive intelligence support to the numerous 
efforts underway within the Government. We have 50 officers 
serving on the task force from across the intelligence 
community. That's from the Central Intelligence Agency, the 
Defense Intelligence Agency, National Security Agency, and the 
National Imagery and Mapping Agency. We also have individuals 
from Department of Defense's Office of the Special Assistant 
for Gulf War Illnesses as well as the Assistant to the 
Secretary for Intelligence Oversight. The task force is 
managing and reviewing all intelligence aspects related to this 
issue, with the goal of getting to the bottom of it.
    Specifically, the task force provides intelligence support 
across several fronts. On the document side, that's search, 
declassification and sharing of those documents. And the 41, I 
mentioned earlier, are part of that declassification effort. On 
modeling support, on committees with the Department of Defense, 
the President's Advisory Committee, you here on the Hill, 
veterans groups, and others in the Government.
    And, finally, on supportive analysis. This is the first 
time that we have fully integrated an analytical component into 
a task force on this issue. This gives us an opportunity to run 
to ground any threat of information that we find that might be 
of interest on this issue, as well as to provide papers that 
provide analytical context to the documents that we release. 
And the historical perspective is one example of that. Another 
was released on March 18, in Salt Lake City in the hearing with 
the PAC, when we prepared a one-page paper telling a little bit 
about Khamisiyah and the demolition there.
    And we included photographs on this to support that--was to 
see if we could get any veterans to come forward that recalled 
this site and could provide any further information to us. At 
that time, we only had two soldiers that we were able to 
interview and sort out what was going on in the pit. And there 
was a lot of confusion. I'll get to that later. In fact, this 
morning, when we heard Major Donnelly mention that he had a 
video tape of Khamisiyah from the air. That could be helpful in 
our modeling efforts. That could be helpful in determining what 
happened. If the tape was either before demolition occurred or 
after, it could provide significant information for us on that.
    The day after we released that particular document DOD 
received numerous calls on the 1-800 number. Some recalled 
having been at Khamisiyah. Those kinds of efforts have been 
helpful in helping this effort move along. I'm aware that this 
subcommittee is interested in our modeling efforts. And let me 
discuss that briefly. Several developments have occurred in 
this area that I'd like to elaborate on. To begin with, in the 
past we were able to model the demolition events or the 
bombings at Al Muthanna, Mu-hammadiyat and Bunker 73, largely 
because we had ground tests back in the 60's that let us know 
what happened to an agent when it was destroying inside of a 
building.
    When we turned our efforts to modeling, to the pit, we 
quickly realized that the uncertainties were significant, 
particularly how the rocket warheads would react in a 
demolition in an open pit. We're also uncertain about the 
number of events that occurred. We believed in March, when I 
testified in Salt Lake City, on the basis of limited and often 
contradictory data, that two events were more likely than one. 
These data included a military log entry indicating the March 
12 demolition occurred, and then contradictory stories from two 
soldiers and an UNSCOM video tape.
    CIA and DOD have devised a joint plan to reduce some of 
those uncertainties. This plan includes additional soldier 
interviews and simulation testing. We've conducted several 
other interviews. In fact, we've more than doubled the number 
of soldiers that recall being in the area, and have met with 
them. And one of the things that they've indicated to us was 
that the log in question was completed after the fact and that 
we should not rely on the March 12 date. When we learned that--
and questioning that March 12 entry--the only prudent course 
was to model one event. And so we're now back to modeling one 
event on March 10.
    Now, if we receive further information and if the video 
tape sheds light on this--that could be some of that further 
information--of course we'll modify the approach. We're also 
jointly developing tests with the Department of Defense to 
destroy rockets containing CW agent simulants in an open pit 
environment. We expect this to provide us invaluable data on 
how the agent would react in that environment, similar to the 
data we had on earlier testing and buildings. And then we would 
plan to publish these modeling results by the end of July.
    During our initial efforts on Khamisiyah, we determined 
that certain intelligence documents were critical to answering 
the questions: what did the intelligence community know when, 
and what did we do with that information? We began briefing 
these documents to the Presidential Advisory Committee and 
appropriate congressional committees. We also began 
simultaneous efforts to declassify key papers and to search for 
other material relevant to these questions. As the work 
progressed, we determined that an unclassified paper 
documenting the historical perspective on this would be 
valuable to anyone looking at those documents.
    The paper, which was released on April 9, provides details 
about the intelligence community's knowledge before, during and 
after the war relative to Khamisiyah. The documents released 
and the Khamisiyah paper do not change our judgment that Iraq 
did not use chemical weapons during Desert Storm. Nor does it 
change the fact of our warnings that Iraq would likely deploy 
chemical munitions to the theater and would be prepared to use 
them. Nor that they did not mark their chemical munitions.
    In detailing the historical perspective, the paper and 
documents illustrate warnings the intelligence community 
provided to CENTCOM elements including J-2, targeting elements, 
ARCENT, the U.S. Marine Corps and Air Force representatives 
prior to the demolition activities in March 1991. At the same 
time, however, the paper illustrates that intelligence support, 
particularly in the areas of information sharing and analysis, 
should have been better. The task force is preparing 
recommendations to address these problems, and will continue to 
assess how we ensure that they do not occur in the future.
    On other document efforts, we're continuing document 
searches on Iraqi CW sites as well as any intelligence related 
to potential biological warfare, radiological exposure and 
environmental issues. We're using the original search criteria 
that previous task forces have used, but we have not augmented 
those criteria by extending the timeframes and topical search 
terms. Intelligence that we find that sheds light on the 
veterans' illnesses and will help the Presidential Advisory 
Committee, Persian Veterans Coordinating Board and others 
understand these issues will be identified and declassified.
    Any documents that cannot be released for reasons of 
national security will be delivered to relevant U.S. Government 
agencies, the President's Advisory Committee and congressional 
committees that are following the issue. We also plan to write 
analytical papers similar to the one I mentioned here, to help 
readers put all of the information into context.
    In conclusion, I want to reiterate George Tenet's 
commitment, the commitment in the intelligence community and my 
personal commitment to the men and women who served this 
country in the Persian Gulf. We owe them a full and accurate 
accounting of what happened. To that end, the intelligence 
material we released on Khamisiyah gives the veterans and the 
American citizens a clearer understanding of what we knew and 
how we used that material. Helping relevant agencies determine 
what is making some of our Gulf veterans ill is critical and 
will remain our central focus. We
stand behind our contributions to national security, and are 
working to enhance our support for the future. Thank you.
    [Note.--The report entitled, ``Khamisiyah: A Historical 
Perspective on Related Intelligence,'' can be found in 
subcommittee files.]
    [The prepared statement of Mr. Walpole follows:] 
    [GRAPHIC] [TIFF OMITTED] T3668.078
    
    [GRAPHIC] [TIFF OMITTED] T3668.079
    
    [GRAPHIC] [TIFF OMITTED] T3668.080
    
    [GRAPHIC] [TIFF OMITTED] T3668.081
    
    [GRAPHIC] [TIFF OMITTED] T3668.082
    
    [GRAPHIC] [TIFF OMITTED] T3668.083
    
    [GRAPHIC] [TIFF OMITTED] T3668.084
    
    [GRAPHIC] [TIFF OMITTED] T3668.085
    
    [GRAPHIC] [TIFF OMITTED] T3668.086
    
    [GRAPHIC] [TIFF OMITTED] T3668.087
    
    [GRAPHIC] [TIFF OMITTED] T3668.088
    
    [GRAPHIC] [TIFF OMITTED] T3668.089
    
    [GRAPHIC] [TIFF OMITTED] T3668.090
    
    [GRAPHIC] [TIFF OMITTED] T3668.091
    
    [GRAPHIC] [TIFF OMITTED] T3668.092
    
    [GRAPHIC] [TIFF OMITTED] T3668.093
    
    [GRAPHIC] [TIFF OMITTED] T3668.094
    
    [GRAPHIC] [TIFF OMITTED] T3668.095
    
    [GRAPHIC] [TIFF OMITTED] T3668.096
    
    [GRAPHIC] [TIFF OMITTED] T3668.097
    
    [GRAPHIC] [TIFF OMITTED] T3668.098
    
    [GRAPHIC] [TIFF OMITTED] T3668.099
    
    [GRAPHIC] [TIFF OMITTED] T3668.100
    
    [GRAPHIC] [TIFF OMITTED] T3668.101
    
    [GRAPHIC] [TIFF OMITTED] T3668.102
    
    [GRAPHIC] [TIFF OMITTED] T3668.103
    
    [GRAPHIC] [TIFF OMITTED] T3668.104
    
    [GRAPHIC] [TIFF OMITTED] T3668.105
    
    [GRAPHIC] [TIFF OMITTED] T3668.106
    
    [GRAPHIC] [TIFF OMITTED] T3668.107
    
    [GRAPHIC] [TIFF OMITTED] T3668.108
    
    [GRAPHIC] [TIFF OMITTED] T3668.109
    
    [GRAPHIC] [TIFF OMITTED] T3668.110
    
    [GRAPHIC] [TIFF OMITTED] T3668.111
    
    [GRAPHIC] [TIFF OMITTED] T3668.112
    
    [GRAPHIC] [TIFF OMITTED] T3668.113
    
    [GRAPHIC] [TIFF OMITTED] T3668.114
    
    [GRAPHIC] [TIFF OMITTED] T3668.115
    
    [GRAPHIC] [TIFF OMITTED] T3668.116
    
    [GRAPHIC] [TIFF OMITTED] T3668.117
    
    [GRAPHIC] [TIFF OMITTED] T3668.118
    
    [GRAPHIC] [TIFF OMITTED] T3668.119
    
    [GRAPHIC] [TIFF OMITTED] T3668.120
    
    [GRAPHIC] [TIFF OMITTED] T3668.121
    
    [GRAPHIC] [TIFF OMITTED] T3668.122
    
    [GRAPHIC] [TIFF OMITTED] T3668.123
    
    [GRAPHIC] [TIFF OMITTED] T3668.124
    
    [GRAPHIC] [TIFF OMITTED] T3668.125
    
    [GRAPHIC] [TIFF OMITTED] T3668.126
    
    [GRAPHIC] [TIFF OMITTED] T3668.127
    
    [GRAPHIC] [TIFF OMITTED] T3668.128
    
    [GRAPHIC] [TIFF OMITTED] T3668.129
    
    [GRAPHIC] [TIFF OMITTED] T3668.130
    
    [GRAPHIC] [TIFF OMITTED] T3668.131
    
    [GRAPHIC] [TIFF OMITTED] T3668.132
    
    [GRAPHIC] [TIFF OMITTED] T3668.133
    
    [GRAPHIC] [TIFF OMITTED] T3668.134
    
    [GRAPHIC] [TIFF OMITTED] T3668.135
    
    [GRAPHIC] [TIFF OMITTED] T3668.136
    
    [GRAPHIC] [TIFF OMITTED] T3668.137
    
    [GRAPHIC] [TIFF OMITTED] T3668.138
    
    [GRAPHIC] [TIFF OMITTED] T3668.139
    
    [GRAPHIC] [TIFF OMITTED] T3668.140
    
    [GRAPHIC] [TIFF OMITTED] T3668.141
    
    [GRAPHIC] [TIFF OMITTED] T3668.142
    
    [GRAPHIC] [TIFF OMITTED] T3668.143
    
    [GRAPHIC] [TIFF OMITTED] T3668.144
    
    [GRAPHIC] [TIFF OMITTED] T3668.145
    
    [GRAPHIC] [TIFF OMITTED] T3668.146
    
    [GRAPHIC] [TIFF OMITTED] T3668.147
    
    [GRAPHIC] [TIFF OMITTED] T3668.148
    
    [GRAPHIC] [TIFF OMITTED] T3668.149
    
    [GRAPHIC] [TIFF OMITTED] T3668.150
    
    [GRAPHIC] [TIFF OMITTED] T3668.151
    
    [GRAPHIC] [TIFF OMITTED] T3668.152
    
    [GRAPHIC] [TIFF OMITTED] T3668.153
    
    [GRAPHIC] [TIFF OMITTED] T3668.154
    
    [GRAPHIC] [TIFF OMITTED] T3668.155
    
    [GRAPHIC] [TIFF OMITTED] T3668.156
    
    [GRAPHIC] [TIFF OMITTED] T3668.157
    
    [GRAPHIC] [TIFF OMITTED] T3668.158
    
    [GRAPHIC] [TIFF OMITTED] T3668.159
    
    [GRAPHIC] [TIFF OMITTED] T3668.160
    
    [GRAPHIC] [TIFF OMITTED] T3668.161
    
    [GRAPHIC] [TIFF OMITTED] T3668.162
    
    [GRAPHIC] [TIFF OMITTED] T3668.163
    
    [GRAPHIC] [TIFF OMITTED] T3668.164
    
    [GRAPHIC] [TIFF OMITTED] T3668.165
    
    [GRAPHIC] [TIFF OMITTED] T3668.166
    
    [GRAPHIC] [TIFF OMITTED] T3668.167
    
    [GRAPHIC] [TIFF OMITTED] T3668.168
    
    [GRAPHIC] [TIFF OMITTED] T3668.169
    
    [GRAPHIC] [TIFF OMITTED] T3668.170
    
    [GRAPHIC] [TIFF OMITTED] T3668.171
    
    [GRAPHIC] [TIFF OMITTED] T3668.172
    
    [GRAPHIC] [TIFF OMITTED] T3668.173
    
    [GRAPHIC] [TIFF OMITTED] T3668.174
    
    [GRAPHIC] [TIFF OMITTED] T3668.175
    
    [GRAPHIC] [TIFF OMITTED] T3668.176
    
    [GRAPHIC] [TIFF OMITTED] T3668.177
    
    [GRAPHIC] [TIFF OMITTED] T3668.178
    
    [GRAPHIC] [TIFF OMITTED] T3668.179
    
    [GRAPHIC] [TIFF OMITTED] T3668.180
    
    Mr. Shays. Thank you very much, Mr. Walpole. We'll now hear 
from the Deputy Inspector General, Mr. Mancuso.
    Mr. Mancuso. Thank you. Mr. Chairman and members of the 
subcommittee, I am pleased to be here today to discuss the 
effort now underway by the Office of the Inspector General to 
find the logs maintained by the nuclear, biological and 
chemical desk officers at the United States Central Command in 
Saudi Arabia during the Gulf war.
    As you are aware, the Office of the Special Assistant for 
Gulf War Illnesses, in its efforts to identify the cases of a 
number of illnesses being suffered by Gulf war veterans learned 
that logs that might contain information of value in this work 
had been kept in Central Command J-3 Operations Center in 
Riyadh. An effort was begun in January 1997 by that office to 
find those logs.
    On March 3, 1997, the Deputy Secretary of Defense directed 
that the Inspector General take over the inquiry and carry it 
to conclusion. Specifically, the Deputy Secretary asked that we 
follow all leads that can be identified on the location of the 
original log or copies in electronic or hard copy versions, 
gather all originals and copies that can be located, and, if a 
full copy of the log cannot be located, to explain why.
    To accomplish this task, we formed a team of five senior 
criminal investigators supported by a staff of four auditors 
and investigative support personnel. The team's activities are 
being closely directed by senior investigative managers, and is 
supplemented by additional staff as needed. Initially, our 
investigative approach focused on collecting and analyzing the 
considerable investigative record created by the Special 
Assistant for Gulf War Illnesses.
    That effort included reviewing numerous detailed 
transcribed interviews of officers assigned to the NBC desk 
during the war, interviews of other persons who may had access 
to the logs after the war, as well as many telephonic and 
written requests for information from sources throughout the 
Department of Defense. Based on our review and analysis, we 
have identified areas where the coverage provided by the 
Special Assistant was thorough, and other areas where we felt 
that additional professional investigative effort would be 
useful.
    For example, we are interviewing every available witness 
who was directly involved in the creation of the CENTCOM NBC 
desk logs in Riyadh, or whom we know was in possession of the 
logs or any portion of those logs at Central Command in Tampa, 
after the conclusion of the Gulf war. The investigation is now 
in progress, and we are receiving the full cooperation and 
support of all affected elements of the Department.
    As you know, we do not comment on the details of active 
investigators, both to avoid jeopardizing investigative effort, 
and to protect the privacy and reputation of parties involved. 
I can assure you, however, that we fully recognize the 
importance of this investigation. We prioritized our efforts in 
order to complete the work as thoroughly and as quickly as 
possible. Upon completion, the results of the investigation 
will be provided to the Secretary of Defense, the Presidential 
Advisory Committee on Gulf War Veterans Illnesses, and the 
Congress. Thank you.
    [The prepared statement of Mr. Mancuso follows:] 
    [GRAPHIC] [TIFF OMITTED] T3668.181
    
    [GRAPHIC] [TIFF OMITTED] T3668.182
    
    [GRAPHIC] [TIFF OMITTED] T3668.183
    
    Mr. Shays. Thank you very much. Mr. Sanders.
    Mr. Sanders. Thank you very much, Mr. Chairman. You know, 
one of the problems with this whole issue is there are so many 
aspects of it that my office is rapidly becoming overflowing 
with papers in a dozen different areas. So, what I want to 
begin with is by focusing on health issues. And I want to chat 
with Dr. Rostker for a minute. Doctor, first of all, let me 
begin by saying that since you've been on board--when did you 
come on board?
    Mr. Rostker. November 12 as Special Assistant.
    Mr. Sanders. I appreciate your efforts in trying to open up 
the process and get quick responses back to people who are 
asking questions. I would suggest to the audience that there 
has been a significant improvement since you've come on board. 
And I appreciate that.
    Mr. Rostker. Thank you, sir.
    Mr. Sanders. I'm sure the veterans community does, as well. 
What I would like to do, though, is to ask you some questions. 
And maybe you can help me out. Because I'm starting from the 
premise that throughout this country and in the veterans 
community, there is a lot of cynicism, to say the least, toward 
the DOD and the VA in terms of their response from day 1--well 
before you were on board--to this problem. And I would just 
like to ask you a few questions.
    You heard today--today, after so many years, so many 
articles, so much discussion--you heard some of our veterans 
saying that even today when they go to speak to medical people 
within the veterans system, that they're still told that the 
problem was in their head. Would it be fair of me to say that 
at least at the very beginning this problem was minimized by 
the DOD? Is that a fair statement?
    Mr. Rostker. Yes.
    Mr. Sanders. OK. Is it a fair statement to say that the DOD 
minimized the problems of chemical exposure, that the DOD 
position until not so long ago was, ``Hey, our soldiers were 
not exposed to chemicals?'' Is that a fair statement?
    Mr. Rostker. Yes.
    Mr. Sanders. OK. Is it a fair statement--well, let me ask 
you this question, as you know, a few months ago, the 
President's Advisory Commission did a whole lot of work, and 
they relied on the DOD and the CIA and other Government 
agencies for a lot of their information, and they came to the 
conclusion that while there were a number of other areas that 
yet remained to be explored, that they thought that stress was 
perhaps the major cause of Persian Gulf syndrome. Am I 
characterizing them fairly?
    Mr. Rostker. I believe they drew that conclusion on their 
own. I would not characterize--they drew that on their own.
    Mr. Sanders. I didn't mean to be so hard on you. We haven't 
even begun this yet.
    Mr. Rostker. And they relied on their own witnesses. We 
have--we treat stress and all of the other potential causes in 
an open way. My office has drawn no conclusion on any of the 
potential causes.
    Mr. Sanders. Right. And I'm not for a moment suggesting 
that stress is probably not a factor. But my point was--you're 
suggest- ing that they were independent. But on the other hand, 
we knew that they fired Dr. Jonathan Tucker--and I know that's 
not your thing--but he went outside of the usual channels to 
try to get some information. Now let me ask you this, if I 
might: Dr. Robert Haley----
    Mr. Rostker. Yes.
    Mr. Sanders [continuing]. Is a researcher at the 
Southwestern Medical Center at the University of Texas. And he 
suggests, based on his studies, that ``the syndromes are due to 
subtle brain, spinal cord and nerve damage, but not stress. The 
damage was caused by exposure to combinations of low-level 
chemical nerve agents and other chemicals including 
pyridostigmine bromide in anti-nerve gas tablets, DEET in a 
highly concentrated insect repellent and pesticides in flea 
collars that some troops wore.'' What do you think?
    Mr. Rostker. Dr. Haley's work was published with an unusual 
editorial that accompanied it by the, I believe, the New 
England Journal of Medicine, and it was the subject of a number 
of further editorials and comments. I believe his research is 
suggestive. But the tenor of those comments are that the 
conclusions are a bit strong based upon the research. Now, I 
believe Dr. Haley intends to extend that research. And I'm sure 
we support the extension of that research.
    But that actual reports and the actual research are a bit 
toned down from the stark conclusions that Dr. Haley has 
brought forward. And that was the judgment in the editorials 
that, in the New England Journal, that accompanied the research 
at the same time. I would also point out that Dr. Haley's 
research, as best I understand it--and I am not a physician--
did not carry with it suggestions for treatment. And that's one 
of the major concerns that we have.
    Mr. Sanders. OK. But quoting Maj. Donnelly before--he made 
a very important point--you see, and here's the problem, and I 
want to stay on it for a while. Multiple chemical sensitivity 
today, to the best of my knowledge, is not an allowable 
diagnosis according the American Medical Association.
    Mr. Rostker. You're in an area that I'm not----
    Mr. Sanders. OK. And you may not know. I may be wrong. But 
I believe that that is a case. In other words, it's a 
controversial diagnosis. OK? That's true. Controversial. Some 
doctors believe it, some doctors don't. And the chairman tells 
me it's true. All right.
    Mr. Shays. That is one thing we can agree on.
    Mr. Sanders. OK. Controversial. But here is the problem. 
And this is exactly what the problem is and concerns me very 
much. If we have 70,000 people who are hurting--is that a fair 
number? Is that a good number? It's the number I've heard.
    Mr. Rostker. We can split the registries into different 
ways. But there are about 70,000 or more who have actually been 
examined. The vast majority of those people have real 
diagnoses. And I think the residual with unknown diagnoses are 
substantially smaller than that.
    Mr. Sanders. OK.
    Mr. Rostker. And we can provide that for the record.
    Mr. Sanders. But hold on. Here's the problem, you see: the 
AMA does not have a diagnosis, the VA does not have a 
diagnosis, the DOD does not have a diagnosis. But then when 
people come forward--and I'm a layman, I'm not a medical 
specialist--with work that makes some of us believe that 
they're moving in the right direction, then people say, ``Hey, 
you know, where is the peer review? Give us more.'' And this is 
the dilemma that the major, I think, correctly put his finger 
on. You are not succeeding. In other words, if we were--we're 
politicians. If we kept running for office every time we kept 
losing and getting 2 percent of the vote, we'd have to re-
evaluate. The general consensus is, you're failing. You are not 
solving the problem. And that we should be looking to more, to 
quote the Major, cutting edge type research.
    Mr. Rostker. And I absolutely agree with you. That's why, 
in the construct of my office, we are not just focusing on the 
possibility of chemical exposures. That's why we have gone out 
and commissioned an outside review of the issues of pesticides 
and multiple chemical exposures.
    Mr. Sanders. Who have you gone to? Who have you gone to 
that knows these subjects?
    Mr. Rostker. To pull it together, we've gone the RAND 
Corporation, and they, through their health program, are 
bringing in people who have expertise.
    Mr. Sanders. What kind of expertise? Do they have expertise 
on multiple chemical synergy?
    Mr. Rostker. Yes.
    Mr. Sanders. Really?
    Mr. Rostker. Yes.
    Mr. Sanders. OK. You will furnish us those names?
    Mr. Rostker. I will, sir.
    Mr. Sanders. OK. Because this is the problem. And it's not 
a personal criticism of you. You have within the medical 
community strong philosophical differences about the validity 
of multiple chemical sensitivity. And we can bring the best 
experts in this country on multiple chemical sensitivity to 
most doctors, and you know what they'll say: charlatans, 
quacks, we don't want to hear this stuff. And this is my 
concern. I don't know that the people that you're going to can 
peer review the work that others are doing.
    Mr. Rostker. I can only say I share all of your concerns. 
That's why within the construct of what my charter is, we have 
not drawn a conclusion. We have thrown it open. We are 
explicitly looking at that. We are prepared to, within the 
dollars allocated for medical research this year, to carry on 
research in this whole area. I happen to agree with your 
concerns.
    Mr. Sanders. All right. Let me go on.
    Mr. Rostker. But we have to go forward in a structured, 
reasonable way. And that's what we're trying to do.
    Mr. Sanders. I've heard that for years. OK. All right. Let 
me just ask you another question. Doctors Muhammad Abou-Donia--
I'm probably mispronouncing the name--and Dr. Tom Kurt, Duke 
University Medical Center. They used chickens because, I 
gather, that the chickens respond similarly to how humans 
respond. And they found that two pesticides--DEET and 
hermathrine--and the anti-nerve gas agent, PB, were harmless 
when used alone, but when in used with combination the 
chemicals caused neurological problems similar to those 
reported by some Gulf war veterans. How does the DOD feel about 
that research?
    Mr. Rostker. It goes all into the review we're making of PB 
and the medical aspects of PB.
    Mr. Sanders. Who is making? You see, I'm going to be hard 
on you here. Because that's not a good enough answer.
    Mr. Rostker. OK.
    Mr. Sanders. I don't know that you--so, in other words--not 
a personal criticism, but I think if, for example, as the 
chairman was mentioning before, if your soldiers, God forbid, 
get injured in the field of battle, in many, many ways you guys 
are probably the best in the world in putting people back 
together. And I suspect you perform miracles. I think in this 
area you're not doing well.
    Mr. Rostker. Well, I can only say that we have an ongoing 
program to extend our frontiers of medical knowledge. I'm sure 
you would agree that's the appropriate thing to do. We're eager 
to learn more about the issues of pesticides, the issues of PB 
in combination. We have not drawn a conclusion.
    Mr. Sanders. All right. But here's the point: we're going 
to hear testimony in a few minutes after you're through, about 
people who are going to tell us about PB. And what they're 
going to say--at least one of the gentleman--it's going to be 
pretty frightening stuff. You are interested in learning. Well, 
we're all interested in learning. But we have tens of thousands 
of people who are hurting. Why are we--tell me what the DOD is 
doing with regard to PB?
    Mr. Rostker. Well, as I've indicated, we have the existing 
research. We're trying to extend the research to better inform 
ourselves about it. Your hearings here and the information 
available to us is important. But we have not yet drawn a 
conclusion about PB.
    Mr. Sanders. All right. Here's my question: you have a 
budget, not you personally, I'm sure, of $250 billion. Why does 
it take two researchers at Duke University to work with 
chickens and come up with their conclusion about the 
synergistic effect?
    Mr. Rostker. I have no answer, sir.
    Mr. Sanders. But this is--why should we have confidence in 
the DOD when we're seeing people at Duke with limited budgets 
making what some of us think are significant breakthroughs?
    Mr. Rostker. I have no comment.
    Mr. Sanders. Do you have comments on the work done by Dr. 
Nicolson at the University of Texas? They have, among other 
things, suggested that some of the multiple chronic symptoms 
may eventually have their diagnoses linked to chemical 
exposures in the Persian Gulf, et cetera. In some cases, such 
exposure may have resulted in multiple chemical sensitivity. 
Are we working with those people?
    Mr. Rostker. Yes. I believe we are.
    Mr. Sanders. All right. Claudia Miller had applied, as I 
understand it, for a grant from the DOD, and somewhere along 
the line it was killed. You want to tell me about that?
    Mr. Rostker. I will be happy to look into it. I don't know 
the specifics of the case.
    Mr. Sanders. Claudia Miller is one of the experts in 
multiple chemical sensitivity in the country. She is, in fact, 
in a book that is soon to come out, has an entire page, Mr. 
Chairman--I'll probably get sued for copyright violation, the 
book is not out yet--but it's comparing the symptoms of 
veterans with symptoms experienced by multiple chemical 
sensitive people. See? She has a direct correlation.
    This is my point. And Mr. Chairman, this is the point where 
I think we finally have got to say, ``Thank you. Continue your 
research. We don't have a lot of confidence in you. We're going 
elsewhere, as well.'' We owe that to the tens of thousands of 
veterans.
    There is, getting back to the Major, who made a very 
profound statement, we need cutting edge research. I have the 
sad feeling, Mr. Chairman, that in 5 years from now, if I'm 
still here, Dr. Rostker--we'll be still having it. They're 
interested in the issue. They're going to explore the issue. 
They're going to go to the same conservative doctors that are 
going to tell the same things. We need new ideas. And my 
experience is that the DOD is not bringing forth those ideas. 
And I'll yield back to you. Thank you.
    Mr. Shays. I thank the gentleman. Let me just start off 
with you, Mr. Walpole. We had testimony previous, from the 
CIA--Ms. Sylvia Copeland, who was trying to respond as best she 
could to our concerns. And I asked you to look over her 
testimony and what she submitted, and response to our 
questions. Is there anything that you would qualify in her 
testimony that would be helpful to us? Is there anything that 
you add to her testimony that might be helpful to us?
    Mr. Walpole. Congressman, I read the question session of 
that testimony while I was preparing my own opening remarks, to 
look for any questions that you might have had that we were not 
able to answer at the time. And one that stood out to me was 
the working relationship with the Department of Defense. And I 
wanted to make sure I underscored that throughout my opening 
remarks. In fact, we have a very close working relationship 
there.
    As you know, I started on February 27. And I have tried to 
look forward from that point as what we could do. I was 
completely fresh to this issue. But in looking back over the 
remarks that you had asked me to look at this morning, what 
really comes to mind is that since that time, we have 
declassified a lot more material, particularly in the area of 
Khamisiyah. And we prepared this paper. More information has 
been discovered. More information was released than at the 
point of that testimony.
    I have not evaluated that testimony for some of the 
questions you've asked. If you'd like us to take that for the 
record I can. But I do know that a lot more information is in 
the Khamisiyah historical paper than at the time of that 
testimony.
    Mr. Shays. That's it? That's your response? Anything else 
you would add to that? Was there any information that was 
possibly incorrect or that you would qualify that was 
submitted, some written document?
    Mr. Walpole. I honestly did not evaluate it for that 
purpose. Now, part of the submission for the record was the 
paper on the modeling of the pit, Al Muthanna, Muhammadiyat, 
and the reiteration that we did not see any evidence that the 
Iraqis used chemical weapons against us in the war.
    Mr. Shays. Right.
    Mr. Walpole. Those judgments still stand.
    Mr. Shays. In her testimony she said that U.S. troops were 
not interviewed by the CIA, that the CIA depended on the 
Pentagon. Your testimony today suggests that you are now 
talking with U.S. troops. Is that correct?
    Mr. Walpole. Absolutely.
    Mr. Shays. The basis for that is what?
    Mr. Walpole. The basis for talking with the troops? In 
trying to do the modeling, for example, we have talked to the 
soldiers who were there to try to sort out how to put together 
a model of what might have been released when those rockets 
were destroyed.
    Mr. Shays. Would we not also be turning to our soldiers to 
see if they've identified any other sources? Wouldn't the CIA 
speaking to our soldiers to gain information--let me just 
interrupt myself by saying it blew my mind that the CIA seemed 
to depend on foreign sources and the DOD's position instead of 
speaking to the people who were there: our own soldiers. I lost 
a lot of respect, frankly, for the CIA. I thought who better to 
speak to than the people who were there: our own soldiers. My 
gosh, we'd speak to someone who wasn't our own soldiers, but, 
you know. So, is this a change in policy?
    Mr. Walpole. We have two approaches that I'm aware of at 
this point for talking with the soldiers. When we put together 
the announcement that I mentioned earlier we released in Salt 
Lake City, with the photographs of Khamisiyah, we did that in 
conjunction with the Department of Defense and included their 
1-800 number at the bottom, so that the information could get 
into that system, they would relay the information to us, and 
we would work that.
    When I released the historical perspective paper, before we 
released in the press briefing, we took it to the veterans 
organizations. And I think 21 organizations were represented 
there. Veterans Affairs set that up for us. So they got a pre-
briefing. And during that briefing we gave them our public 
affairs number, that if any of them or anybody in their 
organizations, any veterans they became aware of, had any 
information or questions for us on this or other issues from an 
intelligence perspective, call that number and we would get 
back to them. I have a public affairs person on my task force 
for that purpose.
    Mr. Shays. I think that's a healthy change in practice. Let 
me ask you, if I'm to ask you a question that you can't answer 
because it's still classified, is your response to me going to 
be that this information is going to be--what is your response 
on any information?
    Mr. Walpole. I would answer that the information is still 
classified. I was asked that last week and said that same 
thing.
    Mr. Shays. OK. That's the response I would like rather than 
to suggest that we don't have a problem or something. So, the 
answer will be--from my understanding--I'll either get a 
straight answer or I'll get an answer that says it's 
classified?
    Mr. Walpole. That is correct.
    Mr. Shays. OK.
    Mr. Walpole. And if I don't know an answer, I'll certainly 
tell you that.
    Mr. Shays. When we did studies--excuse me. When the CIA--I 
believe it was the CIA--contracted an outside company that had 
formerly the CIA Director, Mr. Deutch, and former Defense 
Secretary, Mr. Perry, on its board--what was the name of the 
company? SAIC. Their job was to make an analysis through 
modeling of what would happen when we blew up certain chemical 
plants and other sites, where the plumes would go, and would 
our troops be affected or not. Obviously, a very important 
question. Mr. Rostker, this is something you're familiar with 
as well. My first question is, we know where the plumes went, 
correct? Before it was a model of what would happen. Now we 
know. Is that not correct?
    Mr. Walpole. We know--on which site are we talking about, 
the pit?
    Mr. Shays. Any site. We have the pictures. We have the 
weather. It's in effect--it's an occurrence that's happened. We 
know where the winds went, et cetera.
    Mr. Walpole. In all cases, we did not know where the winds 
went. When we were doing Muhammadiyat and Al Muthanna----
    Mr. Shays. Now, let me be clear on this.
    Mr. Walpole. OK.
    Mr. Shays. What I'm asking is, we did modeling to 
anticipate where the winds would take the chemical fallout.
    Mr. Walpole. OK. I'm with you. You're talking about before 
the war?
    Mr. Shays. Right. That's a model. Now we have reality. 
Reality is what actually happened. Isn't it true that we can 
determine what happen, and have determined where those 
prevailing winds went?
    Mr. Walpole. In the case of the pit, which is the one we're 
modeling right now, just with the weather, the winds, depending 
on how long you run the plume extension--and that depends, of 
course, on how much agent is released--that's why we're doing 
the ground testing--the wind changed direction.
    Mr. Shays. But we monitored the weather 24 hours a day, 
correct? Mr. Rostker, you want to jump in here a second.
    Mr. Rostker. Umm.
    Mr. Shays. Doctor. Believe me, I'm sorry.
    Mr. Rostker. That's OK.
    Mr. Shays. If you went to the trouble to get your 
doctorate, then you'll be called a doctor.
    Mr. Rostker. I appreciate that, sir. The wind information 
is very imprecise. At one point, the CIA was making 
calculations where the nearest wind observation was 200 miles 
away.
    Mr. Shays. Are you talking modeling or the fact?
    Mr. Rostker. Fact.
    Mr. Shays. OK.
    Mr. Rostker. The fact. When Deputy Secretary White asked 
the Institute for Defense Analysis to stand up an expert panel, 
it was largely on the meteorological aspects and the weather. 
And subsequent to the initial CIA attempt to model the pit, 
additional weather observations have become available from 
classified satellite reports, from the Saudis who had withheld 
weather information because it might have been used by the 
Iraqis, and from classified Navy reports, so that the pure data 
that we have today on the pits has grown exponentially since 
last November when CIA was initially working on this.
    IDA used two different models to look at how one could 
bring the weather information to bear. And the CIA has a third 
model. Where we are today is not so much worrying about the 
weather, but worrying about what was actually released. There's 
great uncertainty. In fact, the CIA came to us and asked us to 
do tests. We're blowing up captured 122 millimeter rockets, 
because there is tremendous uncertainty of what actually 
happened.
    Mr. Shays. Let me just interrupt you, Doctor, just so I'm 
clear and you don't use me. Is your testimony before this 
committee that while we know the weather we don't know how much 
chemical was released in these sites? Is that the real issue?
    Mr. Rostker. Right now that's what we are focusing on, the 
uncertainty.
    Mr. Shays. Isn't it true we know pretty much where the 
plumes went based on the actual fact of what the conditions 
were?
    Mr. Rostker. No, sir. Not until you know how much was 
released into the atmosphere.
    Mr. Shays. I'm not asking that. That's not what I'm asking. 
I'm asking if we know the direction of where the plumes went. 
I'm not asking what level of concentration of chemicals were in 
the plumes.
    Mr. Rostker. But we have meteorological weather, today. 
Isn't that right, Bob?
    Mr. Walpole. Yes.
    Mr. Shays. I'd like a short version answer, not a----
    Mr. Walpole. Yes. Let me give you a short one. Modeling, 
theoretically, is in some senses easier than modeling what 
you're referring to as the fact. Because theoretically you 
choose your inputs.
    Mr. Shays. Right.
    Mr. Walpole. We're trying to determine what the facts are. 
The winds changed direction. I don't remember exactly how many 
hours after the event it changed direction. But it changed 
direction. That's why Dr. Rostker is saying the amount of agent 
in the air at the time the wind changed direction makes a 
difference as to where that plume went. And we don't that.
    Mr. Shays. OK. Your testimony is that while you have data, 
you don't have all the data, you're getting the data, and that 
you still may never have enough data?
    Mr. Walpole. We will never have all of the data. We will 
never know exactly how many rockets were in each of that 
stacks.
    Mr. Shays. I'm not asking about concentration. I'm just 
talking weather. The reason I'm getting a little impatient is 
we're going to be here a long time if----
    Mr. Rostker. We believe we have a set that will accurately 
allow us to do the plume analysis.
    Mr. Shays. OK. And so you're just basically waiting to 
determine the concentration of chemicals?
    Mr. Rostker. That is correct, sir.
    Mr. Shays. OK.
    Mr. Sanders. Can I just--on this thing?
    Mr. Shays. Yes.
    Mr. Sanders. Let me just pick up where the chairman was--
and help me out here. In terms of Khamisiyah, my memory is that 
originally the authorities, the DOD, claimed that several 
hundred people were perhaps exposed. And that number went up to 
as many as 20,000?
    Mr. Rostker. The first accountings were how many were near 
the Bunker 73. We then started to focus on the pit. And we 
extended the potential area to 50 kilometers. We were always 
working with the same data base. But the original CIA analysis 
that was made public last summer had a smaller event. And 
that's what the numbers were that we published then.
    Mr. Sanders. What is your best guess today in terms of the 
number of American soldiers that were exposed?
    Mr. Rostker. Given the data that we have on position and 
location at the 50 kilometer range, it is 20,000.
    Mr. Sanders. Might that be revised?
    Mr. Rostker. Absolutely, as we gain more insight.
    Mr. Sanders. What you're saying is, now--I don't want to 
put words in your mouth--that the 20,000 may be a conservative 
number. And, in fact, based on more evidence, it is possible 
that the number could multiply significantly?
    Mr. Rostker. That's correct. The 20,000 also was 360 
degrees around Khamisiyah. So, depending upon where the wind 
took it, it might even not have blown over troops. We just have 
to wait and see.
    Mr. Sanders. OK.
    Mr. Shays. We're going to try to get you out, Doctor, by 15 
of. And Mr. Mancuso, I'm going to just kind of wait. I just 
have a few questions for you. But I want to make sure that I am 
able to deal with the CIA and the DOD. Do we have any 
indication that Iraqi citizens are feeling the effects of 
chemical exposure, Mr. Walpole?
    Mr. Walpole. I'm not aware of any information on that. I 
don't know the answer.
    Mr. Shays. That seems kind of surprising to me. Because it 
would strike me that if we want to know how our troops were 
impacted, that we would want to know how Iraqi citizens were 
impacted. And if they were in certain areas, large 
concentrations, it would be helpful to us. So, I'm a little 
more than disappointed with your response. It just doesn't even 
seem logical to me.
    Mr. Walpole. The wind direction from the pit was away from 
Iraq.
    Mr. Shays. My view--and help me out--it either went toward 
the soldiers or went toward civilians. And you're saying 
there's another option? It didn't go toward civilians either? 
It didn't go toward the troops. It didn't go toward civilians. 
So, it went----
    Mr. Walpole. No. It went, I think it's south. I don't know 
if it was directly south. But it did go away from Iraq.
    Mr. Rostker. Moreover, without knowing how much agent was 
released, we would have no basis for knowing who may have been 
exposed.
    Mr. Shays. No. But we're not even talking about Khamisiyah 
now. We're talking about--I'm sorry, Doctor, but mine was a 
general question. Do we have any record of Iraqi citizens 
feeling the effects of chemical exposure? And it boggles my 
mind if we don't. One, I would make assumptions that they were 
affected, and, two, that we would know it. We have no 
intelligence information that says that some Iraqi soldiers may 
be affected by chemical exposure?
    Mr. Walpole. I'm not going to pretend to know all the 
answers. I'm not even going to pretend to know all the 
questions. If we have information on that. And I will check if 
we do, then that would obviously be knowable, and I can get 
that for you.
    Mr. Shays. The reason why I started out my questioning 
about whether you would tell me if it was classified 
information--is your response because it's classified or is 
your response----
    Mr. Walpole. No. My response is because I do not know.
    Mr. Shays. OK. I would like to know the answer to that 
question. If you would get back.
    Mr. Walpole. Sure.
    Mr. Shays. And that's something that we need to followup 
with. Isn't it logical, though, that we would want to know if 
Iraqi citizens were affected?
    Mr. Walpole. Absolutely. If the direction of wind was such 
that anybody in the path could have supplied information on 
that, absolutely.
    Mr. Shays. Let me ask you this, isn't it true that some of 
these munitions plants were in urban areas that we blew up by 
air?
    Mr. Walpole. The only facility that we have identified 
where we have a potential chemical release on the information 
to date is Khamisiyah.
    Mr. Shays. No----
    Mr. Walpole. Now, some of the sites--yes. The answer to 
your question is, yes. Many of the sites are.
    Mr. Shays. I've made an assumption. Dr. Rostker, help me 
out here. I made an assumption that we blew up some munitions/
chemical munitions plants. I make that assumption based on also 
what was news accounts. And my recollection was that that was 
the case. Is that your testimony? We didn't blow up any 
chemical plants? I'm asking both of you.
    Mr. Walpole. No. That's not----
    Mr. Shays. I want both of you to respond to this question. 
Dr. Rostker, did we blow up----
    Mr. Rostker. We obviously did. Of course we did.
    Mr. Shays. OK.
    Mr. Walpole. Yes.
    Mr. Shays. Now, my question is, do we have any intelligence 
information--and I'll first make sure that we're clear--Dr. 
Rostker, do we have any intelligence information that Iraqi 
citizens were impacted by any chemical exposure?
    Mr. Rostker. There are numerous accounts in the closing 
days of the war--I shouldn't say the war--during the rebellion 
of the Shi'ites--that Saddam Hussein had used chemicals on the 
Shi'ites.
    Mr. Shays. Well, we know he used them against Iran.
    Mr. Rostker. Yes.
    Mr. Shays. I'm not talking about Iran.
    Mr. Rostker. I'm not either, sir.
    Mr. Shays. I'm talking about what--so we have no 
information? I want to be clear that I'm asking the right 
question so I know how to evaluate your answer.
    Mr. Rostker. The only accounts that I have seen of Iraqi 
citizens complaining of being exposed to chemical agents come 
in a number of reports where they presented themselves to 
United States personnel during the short-lived occupation of 
Iraq. And they claim direct exposure to mustard gas from Iraqi 
forces. And that is well documented in the military logs of the 
18th Airborne Corps.
    Mr. Shays. Let me just explain why I want to be a little 
more precise. When Mr. Deutch appeared before CBS, he was very 
clear to say that there was no offensive use of chemical 
weapons. And then, shortly after, which was defensive exposure 
took place. He clearly had to know that he was using a very 
precise work so he would be safe. So, I just need to know if 
we're in this kind of level. When you say, Dr. Rostker--have 
you heard?
    Mr. Rostker. No, sir.
    Mr. Shays. So, your testimony before this committee is that 
you are not aware of civilian troops being exposed to chemicals 
by potentially the blowing up, the destruction of any of the 
chemical munitions plants in Iraq?
    Mr. Rostker. That is correct. I've seen no reports to that 
effect.
    Mr. Shays. Or heard any?
    Mr. Rostker. Or heard.
    Mr. Shays. Or aware of any?
    Mr. Rostker. Or aware of any.
    Mr. Shays. Doctor----
    Mr. Walpole. OK. I thought initially you were talking about 
Khamisiyah. I do not know the answer to your question. I will 
go back and make sure that we check every site that chemicals 
were possibly at, and when they were destroyed either by 
bombing or by demolition, and see if there's any intelligence 
that relates to Iraqis indicating effects.
    Mr. Shays. OK. Sure.
    Mr. Sanders. Mr. Chairman, let me just pursue your line of 
questioning. Mr. Walpole, one of the things that we're knocking 
our brains out here is to try to figure out to what degree 
American troops were exposed to chemical agents. And what the 
chairman asked you is--and it seems to be a pretty logical 
question--is, if American troops may or may not have been 
exposed, then what about the people in the immediate area? What 
about the Kuwaitis? What about the Iraqis, themselves? If we 
bombed, as Dr. Rostker has told us, and we all knew, chemical 
plants, chemical weapon plants in Baghdad or wherever they 
were, were people in Iraq affected, or people in Kuwait or 
wherever? It would seem to me that the CIA would be in the 
midst of that investigation.
    Mr. Walpole. Yes.
    Mr. Sanders. Are you suggesting that they are not?
    Mr. Walpole. I'm saying that I personally do not know. I 
might well go back and have the people on my task force that 
are experts on this field say, ``Well, Bob, yes. We looked at 
that quite a while ago. And here's the answer.'' And then, of 
course, I'll feel that I should have known the answer. But it's 
a very logical question.
    Mr. Sanders. Will you tell us the answer then?
    Mr. Walpole. And when I find out the answer to the 
question, we'll make sure you get it.
    Mr. Sanders. My question is, has the CIA investigated 
chemical exposure among Iraqis and Kuwaitis and other peoples 
in that region?
    Mr. Walpole. Yes. And it's a legitimate question. If that 
was part of the overall question of exposures, then the answer 
would be yes. But I don't know that for certain, and I don't 
want to mislead you.
    [The information referred to follows:] 
    [GRAPHIC] [TIFF OMITTED] T3668.184
    
    Mr. Shays. Doctor, thank you. And we will followup on that. 
Dr. Rostker, tell me how you react and if you want to correct 
my understanding that the Pentagon went to the FDA to have an 
informed consent in regards to PB so that it could be 
administered to our troops. One, did that happen? Two, do you 
agree with the testimony that has been fairly consistent in our 
committee with all of the veterans who appeared that they were 
not warned for the most part--I say for the most, there may 
have been one or two. We know with the Major that there may be 
something to this. But is it a fair conclusion on our part that 
our troops were not warned about the use of PB?
    Mr. Rostker. That is correct, sir.
    Mr. Shays. OK. So, what is the Pentagon's position knowing 
that?
    Mr. Rostker. The new supply of PB--and let me say there is 
not definitive statement that we would use it or not use it. It 
would have to depend upon the circumstances. But a new supply 
of PB, obviously, has been procured. And it comes with a 
warning and a statement of side effects.
    Mr. Shays. Is there any new protocol that's been issued by 
the Secretary instructing a different practice in the future?
    Mr. Rostker. I don't know of any. But I would say, as part 
of my inquiry on procedures and policy and doctrine, we 
certainly will cover this. The testimony that you heard today 
we hear all the time on our 800 numbers. There was not adequate 
warning despite of the assurances of the FDA. There was poor 
quality control in terms of the regimen of PB. In some units it 
was careful. In other units it was not careful. We don't have 
records that would definitively establish who had PB. It was 
not done that way any of us would have liked to have seen it 
done. There's no question about that.
    Mr. Sanders. In your judgment, was the use of PB a mistake?
    Mr. Rostker. I'm not prepared to say that. There was a 
concern that there was a potential for the Iraqis to have 
soman, which is a particular type of nerve gas. The normal 
procedures that we had for providing our troops protection 
would not have worked against soman. It would have been deadly. 
And the judgment was made at the time that this was consistent 
with the testing that had been done at the time, an appropriate 
prophylactic. It was the only procedure we had, the only 
medicine we had that would have provided any protection to a 
soman attack.
    Mr. Sanders. Can you tell us again, briefly, exactly the 
research that is now being done by the DOD or VA about the 
synergistic impact of----
    Mr. Rostker. I'd have to provide that for the record. And I 
will.
    [The information referred to follows:] 
    [GRAPHIC] [TIFF OMITTED] T3668.185
    
    Mr. Sanders. Do you consider that to be a major issue?
    Mr. Rostker. Absolutely. Let me just say, I hate to be 
vague on this, but when my office was set up we maintained the 
primacy of the assistant secretary of health affairs on the 
medical aspects of this. And while I have maintained an ongoing 
interest in oversight, and we coordinate, I or my office are 
not the prime people responsible for the health program. And 
so, if I'm a little vague on an answer, it's because I'll have 
to get that for you for the record.
    Mr. Sanders. You may be vague on this one, as well. But 
answer me this: Maj. Donnelly made a very interesting point. He 
suggested that he was made ill by exposure to malathion. Is 
that how it's pronounced?
    Mr. Rostker. Malathion.
    Mr. Sanders. And he suggested that other people may have 
had similar problems. He raised a very interesting point.
    Mr. Rostker. And I absolutely agree. And there are examples 
in civilian literature of people getting very sick on 
malathion.
    Mr. Sanders. Exactly.
    Mr. Rostker. Congressman Allen said, ``Nasty stuff. I 
wouldn't use it.''
    Mr. Sanders. That's right.
    Mr. Rostker. ``My wife won't let me use it.'' But, sir, it 
is still an approved chemical from----
    Mr. Sanders. I know that. But here's my point. It may be 
possible--and, again, I may be over my head, I'm not a 
scientist--but it is possible that we have thousands of men and 
women who are working around as walking time bombs. Might we at 
least get the word out to them to be at least careful, get out 
some information to them?
    Mr. Rostker. I don't know the cause and effect. The Major 
was talking about maybe some exposure in the Gulf has a 
triggering event.
    Mr. Sanders. Or PB?
    Mr. Rostker. Or PB. But maybe his trip to the golf course 2 
weeks earlier was a triggering event. I just don't know. This 
is nasty stuff. And that's why I've made a special effort in my 
inquiry to make sure we highlight pesticides and insecticides, 
that we do a full inquiry. Because I'm as concerned as you are.
    Mr. Sanders. I understand that. But the issue here is that 
you may have folks who already have a whole lot of crap in 
their systems, who might be particularly sensitive. Isn't it 
worth while at least exploring some of the----
    Mr. Rostker. I would have to leave that to the doctors. 
It's a hypothesis. I just can't draw a conclusion whether, at 
this point, it warrants that. And, again, just taking the 
Major's testimony. He had a whole life of exposures to 
chemicals. I have no idea why he believes he had a triggering 
event. And we have no linking between ALS and even chemical 
exposures. Those are things we have to research.
    Mr. Sanders. My last question on this round. You've been 
very patient for allowing me to interrupt you.
    Mr. Shays. No. That's fine. I'm just going to followup----
    Mr. Sanders. We're going to hear in a few minutes from 
Jonathan Tucker. And he's going to tell us, quoting from a 
statement he has presented us, ``DOD has called the Khamisiyah 
incident a `watershed' in it's investigation of chemical 
exposures. At the same time, however, the Pentagon has 
discounted dozens of other chemical exposure incidents reported 
by Gulf war veterans or mentioned in declassified operational 
logs. These low-level exposures to chemical weapons appears to 
have resulted from three sources--'' He goes through them. 
``Chemical fallout from aerial bombardment, explosive 
demolitions of munitions bunkers, sporadic and uncoordinated 
Iraqi use of chemical weapons.'' My question is, what do you 
think about what he is saying, and are you telling us today 
that Khamisiyah is all that we should expect to hear about in 
terms of chemical exposure, or do you think that tomorrow or 
next week or next year we're going to hear about other 
facilities or other situations that have resulted?
    Mr. Rostker. You'll hear others from us. We've provided the 
committee with a matrix of our first-round primary inquiries. 
And there is a whole range of potential chemical exposures, 
plus some cross-cutting papers that we're producing on FOX 
vehicles and other things that cut across. You're aware that 
there are concerns about positive 256 test kit readings and FOX 
vehicle readings. Many of those appear in journals. We don't 
have the specifics of people who are associated with that. 
We've developed a post card campaign. We'll go to everyone in 
the unit and ask people if they can provide information about a 
specific incident that occurred on a specific day.
    Mr. Sanders. Bottom line is that it may end up that there 
were more chemical exposures?
    Mr. Rostker. It may well. Because we are looking intensely 
at all of the named exposures. And every time we see an 
exposure or we get to the point where there's enough credible 
evidence to create a case like we heard today, we will create a 
case and run that to ground.
    Mr. Sanders. Thank you.
    Mr. Shays. I thank the gentleman. He may not be a 
scientist, but he looks like one. My sense to what a scientist 
looks like. No offense to the scientists out there. Doctor, I'm 
not letting you go quite this second here, but you're getting 
close.
    Mr. Rostker. That's OK.
    Mr. Shays. You're going up to Boston? Is that correct?
    Mr. Rostker. We're going to Boston for a town hall meeting 
with veterans. And I really appreciate the committee's 
indulgence. But reaching out to the veterans and talking to 
them, I think, is an important activity.
    Mr. Shays. It's absolutely essential. And I was going to 
complement you on that.
    Mr. Rostker. Thank you, sir.
    Mr. Shays. Just as you are fairly clear on the whole issue 
informed consent and with the troops and PB, is it possible 
that you would recommend a protocol that would make clear that 
it is a tremendous violation of a soldier's duty to not warn 
another soldier of a case like this. In other words, that that 
would be part of a protocol that you would suggest. But I'd 
also like to know, would the protocol allow a soldier, if this 
was a harmful chemical, that they would say, ``Sir, I 
respectfully decline to take that chemical''?
    Mr. Rostker. I think we have to come to grips with that. We 
have had incidents recently in terms of vaccinations that we 
need to establish what our policy is.
    Mr. Shays. What the policy is informing and what the policy 
is for a soldier under orders to say, ``I have the right to 
exercise my own judgment on my own body'' and decline.
    Mr. Rostker. Yes, sir.
    Mr. Shays. And that's going to be looked into?
    Mr. Rostker. Yes, sir.
    Mr. Shays. It also relates to, you said, referring to the 
chemical that Mr. Allen was referring to, you paraphrased him 
perfectly. The bottom line there is are you going to be looking 
at protocol and the use of industrial chemicals in the 
military? Because we may find that this is a very big problem.
    Mr. Rostker. Absolutely. And it goes hand-in-hand. And 
everything we are trying to do in my organization--there are 
two parts--I need to understand what the science is. As 
imperfect as it is, I still need to understand that. And then I 
have to understand the practices. And it's putting those two 
pieces of information together which will help us understand 
what policies and procedures we have to change for the future. 
And, as I said, I'm very concerned about these issues. I take 
Congressman Sanders' concerns very much to heart.
    Mr. Shays. Thank you. Some of our military leaders during 
the war responded by saying, in essence we didn't see evidence 
of chemical exposure because no one was falling on the 
battlefield, which related to testimony that Dr. Joseph made as 
it regards to Khamisiyah. And I'm going to be quoting in a 
second. I just want to get your reaction. I'm not asking that 
you repeal the statement. But I want a reaction to it. He said, 
``To date there has been no evidence found that soldiers 
located in this area (talking about Khamisiyah) complained of 
or presented any symptoms characteristic to acute exposure to 
chemical agents. However, we are still searching for additional 
information.'' And then he further said, ``Now, the most 
important thing that I really have to say about this is that 
the current accepted medical knowledge is that chronic symptoms 
or physical manifestations do not later develop among persons 
exposed to low levels of chemical nerve agents into--did not 
first exhibit acute symptoms of toxicity.'' And then he said, 
``However, this avenue is also being furthered explored by the 
department, both looking back at the situation story and 
research.'' Now, my sense is, from the work that you're doing, 
is that this is not a show-stopper. In other words, that you 
are, regardless of what so-called established medicine has 
determined, you're taking a big look at this issue?
    Mr. Rostker. Absolutely. And as you will remember, sir, in 
concert with your staff, we removed from our GulfLINK site a 
definitive paper on low-level chem, because it was inconsistent 
with us then turning around and fostering research, sponsoring 
research, to address that very issue. So, I think it has to be 
up. I would also say, in terms of the first part of what Dr. 
Joseph said, that we have been engaged in a contemporary 
analysis of participation rates in the two registries. And we 
find no correlation with Khamisiyah. We're working on the final 
draft of that. And as soon as it's ready I'll make it available 
to the committee. But certainly the preliminary indications are 
that those units that are around Khamisiyah have not 
experienced a higher participation rate in the two registries 
than other units in the Gulf.
    Mr. Shays. Yes. I just want to make the point, while he 
said further research, this to me was a show-stopper in terms 
of the VA, that there was an attitude that basically said, just 
like our generals felt. And it was a mindset that I think 
carried through both the DOD and the VA, with all due respect 
to both organizations. That hearing, when he testified--this 
was June 25, 1996. So, a lot has happened since then.
    Mr. Rostker. Yes, sir.
    Mr. Shays. You had a comment. And then I'm going to let you 
get on your way.
    Mr. Sanders. I know that you have to leave. And let me just 
say this. As I indicated earlier, I think that since you have 
come on, things are happening better. And I think many people 
are appreciative of that. I think the basic concern that I have 
is that what many of our troops may be exposed to is a new type 
of problem. And I think doing things the same old way and going 
to the same old guys, who have not come up with the solutions, 
is the problem. And I believe we're going to have to go outside 
of the DOD and the VA. Even RAND. I mean, RAND has been working 
with the DOD for a million years, right? They're your right-
hand private sector guys.
    Mr. Rostker. But I made sure their charter is to make sure 
they are tapping the full range of medical opinion.
    Mr. Sanders. Well----
    Mr. Rostker. And RAND tends to be a very independent type 
organization, as many of its research products have shown.
    Mr. Shays. One last question of you, Dr. Rostker. The whole 
process of declassification--are you aware of any information 
that you will be declassified that will be considered 
significant?
    Mr. Rostker. I have a rule that if I see a piece of 
information that I feel is significant, before the sun is down 
I ask for it to be declassified. And I tell the PAC, the only 
two pieces that we are now working on for declassification 
which I think you will find useful or the complete set of logs 
for the 18th Airborne Corps and the complete set of logs that 
we have for the 82nd Division so that you can judge the full 
context. And it helps explain--I think it helps explain what 
was going on on the days that there are no logs for the CENTCOM 
chem logs. So I've asked that those full sets of logs be 
declassified for you.
    Mr. Shays. And I would just make this request to you and 
then you're on your way, that when you are aware of the 
declassification that goes on the Internet, that you notify our 
committee that this information will be on-line so we don't 
discover it 3 days later or 4 days later?
    Mr. Rostker. We'd be happy to do that. We're also on----
    Mr. Shays. I'd like that to be a general practice.
    Mr. Rostker. Yes, sir. Absolutely.
    Mr. Shays. Thank you.
    Mr. Rostker. And we're also changing our search engines on 
GulfLINK so that they are more user-friendly so that you and 
your staff and veterans, in general, will have an easier time 
plowing through the 38,000 pages that we have on GulfLINK.
    Mr. Shays. I thank you for being here for so long. Travel 
safe.
    Mr. Rostker. Thank you.
    Mr. Shays. Mr. Walpole, thank you. And also, Mr. Mancuso, 
do you have any comments? And thank you for your patience 
sitting here so long and not being--you're happy not to talk? 
OK. Do you have any comment about the issue of 
declassification?
    Mr. Mancuso. No. It has not been a problem in our area at 
all. The Deputy Secretary made it perfectly clear that we had 
wide berth in the department and that anything that could be 
viewed as constructive to us or in any area that someone could 
be helpful to us, we would get through that. And, in fact, 
where we've needed access we've been able to gain access 
virtually immediately.
    Mr. Shays. Let me ask you, if you were to discover 
something that you had access to that was classified that you 
thought was important for the veterans to know for their 
health, what would be your response in the course of doing your 
work? How would you respond to that information?
    Mr. Mancuso. We would seek to immediately make it known to 
the--certainly to Dr. Rostker's office. And if we did not feel 
that we had a satisfactory response there, we would seek to go 
higher than that.
    Mr. Shays. So, the bottom line is, you would, if you saw 
classified information that you thought would be helpful to the 
health of the veterans, you would recommend to Dr. Rostker that 
he seek to have this declassified?
    Mr. Mancuso. Most definitely. Again, though, Mr. Chairman, 
our focus for our investigation as defined by the Deputy 
Secretary is quite narrow. It is to find the missing logs.
    Mr. Shays. I know that.
    Mr. Mancuso. Had we found anything else or had we found any 
aspect of a document that would be helpful in the search for 
what's wrong with the veterans we certainly would have done 
whatever was needed to be done to make that known.
    Mr. Shays. Yes. I think we're seeing it the same way. I 
realize you have a very limited issue here.
    Mr. Mancuso. Mm-hmm.
    Mr. Shays. A very important one, but limited. But in the 
course of doing your work--we're trying to develop a culture 
and encourage a culture within the CIA and the VA and the DOD 
that says, this is information. And even if it isn't someone's 
primary responsibility. But if it's information that's helpful, 
we want them to be a proactive person. Not to release something 
that's classified, go through the channel, but work hard to 
have that done.
    Mr. Mancuso. Mm-hmm.
    Mr. Shays. Would you like to--do you have a question?
    Mr. Sanders. Yes. I do. I just wanted to explore--revisit 
an issue we talked about a few minutes ago. Is it your 
judgment, Mr. Walpole, that when the United States bombed the 
chemical factories in Iraq that there was no release of 
chemical agents that might have impacted civilians or our own 
troops?
    Mr. Walpole. In fact, I was just looking at that in the 
paper that was released--in the testimony we discussed earlier 
in December. In the section under Muhammadiyat and Al Muthanna, 
there is the statement, ``Finally we have found no information 
to suggest that casualties occurred inside Iraq as a result of 
this bombing, probably because they are in remote locations.'' 
I have to, from that, assume that the question we discussed 
earlier was indeed looked at for those two sites. So, the 
answer for those two sites, at least, is no. There were no 
casualties. And since I'm assuming they looked at everything 
else, no indication because of the remoteness of those two 
facilities.
    Mr. Sanders. We're familiar with what happened at 
Khamisiyah. Do you have any evidence that--from the CIA's 
perspective--any similar type occurrences occurred in other 
munitions depos?
    Mr. Walpole. No. In fact, we're doing a search of any 
potential site. We have found no other site. But we're--just 
like Dr. Rostker--we're leaving an open mind for other sites 
that we may find intelligence on that would help.
    Mr. Sanders. So your position is the same as Dr. Rostker's?
    Mr. Walpole. Yes.
    Mr. Sanders. Is that at this point you cannot tell us of 
any other sites or occurrences of situations that may have 
exposed our soldiers to chemical agents?
    Mr. Walpole. Yes. We have found no others. But we're going 
to address it with an open mind.
    Mr. Sanders. OK. Thank you.
    Mr. Shays. Mr. Walpole, the working group that was 24-hour 
continuous operation seemed to be a new discovery for those of 
us outside the CIA. That wasn't something that was volunteered 
to us when your organization came before us the first time. 
Explain to me a little bit about the role of that organization 
again.
    Mr. Walpole. Yes. In fact I have seen it mentioned in 
former testimonies. And I could pull out exactly which ones 
there are. We have----
    Mr. Shays. Former testimonies where?
    Mr. Walpole. Before committees. I don't know if it exactly 
was your committee. But it was--it was in----
    Mr. Shays. You have the testimony of our--you've seen it?
    Mr. Walpole. Yes. The September one. And as I recall it 
might have been mentioned in November testimony. I don't 
remember where that was. It's also mentioned on the first page 
of our Khamisiyah historical perspective paper. Now what it was 
was a group of seven analysts that were chemical and biological 
warfare analysts at CIA--had decided that they wanted to run a 
24-hour operation. Basically, alternate their schedules so that 
they weren't working 15 and 18-hour days.
    They, in order to communicate with each other, would enter 
a computer file--each of them on their own machine--and then 
type in what kinds of things occurred at certain times of the 
day that they would pass on to someone else. They titled that a 
log. And, in fact, the two entries that related to Khamisiyah 
were released as part of this package. It didn't mention the 
name Khamisiyah. In fact, there was a confusion with An 
Nasiriyha. But we recognized that, and thought that should be 
released. We have all of those. And we are going through those 
for any information that is pertinent to this issue that can be 
released.
    As you can imagine, in notes from one analyst talking to 
the next, there's a lot of completely extraneous information 
talking about, no, really we're not asleep and we got a chance 
to eat and things like that. But as we go through that, if 
there's information that is relevant to the veterans' illnesses 
that indeed will be released.
    Mr. Shays. So all seven of those individuals have been 
interviewed by you?
    Mr. Walpole. Yes.
    Mr. Shays. By you?
    Mr. Walpole. By me.
    Mr. Shays. Yes.
    Mr. Walpole. Three of them are currently on the task force. 
Five of them are involved in activities along the way over the 
years related to this issue. But I have talked to all seven of 
them.
    Mr. Shays. I would have made an assumption that there were 
chemical sites throughout Iraq based on the briefings that were 
provided to me as a Member of Congress. So it's somewhat 
surprising to me that the CIA wouldn't have really been very 
clear about where these chemicals were and that they would have 
been on a wall during the war. I have to tell you--I don't have 
to tell, I want to tell you that I've lost some respect for the 
CIA in the sense that, if I were there, knowing what I had even 
been briefed before the war started, I would have on the wall 
and in my computer a clear sense of where all those chemicals 
were located. And it surprises me that we wouldn't have known 
up front that Khamisiyah had chemicals. Doesn't it surprise 
you?
    Mr. Walpole. Well, I have the value of 20/20 hindsight. Do 
you want me to walk through what we knew and didn't know about 
Khamisiyah? It will take a couple of--30 seconds.
    Mr. Shays. Yes, I do.
    Mr. Walpole. OK. And it's in this paper. That's why I 
thought you might want to include that in the record. In 1977, 
Khamisiyah was identified under construction as a conventional 
ammunition storage depo. In 1986, we had information--and it 
was very good information--it was an official Iraqi document 
translated--that at the end of the document--it was on their 
chemical weapon production plant--indicated that a certain 
number of Mustard rounds were stored--a large number, over 
3,000--stored at Khamisiyah. Now, when you have an official 
Iraqi document you know you've got firm evidence for a chemical 
connection. Later, in 1986, analysts began to look at that, and 
they determined that S-shaped bunkers appeared to be the future 
for forward deployed storage.
    Mr. Shays. Of chemicals.
    Mr. Walpole. Of chemicals. Because that's how Khamisiyah 
was viewed from that 1986 report. It indicated that chemical 
weapons were stored there during the Iran-Iraq war, 
specifically in 1984 and 1985. Analysts began to focus on S-
shaped bunkers as the future forward deployed storage 
locations. Khamisiyah did not have one of those bunkers. In 
1988, we received a report with the same reliability, same 
confidence in the report, that indicated that chemical weapons 
were stored either at Samarra or Muhammadiyat. And then it 
mentioned also that there was a temporary storage at Kirkuk 
Airfield, which also had an S-shaped bunker. The bottom line 
was, in 1988, the same reliability intelligence suggested that 
Khamisiyah wasn't used any more for a storage site.
    The focus was on S-shaped bunkers. So, just prior to the 
war, Khamisiyah was not on, in the analytical thinking, it 
wasn't on our list of sites, the sites that were included. And 
they were all suspect. We didn't know a lot of things about the 
storage sites. We knew where things were produced. We didn't 
know the storage sites. So, it wasn't on that list. The 
warnings I talked about in my opening statement occurred just 
before the ground war, not before the air war. So, that's how 
it was missed.
    Mr. Shays. OK. It's still surprising to me. I just felt 
that we would have informants that would be able to track--
chemicals are something that we consider quite a significant 
weapon. And it's just surprising to me that we did not have 
inside sources that would have been able to provide that. I'm 
just going to express that.
    Mr. Walpole. Yes. Well, the 1988 information seemed to 
shift us away from that. Now, the 20/20 hindsight I referred 
to--my thinking on this would have been, if they stored 
chemical munitions there during the Iran-Iraq war, we should 
have included it on the list as a possible site even with the 
caveat that we don't know that anything is there.
    Mr. Shays. And we didn't know that they had taken them away 
from there. So, it seemed to me that the last time we knew, 
they were there.
    Mr. Walpole. Well, the 1988 report seemed to imply that 
they did.
    Mr. Shays. OK. Let me, Mr. Mancuso. This is an issue that 
was very narrow. And your statement was so much on target you 
didn't leave a lot of questions in our minds. But what I don't 
quite understand is how you go about determining where these 
logs are with any kind of certainty. Because--do you have 
access--do you first know everyone who potentially would have 
handled these logs?
    Mr. Mancuso. We believe we do, yes.
    Mr. Shays. And some are active and some are not active?
    Mr. Mancuso. That is correct.
    Mr. Shays. And you are seeking out both active and non-
active and questioning them?
    Mr. Mancuso. That is correct.
    Mr. Shays. You question them under oath, or is there no 
reason to?
    Mr. Mancuso. They've been questioned under different 
circumstances depending on the interview. I can tell you that 
we've conducted in the 7 weeks since we took over this 
investigation approximately 70 interviews. About half of which 
were re-interviews, more detailed interviews of people who had 
been approached during the review conducted by Dr. Rostker.
    Mr. Shays. Is it against military protocol to have 
destroyed these documents? Was someone authorized to? Was there 
certain protocol how you would handle documents like this?
    Mr. Mancuso. The documents we're speaking about were not 
technically required to even have been used.
    Mr. Shays. OK.
    Mr. Mancuso. In practice they were useful and they were 
something you would expect from good staff work.
    Mr. Shays. It's not like the log on a ship?
    Mr. Mancuso. No.
    Mr. Shays. No.
    Mr. Mancuso. We're talking about documents that good staff 
people would normally maintain. What we're trying to do is 
track those documents through the system, again, in all media 
they may have been in, and to move through the process very 
deliberately and determine who actually handled those 
documents--again, different copies, different medias at 
different times--in a best effort following every available 
lead to locate them.
    Mr. Shays. So, one hope is to obviously find out what was 
in them even if we can't locate them. In other words, you're 
asking them what they recall seeing in the documents, correct? 
And the other is to actually locate the documents.
    Mr. Mancuso. That's----
    Mr. Shays. Is there hope that the documents still exist 
somewhere?
    Mr. Mancuso. That's why we're continuing. We will continue 
until we believe that we've either located everything we need 
to locate or exhausted all conceivable leads in that regard.
    Mr. Shays. But maybe I'm making an assumption I shouldn't. 
Are you trying to reconstruct the documents even if you don't 
have them? In other words, are you asking people what they saw, 
what they put on them, what others who read it saw?
    Mr. Mancuso. I'd prefer not to go into the interviews, but 
it is accurate. As Dr. Rostker said, there are other larger 
separate records.
    Mr. Shays. I just don't understand why you would prefer not 
to. I don't see why. Was there something significant about--are 
you saying that in the process of doing this, you don't want to 
disclose to someone else what you might have asked someone 
else?
    Mr. Mancuso. That is correct.
    Mr. Shays. OK. I understand that. Is there anything you 
want to add, any point, question that you wished we would have 
asked you?
    Mr. Mancuso. I would just add, to follow on on a point you 
made about the Inspector General's office taking on the 
investigation, and would we in fact, for instance, act on, for 
instance, classified information. I just point out that as an 
Inspector General's office we are, although we are technically 
a part of the Department, we're set up independently by the 
Inspector General Act, and, have dual reporting to the Congress 
and the Secretary. And as in many, many other matters that 
we've investigated, we've shown ourselves to be independent and 
not--occasionally not in line with the Department's preferred 
thinking.
    Mr. Shays. I have a sense you're independent. I just want 
to know if you think that's part of your mandate. And part of 
your mandate, it seems to me, if you came across something--and 
I think you agree.
    Mr. Mancuso. Absolutely.
    Mr. Shays. I had hoped that the case. I'm happy it is the 
case. And I'm happy it's on the public record.
    Mr. Mancuso. Thank you.
    Mr. Shays. Mr. Walpole, is there anything you wish we had 
asked you that we didn't?
    Mr. Walpole. I can't think of anything.
    Mr. Shays. OK. Is there anything I wish I had asked you 
that you are happy I didn't?
    Mr. Walpole. I would imagine if you had thought of it you 
would have asked it.
    Mr. Shays. Now, I want to be clear. Now, the question you 
wished I had asked you is the question you're happy I didn't 
ask that I wish that I had asked you that I want you to tell 
me.
    Mr. Walpole. No. I think we've covered everything.
    Mr. Shays. OK.
    Mr. Walpole. If you do get a chance to read the historical 
perspective, it gives you a good feel for the pluses and the 
minuses on this. It was a very honest effort to lay this all 
out. And one of the reasons we did it was so the veterans would 
have something in hand when they want to try to remind 
themselves of what might have occurred, or talk to DOD people 
on the phone about this. It's now unclassified, and there are 
no bars to talking about it.
    Mr. Shays. OK. Great. One last question, I guess, that my 
staff wants me to ask is, is there some classified information 
left in the drawer that will be coming out in the near future 
or that won't be coming out that should?
    Mr. Walpole. Everything classified that we discover, which, 
of course, is what we have, we're ensuring that all the 
Government agencies that are cleared, including the Hill, have 
that. We're also working to declassify any and all information 
that's pertinent to this issue. At this point I know of no 
major surprises.
    Mr. Shays. Dr. Rostker would have access, and you would be 
making sure he sees classified information. And based on his 
pledge to this committee, and frankly what I think his conduct 
has been, he would certainly be a voice in asking that it be 
declassified. So, if you had some doubts, you're still going to 
be sharing it with Dr. Rostker?
    Mr. Walpole. Absolutely. And with Walt Jacko, as well. In 
fact, I think when--you'll find some interesting DOD documents 
in our package here that came to light just as we were getting 
ready to go to print. And Dr. Rostker said, ``Let's include 
these in that package,'' and so on. So, there's a very close 
working relationship there.
    Mr. Shays. I'm just thinking of one last question. The 
process of declassifying means, who do you go to? Who has the 
ability to declassify, in the Dr. Rostker's case and your case?
    Mr. Walpole. Well, it depends on the information. 
Obviously, George Tenet has the ultimate authority on many of 
these. But if it's foreign source information, then we have to 
go back to the owner of that information, the foreign country, 
and say, ``Can we use this information.'' If it's national 
technical means derived information then there are certain 
legal requirements we have to go through.
    Mr. Shays. OK. Thank you both very much. And we'll get our 
third panel up here.
    Mr. Sanders. Thank you.
    Mr. Shays. Let me invite our third panel, which is Dr. 
Jonathan Tucker, director, Chemical and Biological Weapons 
Nonproliferation, Center for Nonproliferation Studies, Monterey 
Institute of International Studies. A rough place to live, 
Doctor, I've been there. And Dr. Tiedt, a research and 
neuroscientist, Longboat Key, FL. So far, we've got two lovely 
places to live. And Dr. Satu Somani, Professor of Pharmacology 
and Toxicology, Southern Illinois University School of 
Medicine.
    It's nice to have all three of you here. I'm getting a 
little giddy, so we better get on with it here. We'll start in 
the order that I called. We'll just go down the row here. And 
Dr. Tucker, you'll start. I need you to rise and I need to 
swear you in.
    [Witnesses sworn.]
    Mr. Shays. And we'll note for the record that all three of 
our witnesses have responded in the affirmative. Again, Dr. 
Tucker, we'll start with you.

   STATEMENTS OF JONATHAN B. TUCKER, DIRECTOR, CHEMICAL AND 
    BIOLOGICAL WEAPONS NONPROLIFERATION PROJECT, CENTER FOR 
 NONPROLIFERATION STUDIES, MONTEREY INSTITUTE OF INTERNATIONAL 
STUDIES; THOMAS TIEDT, RESEARCHER AND NEUROSCIENTIST, LONGBOAT 
    KEY, FL; AND SATU SOMANI, PROFESSOR OF PHARMOCOLGY AND 
  TOXICOLOGY, SOUTHERN ILLINOIS UNIVERSITY SCHOOL OF MEDICINE

    Mr. Tucker. Mr. Chairman, Congressman Sanders, I appreciate 
the opportunity to appear before you today. I direct the 
Chemical and Biological Weapons Nonproliferation Project at the 
Monterey Institute of International Studies. Formerly I was 
senior policy analyst of the staff of the Presidential Advisory 
Committee on Gulf War Veterans Illnesses. Before that I was a 
chemical weapons specialist at the United States Arms Control 
and Disarmament Agency, and served as a biological weapons 
inspector in Iraq with the U.N. Special Commission.
    Mr. Chairman, the evidence shows that there were multiple 
chemical weapons detection and exposure incidents during the 
Gulf war that the U.S. Government has not officially 
acknowledged. Much attention has been given to the March 1991, 
incident at Khamisiyah in which United States combat engineers 
blew up a munitions bunker containing 8.5 metric tons of nerve 
agent. The Department of Defense has called Khamisiyah a 
watershed in its investigation of chemical weapons exposures.
    At the same time, however, the Pentagon has discounted 
dozens of other exposure incidents reported by Gulf war 
veterans or mentioned in declassified operations logs. These 
exposures appear to have resulted from three sources. First, 
chemical fallout from the bombing of Iraqi munitions depots in 
the war zone. Second, fallout from the explosive demolition of 
Iraqi munitions bunkers by United States troops during and 
after the ground war. And third, the sporadic and uncoordinated 
Iraqi use of chemical weapons. In short, the evidence 
demonstrates that Khamisiyah was just the tip of the iceberg.
    The Department of Defense has stated that Iraq never 
deployed large numbers of chemical weapons into the war zone 
and that the storage sites in central Iraq were too far away 
for toxic fallout from their destruction to have reached United 
States troops. Yet this position ignores dozens of declassified 
military intelligence reports that refer to Iraqi chemical 
weapons in Kuwait. The Pentagon has disavowed these 
intelligence reports, claiming they were never substantiated. 
But the sheer number and detail of the reports suggests that 
Iraqi chemical weapons were indeed present in Kuwait before the 
Gulf war.
    The CIA, for its part, claims that Iraq deployed chemical 
weapons into Kuwait during the summer and fall of 1990, but 
then withdrew them before the start of the air war in January 
1991. Yet it is not logical that Iraq would renounce a potent 
weapon in the face of a major ground invasion, and then tie up 
its logistics moving thousands of chemical munitions out of 
Kuwait. No evidence in the public domain indicates that such a 
withdrawal took place. On the contrary, according the Charles 
Duelfer, deputy chairman of the U.N. Special Commission, Iraq 
transported more than 2,000 rockets filled with nerve gas from 
the production plant at Al Muthanna in central Iraq to the 
bunker complex at Khamisiyah during the second week of January 
1991. In other words, Iraq was moving chemical weapons into the 
war zone right up to the beginning of hostilities.
    Based on the thus-far declassified record, former CIA 
analyst Pat Eddington has identified 12 likely Iraqi chemical 
weapon storage sites in southeastern Iraq and Kuwait. Many Gulf 
war veterans say they encountered Iraqi chemical munitions on 
the battlefield during and after the ground war. An official 
Marine Corps survey of more than 1,600 chemical defense 
specialists found that 13 percent reported some contact with or 
detection of Iraqi chemical weapons. The investigator, Capt. 
T.F. Manley, concluded, ``There are too many stated encounters 
to categorically dismiss the presence of agents and chemical 
agent munitions in the Marine Corps sector.''
    With respect to Iraqi use of chemical weapons, the 
declassified operations logs corroborate numerous veteran 
reports of detecting low levels of chemical warfare agents 
during the ground war, including sarin, lewisite, and mustard 
gas. Many of these detections were made with analytical methods 
that are highly reliable and have a low false alarm rate. Thus, 
while adverse weather conditions and the speed of the coalition 
advance precluded the large scale use of Iraqi chemical 
weapons, there is strong evidence for sporadic, uncoordinated 
use.
    In conclusion, evidence in the public domain indicates a 
larger number of credible chemical weapons detection and 
exposure incidents during the Gulf war than either the Pentagon 
or the CIA have acknowledged. The implication is that many more 
American troops were exposed to low levels of chemical weapons 
than the estimated 20,000 at Khamisiyah. While medical experts 
will need to make the ultimate judgment about the relationship 
between low-level chemical exposures and Gulf war illnesses, 
such a link cannot
be dismissed on the basis of the available evidence. I would be 
happy to answer your questions on these and other matters, 
including my dismissal from the staff of the Presidential 
Advisory Committee and my recommendations to the subcommittee 
for further action. Thank you.
    [The prepared statement of Mr. Tucker follows:] 
    [GRAPHIC] [TIFF OMITTED] T3668.186
    
    [GRAPHIC] [TIFF OMITTED] T3668.187
    
    [GRAPHIC] [TIFF OMITTED] T3668.188
    
    [GRAPHIC] [TIFF OMITTED] T3668.189
    
    [GRAPHIC] [TIFF OMITTED] T3668.190
    
    [GRAPHIC] [TIFF OMITTED] T3668.191
    
    [GRAPHIC] [TIFF OMITTED] T3668.192
    
    [GRAPHIC] [TIFF OMITTED] T3668.193
    
    [GRAPHIC] [TIFF OMITTED] T3668.194
    
    [GRAPHIC] [TIFF OMITTED] T3668.195
    
    [GRAPHIC] [TIFF OMITTED] T3668.196
    
    [GRAPHIC] [TIFF OMITTED] T3668.197
    
    [GRAPHIC] [TIFF OMITTED] T3668.198
    
    [GRAPHIC] [TIFF OMITTED] T3668.199
    
    [GRAPHIC] [TIFF OMITTED] T3668.200
    
    [GRAPHIC] [TIFF OMITTED] T3668.201
    
    [GRAPHIC] [TIFF OMITTED] T3668.202
    
    [GRAPHIC] [TIFF OMITTED] T3668.203
    
    [GRAPHIC] [TIFF OMITTED] T3668.204
    
    [GRAPHIC] [TIFF OMITTED] T3668.205
    
    [GRAPHIC] [TIFF OMITTED] T3668.206
    
    [GRAPHIC] [TIFF OMITTED] T3668.207
    
    [GRAPHIC] [TIFF OMITTED] T3668.208
    
    [GRAPHIC] [TIFF OMITTED] T3668.209
    
    [GRAPHIC] [TIFF OMITTED] T3668.210
    
    [GRAPHIC] [TIFF OMITTED] T3668.211
    
    [GRAPHIC] [TIFF OMITTED] T3668.212
    
    [GRAPHIC] [TIFF OMITTED] T3668.213
    
    [GRAPHIC] [TIFF OMITTED] T3668.214
    
    [GRAPHIC] [TIFF OMITTED] T3668.215
    
    [GRAPHIC] [TIFF OMITTED] T3668.216
    
    [GRAPHIC] [TIFF OMITTED] T3668.217
    
    [GRAPHIC] [TIFF OMITTED] T3668.218
    
    [GRAPHIC] [TIFF OMITTED] T3668.219
    
    Mr. Shays. Thank you, Doctor. I just want you to note: Dan 
Miller is a good friend of mine. And I believe your Congressman 
just alerted me that you would be coming, and was very happy 
that you would be testifying. And I work closely with him on 
this and some other issues. So, it's very nice to have you 
here.
    Mr. Tiedt. Thank you very much. Mr. Chairman and members of 
the subcommittee, there is a 30-year record of scientific 
evidence addressing Gulf war syndrome. In view of the two 
panels previously, I must emphasize it is not as bleak as we 
were led to believe.
    Mr. Shays. Doctor, I'm going to have you pull the mic a 
little toward you now.
    Mr. Sanders. Closer.
    Mr. Shays. And move it up just a little bit. That's great. 
Thank you.
    Mr. Tiedt. Everyone had hoped that the White House 
Presidential Advisory Committee would have examined the 
scientific evidence. But most of the critical evidence was 
absent from the report that was issued in January of this year. 
This scientific evidence shows that Gulf war syndrome was 
easily predictable. The symptoms of Gulf war syndrome match the 
toxic effects of PB, sarin and pesticides, all toxic enzyme 
inhibitors. The symptoms are diverse because the affected 
enzymes have distribution all over the body in our central 
nervous system and around our periphery. Chemical inhibition of 
the most studied of these enzymes causes stunning nerve and 
muscle degeneration moments after a single dose, as well as an 
array of hormonal, cardiac and development abnormalities.
    Extensive research from various points of view shows that 
this toxicity is worsened by activity and stress. One look at 
the electron microscope pictures would shock anyone. Not all 
the damage is reversible. My team's research at the University 
of Maryland during the mid-1970's was comprehensive. We 
concluded that enzyme inhibitors are toxic, even in patients 
with myasthenia gravis. These patients are less susceptible 
than healthy and active individuals to the toxic effects of 
these agents.
    Our work was followed by an explosion of research by DOD 
during the 1980's, the most relevant of which was produced by 
my co-authors and colleagues still at the University of 
Maryland and at the Aberdeen Chemical Warfare R&D Center. We 
have a very active R&D apparatus throughout the United States. 
I know of at least 12 very active DOD laboratories. DOD 
established by the early 1980's that PB causes persisting 
``counterproductive consequences'' and that PB is worthless by 
itself as a chemical warfare protectant. Moreover, PB reduces 
the protection provided by effective protective agents.
    DOD research also found that at sublethal dosage PB is more 
dangerous and more toxic than sarin nerve gas. Hundreds of 
thousands of soldiers were ordered to take PB. Most of them had 
acute side effects. There was no benefit to balance the certain 
and substantial risk. If the goal was to protect our soldiers, 
DOD used the wrong drug.
    Last year, research added important new findings to the 
already large data base: One, stress makes the blood brain 
barrier leaky to PB and enhances PB's central nervous system 
toxicity. Two, behavioral changes begin weeks after PB 
treatment ends. And three, Gulf war veterans display objective 
signs of nerve damage.
    PB's use in the Gulf war was a senseless violation of the 
Nuremburg code. So was FDA's waiver of informed consent for our 
soldiers. Not supplying our soldiers with the required 
brochures describing PB's side effects was a violation of FDA's 
waiver. The PB experiment adds to the already long record by 
the military to conduct involuntary, meritless and hazardous 
experiments on our soldiers.
    Extensive scientific evidence also exists about 
organophosphate-induced neurotoxicity, explaining why EPA and 
most States have strict standards for our homes and workplaces. 
Mr. Chairman, I hear you touch that point all the time. It's a 
very significant point. In the real world we know these 
chemicals are very hazardous. Sarin and pesticides are 
organophosphates.
    Exposure to the nerve gas sarin is sufficiently confirmed. 
I believe there are tens of thousands of chemical alarms. I 
believe we should also replay the press conference by Dr. 
Rostker last December 5, wherein he testifies at the press 
conference that at Khamisiyah there was extensive recognition 
of chemical warfare sarin-containing warheads, including the 
drilling of holes within those warheads, taking a sample, 
measuring it, determining and confirming that it was sarin gas 
prior to destruction. Of course, we must ask where are those 
records.
    We know that long-term and delayed onset neurotoxicity can 
result from exposures not producing acute symptoms. There is 
extensive DOD research on that. We know our soldiers were 
exposed to repeated doses of pesticides and unique high-dose 
insect repellents. Some pesticides--malathion comes to mind--
are converted to even more dangerous chemicals by heat in air, 
just the conditions in the Gulf war. We know that repeated 
clothes launderings fails to prevent poisoning from 
contaminated clothes.
    We also know that co-exposure to PB, sarin, pesticides and 
insect repellents make each other more dangerous, more toxic. 
Since many soldiers reported acute symptoms from these 
exposures, the probabilities of long-lasting neurotoxicity and 
its higher prevalence are greater.
    Several epidemiologic studies of Gulf war veterans confirm 
what was easily predicted. A wide range of symptoms are 
significantly more prevalent in Gulf war veterans. The three 
studies in the Journal of the American Medical Association 3 
months ago by Dr. Robert Haley and his team are very, very 
important.
    They're also great work. The factor analysis is something 
to behold. These studies found neuropathy in Gulf war veterans 
and its association with exposure to nerve enzyme inhibitors. 
Psychological illnesses were ruled out for the observed brain 
and nerve dysfunction. The authors also noted a 1983 warning 
that PB would increase the likelihood of occurrence of 
chemical-induced neuropathy. This information presented the 
Presidential Advisory Committee in
September 1995 was also absent from the Presidential Advisory 
Committee's report.
    There is no doubt that enzyme inhibitors caused toxicity to 
our troops. No other explanation has as much relevant and 
mainstream evidence or explains as many cases. Thank you.
    [The prepared statement of Mr. Tiedt follows:]
    [GRAPHIC] [TIFF OMITTED] T3668.220
    
    [GRAPHIC] [TIFF OMITTED] T3668.221
    
    [GRAPHIC] [TIFF OMITTED] T3668.222
    
    [GRAPHIC] [TIFF OMITTED] T3668.223
    
    [GRAPHIC] [TIFF OMITTED] T3668.224
    
    [GRAPHIC] [TIFF OMITTED] T3668.225
    
    [GRAPHIC] [TIFF OMITTED] T3668.226
    
    [GRAPHIC] [TIFF OMITTED] T3668.227
    
    [GRAPHIC] [TIFF OMITTED] T3668.228
    
    [GRAPHIC] [TIFF OMITTED] T3668.229
    
    [GRAPHIC] [TIFF OMITTED] T3668.230
    
    [GRAPHIC] [TIFF OMITTED] T3668.231
    
    [GRAPHIC] [TIFF OMITTED] T3668.232
    
    [GRAPHIC] [TIFF OMITTED] T3668.233
    
    [GRAPHIC] [TIFF OMITTED] T3668.234
    
    [GRAPHIC] [TIFF OMITTED] T3668.235
    
    Mr. Shays. Thank you, Dr. Tiedt. Dr. Somani.
    Mr. Somani. Mr. Chairman Shays.
    Mr. Shays. Dr. Somani, I'm going to ask you--I'm sorry, I 
keep interrupting. We really want to hear you out. I keep 
interrupting everyone here. But if you would lower your mic I 
think it would help. Lower this mic. Bring it down. Thank you. 
That's great. Can you still see your page?
    Mr. Somani. Oh, yes.
    Mr. Shays. OK. Thank you. Good to have you here.
    Mr. Somani. Thank you.
    Mr. Shays. And, again, I should thank all three of you 
because you've been here since before 10 a.m. And it's very 
appreciated you would sit through this entire hearing. And your 
testimony is very valued. Thank you.
    Mr. Somani. Mr. Chairman Shays and Congressman Sanders, I 
thank you for giving me an opportunity to testify before you. I 
request you to include the entire written testimony for the 
record.
    Mr. Shays. That will happen.
    Mr. Somani. My testimony is based on the premise that the 
Gulf war veterans were taking pyridostigmine as a precautionary 
measure against potential exposure to nerve agents--for 
example, sarin--and they were exposed to insecticides and other 
harmful chemicals, and that they were also under physical 
stress which can modify the effects of such exposure.
    The literature suggests that sarin can be responsible for 
delayed neurotoxic effects which may not appear until years 
after a low level of exposure. Although pyridostigmine is not 
normally taken up by the brain, it crosses blood brain barrier 
under conditions of physical stress and causes central nervous 
system effects. Insecticides, insect repellents and other 
chemicals can also contribute to neurotoxic effects of nerve 
agents as sarin, soman, tabun and Vx and they are important 
weapons of chemical warfare. Sarin has been used as a chemical 
warfare agent since World War II. More recently, it was used 
during the Iran-iraq conflict. Sarin was also used by 
terrorists as a weapon in Japan.
    Reports from the Defense Science Board and Committee on 
Banking, Housing and Urban Affairs indicate that the Desert 
Storm veterans might have been exposed to a low level of sarin. 
If that's the case, then the veterans may suffer from the 
delayed neurotoxic effects of the low level of sarin. Although 
we have a treatment for a single dose toxicity, there is no 
treatment, however, for the delayed neurotoxicity. Delayed 
neurotoxicity was first reported in the 1950's.
    German personnel exposed to nerve agents during World War 
II suffered from neurological problems even 5 to 10 years after 
their last exposure. Long-term abnormal neurological and 
psychiatric symptoms have also been seen in personnel exposed 
to sarin in sarin manufacturing factories. The symptoms of the 
delayed neurotoxicity include impaired concentration and 
memory, depression, fatigue, irritability in those working in 
factories where nerve agents were manufactured.
    The chronic delayed neurotoxic effects are seen in animal 
experiments after administration of organophosphates such as 
sarin. These effects are difficulty in walking and paralysis. 
These are due to organophosphate-induced delayed neurotoxicity, 
what we call OPIDN. And this OPIDN was attributed to the 
inhibition of the enzyme, neurotoxic esterase in the nervous 
system, and also the degeneration of the axon. That means, the 
message pathway from nerve cell to nerve cell is impaired. 
Recently, Haley could explain the mild impairment of the 
nervous system functions in the Gulf war veterans based on 
their epidemiological studies.
    Mr. Shays. He's done what? I'm sorry. Speak a little more 
slowly. I'm just missing some of your words. What was the last 
point you made?
    Mr. Somani. Based on their epidemiological studies, they 
attribute the number of veterans. Similarly, a British study 
also reported neurological dysfunction in veterans. I wish to 
take a moment to speak about the pre-treatment drug, 
pyridostigmine. I did my Ph.D. on pyridostigmine and sister 
drug neostigmine. Recently, I also worked on another drug, 
physostigmine. These are all the same sort of drugs, which work 
in the central nervous system and the peripheral nervous 
system.
    Pyridostigmine is a charged compound. This is a positively 
charged drug which does not enter into the brain. This has been 
used for more than 50 years in the treatment of myasthenia 
gravis disease. Pyridostigmine is used as a pre-treatment drug 
against nerve agents such as sarin. The protective effect is 
attributed to the capacity to form a reversible complex with a 
portion of the enzyme acetylcholinesterase, thereby preventing 
the inhibition of this enzyme by the nerve agent. 
Pyridostigmine is metabolized to another charged compound. And 
both of these are excreted in the urine.
    However, both the drug and its metabolites seems to 
accumulate in the muscle and in the cartilage--cartilage 
tissues, which are present in the ears and nose and the soft 
tissues. Since exercise--as we take exercise, our cardiac 
output increases, the blood flow to the muscle mass increases 
10 times, and the blood flow to the liver increases. And these 
drugs are metabolized, are degraded in the liver. For example, 
the sister drug, like physostigmine on which we worked, the 
half-life of that increased--half-life is the amount of the 
time the drug stays in the body--and the clearance--the drug 
has to be cleared from the body--the clearance has decreased, 
indicating that the drug and its metabolites stay in the body 
for a longer time, thereby causing more effect.
    Recently, Friedman gave doses of pyridostigmine to mice, 
and they were subjected to forced swim. That means that the 
mice were under stress. This positively charged drug entered 
the brain and inhibited acetylcholinesterase, causing more 
toxicity. This drug, which is a peripheral drug, has become a 
central drug, acting under the central nervous system. In 
another study, rats were administered with pyridostigmine for 
14 days. The rats were also given physical exercise. The 
combination of physical exercise and pyridostigmine caused 
muscular damage.
    In conclusion, based on the recent experimental evidence 
and the similarities of the symptoms of the delayed 
neurotoxicity reported by workers in the organophosphate 
industry and also by Desert Storm veterans, I'm inclined to 
suggest that the Gulf war syndrome may be due to low-level 
exposure to sarin.
    Mr. Shays. Low-level exposure to what? Sarin. OK.
    Mr. Somani. Yes. By sarin. The symptoms are due to low-
level exposure to sarin. Pyridostigmine in combination with 
physical exercise can contribute to neurotoxic effects. 
Finally, the simultaneous exposure to insecticides and other 
chemicals under physical stress may have initiated the 
neurotoxicity.
    Mr. Shays. Your testimony--are you done?
    Mr. Somani. Thank you.
    [The prepared statement of Mr. Somani follows:] 
    [GRAPHIC] [TIFF OMITTED] T3668.236
    
    [GRAPHIC] [TIFF OMITTED] T3668.237
    
    [GRAPHIC] [TIFF OMITTED] T3668.238
    
    [GRAPHIC] [TIFF OMITTED] T3668.239
    
    [GRAPHIC] [TIFF OMITTED] T3668.240
    
    [GRAPHIC] [TIFF OMITTED] T3668.241
    
    [GRAPHIC] [TIFF OMITTED] T3668.242
    
    [GRAPHIC] [TIFF OMITTED] T3668.243
    
    [GRAPHIC] [TIFF OMITTED] T3668.244
    
    [GRAPHIC] [TIFF OMITTED] T3668.245
    
    [GRAPHIC] [TIFF OMITTED] T3668.246
    
    [GRAPHIC] [TIFF OMITTED] T3668.247
    
    Mr. Shays. Thank you. I didn't want to interrupt you. Your 
testimony is extraordinary. The bottom line to you both, Dr. 
Tiedt and Dr. Somani, is that we basically poisoned our troops. 
In essence, that's what you're saying. We poisoned our troops. 
We basically gave them a chemical agent, did not warn them of 
the potential harm of this agent; we ordered them to take it. 
And many did, obviously. And some were poisoned because of it. 
That's your testimony. And your point about stress was that 
that just magnified the problem. I noticed Dr. Somani and Dr. 
Tiedt, you were both nodding as the other spoke; as best I can 
understand, they seem to be very compatible. Dr. Tiedt, do you 
disagree with any point that was made by Dr. Somani? Do you 
want to qualify it any way?
    Mr. Tiedt. I guess I think the major thing to emphasize is 
that the data base is very, very, very extensive. My testimony 
has simply 115 of hundreds of references that are directly 
relevant to Gulf war syndrome.
    You know, if Gulf war syndrome was a positive event, we 
would be giving the Nobel Prize to the Department of Defense 
for the work that they published during the early 1980's. It 
was very clear.
    If it was a positive outcome, you know, like for example, I 
was very active in the role of aspirin in stroke and heart 
attack, that was a positive outcome, and those folks that did 
that work down at the University of Texas, et cetera, are 
hailed as, you know, very strong scientists now.
    The connection with Gulf war syndrome, with inhibitors of 
enzymes, nerve enzymes, acetylcholinesterase simply being the 
best studied, is much tighter. The evidence story is extremely 
tight. And the troubling thing is it all really came out of 
about a dozen of the DOD and DVA laboratories during the early 
1980's.
    Mr. Shays. What is troubling to me is that your testimony 
basically, from your standpoint, it doesn't take a rocket 
scientist to know what the problem is.
    Yet, Dr. Joseph's standpoint--and that there's no current 
accepted medical knowledge--is that chronic symptoms or 
physical manifestations are not later developed among persons 
exposed to low levels of chemical nerve agents.
    Mr. Tiedt. It's simply false. The Pentagon published, in 
1993, one of my co-authors from my 1970's work--actually, a 
chairman of the department where I did my post-doctoral 
fellowship at the University of Maryland--did an amazing study 
and spends a great deal of time in the introduction and 
discussion relating a chronic organophosphate-induced 
neurotoxicity, single or just a few exposures, that cause no 
acute symptoms but, years later--we all know that--I'm a pilot 
myself. I've been around cropdusters for 20 years.
    We all know that cropduster pilots develop some problems, 
and there's literature on that that goes back to the 1960's. 
It's really tight, the story between nerve enzyme inhibitors.
    Really, if you want to know it in a nutshell, what we have 
in our bodies, we have protective mechanisms called enzymes, 
and we have circulating pools of two enzymes, in particular.
    When you take a PB or get exposed to low levels under a 
repeated basis, or even a single basis, to sarin or malathion 
or DEET, et cetera, you start soaking up that capacity of 
protection, and then that makes the nerve endings--we're 
talking about a 100 million points of toxicity that our bodies, 
the cholinergic nerve endings. It is so tight.
    That is why the idea of chemical sensitivity comes into 
play. That is why some of these things can take a long time. It 
is well-known that an enzyme called NTE--neuropathy target 
esterase--takes a long time to age, and it can take years to 
display a neurotoxicity from an exposure to any chemical that 
inhibits that. Pesticides and organophosphates are well-known 
inhibitors.
    Mr. Shays. Would you disagree with testimony before this 
committee that we do not know how to properly diagnose or treat 
chemical exposure?
    Mr. Tiedt. I sure do, and I just ask everybody to look at 
the package insert for PB. Actually, look at any textbook of 
pharmacology and therapeutics, and just simply--if you're 
interested, I've already done it for you--just write down the 
list of side effects from PB, sarin, DFP--I'll give you a long 
list--and write down the symptoms of Gulf war syndrome. It is a 
fingerprint match.
    It does not take a rocket scientist. It only takes a 
biomedical scientist.
    Mr. Shays. You have a right to be frustrated.
    Dr. Somani, is that your response to the same question? 
Would you take issue with testimony before this committee, 
first, about the issue, if it wasn't acute, that you're not 
going to see it happen? If you don't see acute symptoms, then 
you don't have a problem?
    Mr. Somani. Yes.
    Mr. Shays. Second, that we don't know how to diagnose 
chemical exposure and, therefore, we don't know how to treat 
it, either?
    Mr. Somani. Yes. You don't see the acute symptoms with this 
low level. The continuous exposure, you have to wait 10 years, 
you can say, because the sarin or organophosphates, they 
alkylate or phosphorylate like the enzyme and they also bind to 
the NTE--neurotoxic esterase--enzyme.
    What happens within this delayed period, we still don't 
know.
    Mr. Shays. Do we know how to diagnose? I mean, can you 
diagnose a patient that has this low-level exposure?
    Mr. Somani. They cannot be, because there is a delay period 
they don't have the symptoms during that period, and all of a 
sudden, they get the symptoms, after some time.
    Mr. Shays. I need to be clear. I thought maybe you were 
disagreeing with earlier testimony. So, Dr. Tiedt, you would 
say it's also difficult to diagnose?
    Mr. Tiedt. Certain kinds of this toxicity go through an 
acute incident that may or may not be symptomatic, and then 
followed by a period of months or years of totally asymptomatic 
period, that is without symptoms, by definition, you can't see 
a symptom, and only to be exposed by itself, by a delayed 
neurotoxicity, or an exposure to another incident, like going 
back to your barracks and they're spraying the place with 
malathion.
    Mr. Shays. You were talking with your hands, and your voice 
was coming out. Dr. Somani was also talking with his hands, but 
he wasn't saying anything. You were his voice.
    Mr. Tiedt. Ventriloquism.
    Mr. Shays. I'm going to get you into this, but I want to 
call on Mr. Sanders. But do you have anything to comment on 
what we've asked so far? I'm going to get into some points you 
raised, but I did want to make sure. Is there any comment you 
want to make in regards to these questions?
    Mr. Tucker. I would not, not being a medical expert, I 
would not comment. It sounds plausible to me. The emphasis of 
my testimony is that there were multiple low-level chemical 
exposures which, in combination with other types of chemicals, 
could have led to a synergistic effect.
    Mr. Shays. You have total conviction that there was lots of 
different troops who were exposed to lots of different 
chemicals, something I also agree with, and then we have the 
evidence of what happened. Dr.--Mr. Sanders.
    Mr. Sanders. No, I'm not a doctor.
    Mr. Shays. I should have said, he looks like a scientist. 
He looks like a mad scientist. [Laughter.]
    Mr. Sanders. I take that as a compliment.
    This is a fascinating panel, and each of you are making a 
very important contribution. And, Dr. Tucker, be patient. We 
will get to you, because I think you have a whole lot to say. 
But let me get to the physical scientists, if I might, first.
    The chairman asked you, I think, an appropriate question, 
and let me go over it again and maybe ask you, Dr. Somani, Dr. 
Tiedt makes a statement, and I quote, from the paper that you 
gave us:
    ``DOD established by the early 1980's that, one, PB would 
be harmful in healthy individuals; two, PB was worthless, even 
counterproductive, as a protectant against chemical warfare; 
three, PB was more toxic than sublethal doses of chemical 
warfare agents; and, four, higher levels of baseline nerve 
activity produced more toxicity than lower levels of baseline 
nerve activities. There was no demonstrated benefit to balance 
the certain and substantial risk.''
    Dr. Somani, do you agree with that?
    Mr. Somani. That time, they didn't think that the risk was 
there, because this drug has been in use for myasthenia gravis 
for 50 years.
    Mr. Sanders. Right.
    Mr. Somani. I do not see any literature that this drug 
could act as a central acting drug, that it can get into the 
brain. Pyridostigmine is a positively charged drug, and it 
doesn't get into the brain.
    What they were thinking of when the pyridostigmine is 
given, it inhibits up to 20 to 30 percent blood enzyme as to 
cholinesterase enzyme, and that would protect against the 
sarin. But they didn't realize that the pyridostigmine, under 
stress conditions, can get into the brain. That information was 
not available.
    I also want to make a point here. I don't know. I wonder as 
to how come they didn't try to use another drug, physostigmine, 
which was a centrally acting drug, which I considered was a 
very good drug, and that will give us central protection, 
because that's what our goal is, to protect the brain.
    Mr. Sanders. All right. There is a lot to discuss. But 
basically, then, you are in agreement with what Dr. Tiedt said? 
You are basically in agreement with Dr. Tiedt's statement?
    Mr. Somani. Yes.
    Mr. Sanders. OK. If this was 1990, or just before the war, 
a month before the war, and the Pentagon came to you and said, 
``We're concerned about our soldiers being exposed to chemical 
agents, and we're thinking of using PB,'' now, Dr. Tiedt is 
saying, ``Hey, you would be crazy. That would be the worst 
thing in the world. You would be poisoning our soldiers.''
    What would you have said? Would you have said the same 
thing?
    Mr. Somani. No. I tell you, what are our choices? We need a 
drug. Right? And we have to use something there to protect our 
soldiers. So what are our alternatives? The pyridostigmine is a 
peripherally acting, and they felt this was the best under 
those conditions. They could have considered physostigmine, but 
they did not.
    Now, what they did not know at that time, that the 
pyridostigmine, under stress conditions, will cross the blood-
brain barrier and get into the brain.
    Mr. Sanders. If you're going to war, it doesn't take a 
genius to figure out, if I'm sending you to war and I'm giving 
you a drug which is going to have a negative impact under 
stress, war is stress. Right? Am I missing something here? War 
is stress.
    Mr. Somani. Yes.
    Mr. Sanders. So anybody who is going into war is going to 
be living under stress. Right?
    Mr. Somani. Yes. But they should have studied that before, 
but that work was not done in 1990.
    Mr. Sanders. This is what I'm confused about.
    Mr. Somani. Yes.
    Mr. Sanders. What I'm confused about is, Dr. Tiedt--and 
I'll give it to you now--you're telling us that the literature 
was pretty clear on this, are you not?
    Mr. Tiedt.  Yes. There is extensive literature, and it 
really begins, unfortunately, with my research, published in 
the Journal of Pharmacology and Experimental Therapeutics, in 
1978. Again, keep in mind where it came from. It came from the 
primary laboratory of acetylcholinesterase inhibitor toxicity 
in the world.
    We concluded, in our 1978 paper, that treatment of 
myasthenia gravis, the actual drugs used to treat these 
patients, contributes somewhat to the pathophysiology of the 
disease. If you compare the electronic microscope pictures 
between myasthenia and PB, you'll see such similarities.
    That was then extended in much more depth by the Pentagon, 
and many studies, several studies published in the early 
1980's, that PB, all by itself, is extremely toxic in healthy--
--
    Mr. Sanders. OK, but here's my question. My question is a 
simple question. Why didn't they read their own research? What 
you're suggesting is, they themselves demonstrated the 
potential danger of this drug. They, themselves, did that, and 
you're suggesting to us that they ignored their own research. 
Is that what you're saying?
    Mr. Tiedt. I think that's a generous way of putting it, 
yes.
    Mr. Sanders. Let me ask you this question.
    Mr. Tiedt. See, if you read their--you have to realize, the 
publication--this is a very critical point about scientific 
research. A publication is not published in some sort of 
abstract thing--we had nothing to do this weekend, so we wrote 
a paper.
    We first have to apply for a grant. These grants were 
applied for, to the DOD, for funding. In any grant application, 
you outline, review the relevance, the meaning, the impact, the 
ramifications of your research. I assure you that the effect of 
PB as a nerve chemical warfare agent was completely spelled out 
in these research grants prior to the work even being 
initiated.
    Then the work is done. Then the work is eventually 
published. I just ask anyone to read any of the papers in my 
references, and look at the introduction and the discussion, 
and you will see conclusions by the DOD scientists that PB was 
very toxic.
    Mr. Sanders. Let me ask you this. You are a trained 
pharmacologist; is that your area?
    Mr. Tiedt. I received my Ph.D., in pharmacology and 
therapeutics.
    Mr. Sanders. If we had a dozen pharmacologists up here, 
well-trained, would they agree with you?
    Mr. Tiedt. If they're aware of the same literature. If we 
all started on the same page, simply lay out the same 
literature, yes, we would come with agreement.
    Mr. Sanders. You're not giving us some--not to say that we 
don't respect all points of view. But you're giving us a 
mainstream opinion, do you think?
    Mr. Tiedt. I'm describing what the literature says, and 
anyone that looks at the literature, be it yourselves as 
nonscientists or scientists would come to the same conclusion. 
Anybody that reads the book chapters written by the DOD 
laboratories that did this work, it's obvious. There's really 
no debate here.
    One has to be aware of the literature. I am very sensitive 
to the idea that PB is used in myasthenia gravis. I want to say 
right up front that PB should be used in myasthenia gravis, as 
well as other similar drugs. But that's not to say that, in 
healthy individuals, it does not have toxicity.
    Mr. Sanders. Dr. Somani, did you want to jump in, in this 
discussion?
    Mr. Somani. Yes. We have used for myasthenia gravis this 
drug. We gave about 1,080 milligrams of this drug per day to a 
patient, and we didn't see any adverse effect of this drug in 
the patient. So the question is, in normal people, maybe it 
will affect more than the myasthenic patients.
    Now, the question which you are raising really is the use 
of the pyridostigmine as a pretreatment drug. If I understand, 
the British, they claim they want to use pyridostigmine, and 
then we followed them the same way, because the British are 
using, so we also use this. That's my understanding. Because 
the question was, to use between pyridostigmine and 
physostigmine.
    But the British were using because this drug is a tested 
drug for the last 50 years, not knowing the effect of the 
exercise, physical stress, and what happens to the crossing of 
the blood-brain barrier. That information, I don't think, was 
available in 1990. It came out later on, last two----
    Mr. Shays. Is physostigmine an approved drug? Would they 
have been able to get the same waiver from the FDA?
    Mr. Somani. Physostigmine is an approved drug not for as a 
pretreatment drug against organophosphate.
    Mr. Shays. What is it for?
    Mr. Somani. It is for the eye treatment for some eye 
diseases. See, every drug has to be used for particular 
symptoms.
    Mr. Shays. Would it have been the same process? Would the 
FDA, they would have gone through the same----
    Mr. Tiedt. I know why they used PB. The reason they used PB 
is, in 1984, they submitted an IND. In the United States, you 
can only market a drug or use a drug for an indication approved 
by FDA. If you want to use a drug for an indication beyond an 
FDA approved labeling, you must get an IND.
    The DOD had an IND filed in 1984 for PB. They never filed 
one, to my knowledge, on any other drug.
    Now, scientifically--let's take the regulatory thing out of 
it--scientifically, they could have used physostigmine and, in 
fact, the evidence for physostigmine being a protective agent 
is far superior. Physostigmine is a superior protective agent.
    First of all, we must realize, PB is not protective, it's 
actually harmful. Physostigmine is protective, for two primary 
reasons. One, it has better access to the brain. Two, it has a 
self-limiting toxicity, because it desensitizes the 
acetylcholine receptors, and so it kind of self limits its own 
toxicity. Those are two big hits why physostigmine would have 
been a much better use.
    Both of these, any of these drugs, actually, the only 
literature that shows any of these drugs really work are in 
combination with atropine and 2-PAM. So we really needed a 
cocktail like that, not the way it was used.
    Mr. Shays. What we're going to do, if you don't mind--do 
you have any time restraint, or would you be willing to let us 
vote and come back?
    Mr. Sanders. Let me ask Dr. Tiedt this question. What 
you're saying is fairly mindblowing, frankly.
    Mr. Tiedt. Yes, it is. That's why, when I first heard this 
whole issue--I was watching the Rockefeller hearings on May 6--
I could not believe, watching the folks raise their right hand 
and say--and it really astonished me, and I walked about 20 
miles for 2 days, when they said PB has no known toxicity. Read 
the package insert, if you don't want to read the scientific 
literature.
    It's really disturbing, when a scientific study is 
published, it's no good anymore. You know, what's going on 
today is, we're spending over $100 million more for scientific 
studies to answer all the questions that were answered 15 years 
ago.
    Mr. Sanders. Mr. Chairman, correct me if I'm wrong, but you 
know as much about this as anybody. We have not heard a whole 
lot about this, have we?
    Mr. Shays. Not a lot.
    Mr. Sanders. No, we have not heard a whole lot about this. 
And this can be a very important factor and, I think, this 
whole discussion. I'm hearing that you are in agreement with 
the studies that Haley and others have done which talk about 
the synergistic effect and the increased impact of stress and 
exercise and all of this.
    We'll be back. We're going to vote and we're going to come 
back, because this is important.
    Do you have confidence, Dr. Tiedt, given what you have said 
today--two questions--that the DOD will do the right thing in 
terms of coming up with some of the conclusions to what you 
have indicated?
    Mr. Tiedt. As a scientist, I have to go by the evidence, 
and the evidence, the answer is absolutely not.
    Mr. Sanders. Tell us a little about your surprise that 
information like this did not make it to the Presidential 
Advisory Commission.
    Mr. Tiedt. I'm very surprised. I was called by the White 
House in April 1995, asking if I would be interested in being a 
member--not a member of the staff, but actually a member--of 
the Advisory Panel. Presumably because I'm a mere adjunct 
professor at a local community college these days, you know, 
it's not right up there in the fast lane.
    So I didn't hear again, in any serious way, until January 
1996. But I can tell you, in April 1995, I submitted extensive 
documentation, along with my CV and my interest in 
participating.
    On January 16, I got an emergency phone call from the White 
House, asking me what else I knew about PB toxicity. I asked 
that person who called me, I said, ``Did you ever do a 
literature search?''
    Simply go to any library--we happen to be in a city that 
has the best libraries. Go to those libraries and just type in 
the word ``pyridostigmine'' and watch the couple hundred 
references that come out, and then go read those references, 
and find out who did all those studies, or most of those 
studies.
    It is shocking. It is shocking. I submitted that four-page 
bibliography on January 17, 1996. I was asked to send it to 
Philip Landrigan, the same day. I did. On October 4, the 
Presidential Advisory Panel called me, told me they didn't even 
know who Philip Landrigan was. They told me they never received 
my four-page bibliography. So I sent it again.
    I went to the Advisory Panel meeting in Tampa, asking to 
testify. I was refused testimony. They said they still did not 
know of any of my research.
    By some strange coincidence, I was permitted to testify on 
November 13. Once again, I submitted all of that--all of that--
--
    Mr. Sanders. Your testimony was similar to what you have 
stated today?
    Mr. Tiedt. Yes. I submitted, you know, my bibliographies 
again. None of my articles in the bibliographies--not my 
articles, the DOD studies--there's no DOD study in the 
Presidential Advisory Panel from the published peer review 
literature.
    I got an interesting letter 1 month ago from the 
Presidential Advisory Panel. I asked about input from another 
scientist to this panel. They sent me back a two-page 
bibliography of the DOD studies that this person was a coauthor 
of--coauthor of my studies, by the way, and my name is in those 
papers--23 published studies and two private contract studies 
with the U.S. Army, all done in the 1980's. None of those 
studies appear in the Presidential Panel Report.
    They have actually eliminated any studies that document 
Gulf war syndrome. If you read Dr. Haley's fine print in his 
JAMA article, he says he presented this information to the 
Presidential Advisory Panel.
    If you go to the Presidential Advisory Panel, No. 1, not 
only do you not see any references of Dr. Haley; No. 2, he 
doesn't even appear on the page-and-a-half of names of people 
who supplied input. I think it's serious. It's very, very 
serious.
    Mr. Shays. It is serious. And we're going to go vote in 1 
second. But, Dr. Tucker--this is a good segue, in one sense--
knowing of the commission, describe why that event may have 
happened, these events. Maybe you can't see a relationship.
    I mean, as he was talking, he was saying, ``I'm not 
surprised.'' Were you?
    Mr. Tucker. Well, I can only discuss my personal experience 
on the committee staff, which I would be happy to do, and 
perhaps you could extrapolate from my experience some more 
general conclusions. But I was only on the committee staff for 
4 months.
    Mr. Shays. OK. What we'll do is, we'll come back and we'll 
do that.
    Mr. Tucker. OK.
    Mr. Shays. You both don't mind waiting?
    Mr. Tucker. No.
    Mr. Shays. We have one vote. I don't think we have another. 
It will probably be about 15 to 20 minutes. The committee 
stands at recess.
    [Recess.]
    Mr. Shays. I call this hearing to order. I don't think 
we're going to be going too much longer, but I did want to tie 
up some loose ends.
    Dr. Tucker, I would be interested to know--you were working 
on the Presidential Advisory Committee--why you think you left, 
so we can put that on the record.
    Mr. Tucker. I would be happy to. From August to December 
1995, I served on the staff of the Presidential Advisory 
Committee as the senior policy analyst responsible for 
investigating chemical and biological weapons exposures.
    During my tenure, I received briefings from CIA, the 
Defense Intelligence Agency, the Army Chemical School, and the 
Army Chemical and Biological Defense Command. In each case, I 
heard categorical denials that Iraqi chemical weapons were 
present in the war zone, that United States troops were exposed 
to fallout from bombed chemical weapons bunkers, or that Iraq 
used chemical weapons.
    I was puzzled by the fact that the United States 
Government's position on all these issues was at odds with the 
eyewitness testimony of Gulf war veterans, as well as 
detections by Czech chemical defense units in northern Saudi 
Arabia of low levels of chemical weapons, which the Pentagon 
acknowledged were valid. So there seemed to be a disconnect.
    To address these discrepancies, I decided to investigate a 
wide range of views, both within and outside Government, 
including the leaders of Gulf war veteran advocacy groups and 
Pat and Robin Eddington, the CIA analysts, who differed 
strongly with the position of their agency that chemical 
weapons had not been used in the Gulf war.
    I believed that only by obtaining information from the full 
range of informed sources could the committee come to a 
reasoned judgment about the incidence of exposures. I also 
believed that we had the moral and professional responsibility 
to obtain all such relevant information and that it was 
unethical, as well as unscientific, to ignore it.
    Shortly after I began this effort, however, certain 
committee senior staff ordered me verbally and by e-mail not to 
seek documents or unofficial briefings from so-called 
``unofficial'' sources.
    I became concerned that the Presidential Advisory 
Committee's dependence on the people and institutions it was 
investigating was creating problems for my investigation. The 
committee lacked subpoena power and relied for information on 
the voluntary cooperation of the Pentagon, the CIA, and the VA, 
whose activities it was supposed to oversee.
    Mr. Shays. Excuse me. Just to clarify, the Presidential 
Advisory Committee does not have the ability to subpoena?
    Mr. Tucker. That's correct. I feared that certain committee 
senior staff wished to avoid alienating agency officials by 
being complicit in the suppression of dissenting views. I 
personally refused to accept these constraints on my 
investigation, believing they would prevent me from fulfilling 
the President's mandate to leave no stone unturned in exploring 
possible causes of Gulf war illness, and would violate our 
ethical, scientific, and legal responsibilities.
    On December 1, 1995, without prior warning, I was dismissed 
from the committee staff and given 1 hour to clean out my desk 
and leave the building. Before that time, I had never received 
a negative performance review. Despite repeated requests, I was 
never given grounds for my termination.
    In response to press inquiries, the Advisory Committee 
spokesman has stated repeatedly and falsely that I resigned 
voluntarily. I received, in fact, a formal termination memo, a 
copy of which is appended to my written testimony.
    The credibility of a committee like the Presidential 
Advisory Committee on large matters, such as whether Gulf war 
illness was caused or linked to chemical exposures, suffers 
when its spokesman lies about small matters, such as my 
termination.
    Thank you.
    Mr. Shays. Thank you. My understanding is that the 
gentleman who replaced you--what is his name?
    Mr. Tucker. James Turner. I do not know him personally.
    Mr. Shays. But my understanding is that he is--the 
implication was that you were reaching out beyond--you suspect 
you were terminated because?
    Mr. Tucker. I am speculating about the possible reason for 
my termination. Despite repeated requests, I was not given 
grounds for my termination.
    Mr. Shays. You're allowed to speculate, if you haven't been 
given grounds. So what is your speculation?
    Mr. Tucker. As I said, I believe that the reason was that I 
was pursuing my investigation too aggressively, and that senior 
Committee staff--and perhaps members of the panel itself, I 
just don't know--were concerned that this would jeopardize the 
Committee's access to information voluntarily provided by the 
agencies we were investigating.
    Mr. Shays. Your point is that the Committee itself, it 
needs the cooperation of the very people it's investigating?
    Mr. Tucker. That is correct.
    Mr. Shays. Without that cooperation, the willingness to 
provide information, they don't get the information?
    Mr. Tucker. That's correct, they don't have subpoena power.
    Mr. Shays. Dr. Tiedt, I would like to be clear as to what 
hearing you were watching when you found yourself ethically 
upset with the fact that people were testifying in a way that 
you wondered how they could--that's a long question.
    The bottom line is, you felt people at what hearing were 
testifying and testifying falsely?
    Mr. Tiedt. I believe it was--I know it was May 6, and I 
believe it was a Senate Veterans' Affairs Committee hearing 
by----
    Mr. Shays. What year?
    Mr. Tiedt. 1994.
    Mr. Shays. 1994. OK. We're going back a ways. 1994, you 
recall a hearing where people testified about PB?
    Mr. Tiedt. That's right.
    Mr. Shays. And said it was not toxic?
    Mr. Tiedt. There was no known toxic effects from PB.
    Mr. Shays. OK. What I would like to do--and then, Bernie, 
we'll come back to your line, as well, of questioning--I need 
to clarify the fine points of difference. I thought, when you 
were testifying, Dr. Tiedt, that you were agreeing with Dr. 
Somani. And then later, I'm seeing some differences, and they 
may be subtle differences, although they may be significant. I 
need to know that.
    The testimony I think I'm hearing from you, Dr. Tiedt, is 
that basically our troops were given what, in essence, is a 
drug, an experimental drug that caused more harm than good. In 
fact, not more harm than good--it caused harm, period. That's 
your testimony. And the imagery I have is that we were 
basically poisoning our troops.
    Mr. Tiedt. That's correct.
    Mr. Shays. And you feel pretty comfortable with that 
statement. I got the sense, Dr. Somani, that you were nodding 
your head, but you wanted to qualify that. Do you disagree with 
that, or agree with it with qualifications?
    Mr. Somani. I need to give a little explanation.
    Mr. Shays. OK.
    Mr. Somani. If you are giving pyridostigmine, it will cause 
the acute effects right away. We know those effects are 
diarrhea, hypersalivation, nausea, abdominal pain, muscle 
weakness, fatigue, blurred vision, all of those, urinary 
problems--we know those.
    But my question comes, then, they are taking the drug now; 
2 years, 3 years, 4 or 5 years, will those--those effects are 
still causing some problems?
    Mr. Shays. Yes.
    Mr. Somani. I don't think so. That's all my point is. The 
effects of the Gulf war syndrome, everything, it's because of 
the organophosphates. Because we know that caused the delayed 
neurotoxicity, but I don't know whether pyridostigmine causes 
the delayed neurotoxicity.
    And another thing. There are some troops, like 
Czechoslovakian troops, they didn't take pyridostigmine, still 
they have the same symptoms. How and why?
    Mr. Shays. What is your response to that, Dr. Tiedt?
    Mr. Tiedt. What, about the Czech Republic troops?
    Mr. Shays. Just his response. How do you react to what Dr. 
Somani said?
    Mr. Tiedt. I can only report what the studies have found. 
The studies have found that a few exposures to cholinesterase 
inhibitors--like PB, like physostigmine, like neostigmine, et 
cetera--cause ultrastructural and electrophysical effects that 
last months. I don't have any evidence that anything lasts 
years, in terms of a controlled scientific study. However, if 
you look at the effects that are lasting months, and the 
exquisite physiology that's at play here, it's not hard to 
predict.
    I do agree with one thing that Dr. Somani is saying, and 
that is that organophosphate co-exposures can be very, very 
important.
    The thing to emphasize here is that PB can shift. Let's say 
you've given a dose of PB, and then subsequently given a dose 
of sarin. You will be blocking the binding sites for sarin, and 
shift those to the central nervous system in a preferential 
fashion.
    That is all very well explained and described by Dr. 
Haley's reports.
    Mr. Sanders. If you were listening to my line of 
questioning to Dr. Rostker, what I was concerned about is that 
conventional medicine is not looking at the synergistic 
approach that might, in fact, be affecting many of our troops. 
Let me ask you this question, and that's for either Dr. Somani 
or Dr. Tiedt.
    That is, is there a standard diagnostic code for delayed 
neurotoxicity, or delayed neuropathy? Is the diagnosis accepted 
and recognized widely in clinical practice?
    Mr. Tiedt. I believe the OPIDP essentially is. Now, when 
you say ``in clinical practice,'' we are a large country with a 
couple hundred thousand physicians. Many physicians probably 
are not tuned in to the scientific literature, and I have no 
doubt that those physicians have no idea about all of this.
    Mr. Sanders. But, for example, are you familiar with the 
diagnosis of multiple chemical sensitivity?
    Mr. Tiedt. Somewhat.
    Mr. Sanders. I mean, that is a diagnosis among which, to 
the best of my knowledge, the AMA does not agree. Some 
physicians believe it very strongly, some do not. The concern 
that I had with the DOD is, we're going to keep going around in 
circles, because many of their doctors just may not believe 
this. Is that a reasonable ground for concern?
    Mr. Tiedt. Yes, it is.
    Mr. Sanders. Do you believe it?
    Mr. Shays. Do you believe in multiple chemical sensitivity 
as a concept, and would you describe, how it fits into 
mainstream science?
    Mr. Tiedt. You know, I think Representative Sanders 
outlined basically the pathophysiology of MCS so eloquently, 
and how can anyone not buy into that? That's exactly what is at 
play here. You are sensitizing to future events.
    We know that, in the real world, we know that, from an EPA 
point of view.
    Mr. Shays. The workplace.
    Mr. Tiedt. Workplace, and home place. Look what is 
happening in Mississippi.
    Right now, as we speak, a couple of folks in a pesticide 
company used excessive pesticide levels in motels, in homes, 
and they have all been condemned and closed down, and they're 
about ready, if it hasn't been done already, to be bulldozed 
over, simply like another Love Canal. Dioxin. Isn't that Love 
Canal? Isn't that an inhibitor of these same enzymes?
    We know that. We know there's chemical sensitivity in life. 
But just because I say that sentence, it's also true that our 
standards of medical practice and scientific research, in every 
single borough and country and city in this country is not the 
same.
    That is a problem, getting the word out. Unfortunately, you 
know, it must be said. I know it makes it a long sentence. But 
it must be said that we live in a world that we're barraged 
with information.
    We have a real technology problem of what information is 
the highest priority stuff to know. It's a problem.
    Mr. Sanders. Dr. Somani, did you want to comment?
    Mr. Somani. Yes. I do believe in multiple chemical 
sensitivity, because it does cause the effect, and the effect 
prolongs for a longer time.
    Mr. Sanders. Do you believe that Persian Gulf syndrome is 
connected to multiple chemical sensitivity?
    Mr. Somani. Yes, definitely. It has exaggerated more. A 
single component caused it, but, in the presence of others, it 
has amplified or potentiated the effects.
    Mr. Sanders. What we heard from Maj. Donnelly earlier today 
would be a classic situation?
    Mr. Somani. Yes. But primarily, that is due to 
organophosphates, insecticides, and those.
    Mr. Sanders. Was I wrong in suggesting that, if we have 
hundreds of thousands of young men and women walking around 
perhaps with a lot of stuff, nasty stuff, in their bodies, that 
they might be more sensitive when somebody sprays their home 
for cockroaches, and that could trigger off a problem with 
them? Is that a legitimate concern?
    Dr. Somani, why don't you start?
    Mr. Somani. That is a concern. But we also have a good 
enzymatic system in the body to get rid of that. Otherwise, we 
will be really----
    Mr. Shays. Doctor, I'm sorry. I couldn't understand your 
words. Just say it a little more slowly, because I value what 
you're saying here.
    Mr. Somani. OK. See, our body is capable of getting rid of 
those compounds. Even though we are exposed every day--you and 
me are eating about 1.5 milligrams of insecticides, OK, which 
are sprayed; through a lifespan of time, they can accumulate in 
the body--but we have a good enzymatic system in the body, 
which can detoxify these compounds.
    Mr. Sanders. But you would agree that, for some people, it 
may be better than for other people?
    Mr. Somani. Yes. Yes. That is the genetic effects, OK? That 
is where the environmental factor plays the role. But they can 
be more sensitized. Some people are more sensitive, some people 
are less sensitive.
    Mr. Sanders. Right.
    Mr. Somani. In a situation like Gulf war syndrome, that is 
not the one factor; it is a combination of the factors.
    Mr. Sanders. Is it fair to say that, understanding people 
are different in genetic composition----
    Mr. Somani. Yes.
    Mr. Sanders [continuing]. But that we would have reason to 
believe that, for the men and women who were over there, they 
have come back and are in a condition that we might say 
somebody who worked in a pesticide company or somebody who was 
spraying, that they have been exposed; is that a fair 
statement?
    Mr. Somani. If they are exposed, they will be more 
sensitive.
    Mr. Sanders. Yes, that's my only point.
    Mr. Somani. Yes.
    Mr. Tiedt. And that's what you mean by MCS, isn't it?
    Mr. Sanders. Yes, that is what I mean.
    I'm interested, Dr. Tiedt, again, I was disappointed, to be 
frank with you, in the Presidential Advisory Commission. Some 
of hoped for a little bit more. The emphasis on stress, I 
thought, was unfortunate.
    Do you want to elaborate a little bit on why you think that 
more evidence concerning the chemical factors was not included 
in that report? That's what you've said. Anything more that you 
want to add to that?
    Mr. Tiedt. Certainly, let me just restate it, so at least I 
can start with something solid there. That's how you left your 
question.
    The fact exists that hundreds of relevant studies--directly 
relevant, not by some stretch of an imagination--done prior to 
the Gulf war, were not included in the Presidential Panel Final 
Report, ``final,'' because some of us prevailed a little bit, 
and they were asked to go back to work for a little bit, so 
we'll get a Final No. 2.
    That's a fact; and they knew it. It's not like, well, they 
didn't go to the literature and do it. They certainly had it 
from me and many others, it turns out, submitted to them on 
many, many occasions, and it's simply not there.
    The issue is the motivation. Why would they not include it?
    Mr. Sanders. Let me take that one. I'll ask that to you and 
to Dr. Tucker. Do you think that there was a built-in bias of 
wanting to conclude that it was more stress-related than 
chemical-related?
    Mr. Tiedt. Yes, I do. Yes I do. The reason is that I think 
that has been a catch-all, and don't we all know that it's been 
a catch-all, for years. Quite frankly, Dr. Joseph, he blamed 
Gulf war syndrome--he has had three different explanations.
    His first explanation was on psychosomatic freeloaders. His 
second explanation was on stress. That changed last December 
when Dr. Friedman's study came out. Of course, anybody would 
have known that stress was a major factor, if you just read the 
literature from the 1960's and 1970's.
    Then, finally, about 3 weeks ago, when he announced his 
resignation, and traveling around the world in a boat called 
the Moonraker, he said, no, now he blames Gulf war syndrome on 
society. It's something with the fabric of our consciousness, 
that we are just susceptible to hearing, you know, that the 
Government is to blame for things.
    That's basically his three answers to Gulf war syndrome. So 
I basically have to disagree, because the evidence prior to the 
Gulf war shows that it was at least predictable.
    Mr. Sanders. And, Dr. Tucker, you were interested from 
another point of view in pursuing the possible chemical 
exposures. You got fired? I mean, do you think that there was a 
built-in bias there, that they didn't want to look at this 
stuff?
    Mr. Tucker. All I can say is that information within the 
Presidential Advisory Committee staff was extremely tightly 
held. The senior staff controlled the flow of information not 
only to the outside world and to the panel, but to the members 
of the staff itself who were working on this issue. So we were 
working under very tight constraints.
    The reasons for those constraints, as I speculated earlier, 
may have been related to concern about access to information 
from the agencies that were supposed to supply it to the 
committee.
    Mr. Sanders. That you might have, by going outside it, 
upset some of the people in the DOD or the VA?
    Mr. Tucker. Right, particularly dealing directly with 
whistleblowers or dissenters within those agencies.
    Mr. Sanders. OK. Your bottom line is that you believe that 
there has been more chemical exposure than we have been led to 
believe?
    Mr. Tucker. That's correct.
    Mr. Sanders. A lot of what you say makes sense in terms of 
Iraq having a history of using these weapons, the unlikeliness 
of them in the midst of a terrible defeat, after they had 
brought these weapons to the theater, then taking them away, 
right?
    Mr. Tucker. Right. Well, the CIA has testified, in 
particular, Dr. Gordon Oehler from the Non-Proliferation Center 
testified before Congress that CIA had assessed that Iraq had 
deployed chemical munitions into the Kuwait Theater of 
Operations in the summer and fall 1990, before the beginning of 
the air war, and then had withdrawn them shortly before the war 
began on January 16, 1991.
    But the CIA did not provide any information to substantiate 
the theory that the weapons had been withdrawn. There is 
considerable evidence on GulfLINK and in documents released 
under the Freedom of Information Act, many produced by the 
Defense Intelligence Agency, as well as CIA, that refer to the 
presence of chemical munitions in the Kuwait Theater of 
Operations, right up to the beginning of hostilities.
    Mr. Sanders. You believe, as I understand it, that one of 
the possible areas of exposure was when these bunkers were 
blown up, that it was not just Khamisiyah, but other bunkers, 
as well?
    Mr. Tucker. Right. I believe that Khamisiyah was one of 
many incidents in which bunkers were explosively demolished, 
releasing low levels of chemical agent.
    Mr. Sanders. And your judgment about whether or not the 
Iraqis, from an offensive point of view, used chemical or 
biological weapons?
    Mr. Tucker. Those are based on reports of detections, for 
example, during the breaching operations by the Marine Corps, 
during the invasion of Kuwait. There were detections with FOX 
reconnaissance vehicles, which have a very reliable detection 
system called a gas chromatograph mass spectrometer.
    There were multiple detections with the so-called M256 kit, 
which is a highly reliable way of confirming initial chemical 
alarms. There was also a device called a RASCAL, which can 
detect clouds of chemical agent at a distance.
    All of these systems detected a number of different 
chemical agents during the ground war, including lewisite and 
mustard, which are blister agents, and sarin, which is a nerve 
agent.
    Mr. Sanders. So your conclusion, as I recall from your 
testimony, is that there was not a massive attack?
    Mr. Tucker. Clearly, people were not falling like flies, 
which one would expect from a massive use of chemical agent. 
But, for example, there may have been chemical mines. There may 
have been occasional use of artillery shells.
    I believe what happened is that there was some delegation 
of authority from Iraqi senior command levels to front-line 
units to actually use these weapons, and that there was some 
uncoordinated use. But because of the speed of the war and the 
fact that the weather conditions were adverse, there was no 
coordinated use, no effective use of chemical weapons.
    Mr. Sanders. Am I hearing you correctly? Obviously, one has 
to know what is true and what is not true, and we can speculate 
all we want. But, in terms of speculation, they have a history 
of using it. They used it right after the war. You're 
suggesting that the stuff was there?
    Mr. Tucker. Yes.
    Mr. Sanders. And you're suggesting that maybe permission 
was given to some of their front-line people to use it, and 
you're arguing, given all of that, it shouldn't shock you that 
some of that was used?
    Mr. Tucker. Because, for example, there are communications 
intercepts, where we intercepted Iraqi military communications, 
and there were indicators that they had issued an order, that 
senior command levels had issued an order to front-line troops 
to use the weapons if needed against Coalition forces.
    Mr. Sanders. Do you also suggest that, in terms of the 
burning oil wells, that that might have been an area where 
some----
    Mr. Tucker. Well, there's one document that is suggestive 
of the possibility. When a number of Iraqi units were ordered 
to sabotage the Kuwaiti oil wells, they were also ordered to--I 
forget the exact term, but there was a reference to ``chemical 
preparations.'' The troops themselves were ordered to wear 
chemical protective gear and to set up decontaminationsites. So 
that is suggestive.
    I'm not saying this is conclusive evidence by any means, 
but it is suggestive of the possibility that some of the oil 
well fires were deliberately contaminated with chemical 
weapons.
    Mr. Sanders. I mean, the bottom line of what you're saying 
is, given all of these factors, you would be surprised if our 
troops were not exposed to more than Khamisiyah?
    Mr. Tucker. Right. I think the CIA and the Pentagon have 
made an effort to fence in the problem by focusing on 
Khamisiyah, while ignoring a number of other incidents of this 
type.
    Mr. Sanders. Are you confident, when Dr. Rostker tells that 
they are now exploring a whole lot of other areas? Do you think 
we may see something?
    Mr. Tucker. I was encouraged to hear that they have an open 
mind that there may have been other incidents of this type. 
When I was on the committee staff, they were completely 
categorical that there had been no exposures. So there has been 
a kind of paradigm shift since Khamisiyah and now they are more 
open to the possibility.
    Mr. Sanders. Mr. Chairman, thank you very much.
    Mr. Shays. We're ready to close up here. I just need to 
have a sense of direct dose versus low level.
    First, I'm just going to say to you that one of the things 
that has troubled me throughout our hearings, and this is the 
eighth hearing we've had, as a State legislator, I got involved 
in environmental issues and safety in the workplace and, for 
me, it was like lesson No. 1, certain chemicals in the 
workplace cause harm, illness, and potential death.
    It seems to me like the Army hasn't learned that lesson 
yet. It does surprise me that people that have your views 
somehow aren't at the VA and aren't at the DOD. I would like to 
understand, just appreciate that a little bit more. Is the kind 
of science that you're in, and your expertise, not the kind of 
science that doctors get into in terms of financial 
remuneration?
    What got you into this field, and why aren't there more 
people in your field? Why am I not seeing more people of your 
expertise in the VA? When we had one member from the VA 
testify, they really couldn't think of people that had your 
expertise, except for one or two, really a handful.
    Mr. Tiedt. I'd rather not even speculate on that. Let me 
give you the realities. Simply consult my reference list, look 
at all the authors, and look at their affiliations. The DOD and 
the DVA have lots of scientists that know lots about low-level 
nerve gas, organo-phosphate exposures, and the toxicities of PB 
and like chemicals.
    Matter of fact, that's where most of the funding and the 
research comes from--the DOD-funded laboratories.
    Mr. Shays. I thought you were a little unfair to Dr. 
Joseph, because I'm not sure that he would have publicly 
stated--it may have been your sense of his three levels of what 
he--the growth of his sense of what Gulf war syndrome was.
    Therefore, because I thought you were a little unfair, I 
was trying to find the exact quote that I recalled. The sense I 
had from it was that there have been very few low-level studies 
of exposure to chemicals, that basically, his view, high-level 
exposure, acute illness, we know we have a problem; low-level, 
we don't really have any proof that this is a health care 
problem.
    Yet you seem to be implying that there are a number of 
studies that may, in fact, even be low-level studies. There 
certainly are, in the private sector, in the workplace.
    Are you aware that there are DOD studies that can verify 
and could have alerted the DOD to the seriousness of low-level 
exposure to chemicals?
    Mr. Tiedt. Yes, I am. I mean, for example, one of the best 
DOD studies out, I think it was published in 1985, the lead 
author is Meshul--M-e-s-h-u-l.
    He finds that he was able to give a dose of sarin, that it 
caused no acute toxicity, none. But then he goes in and pulls 
the muscles out, and he finds all kinds of, you know, 
neuromuscular junction problems, and it's going to be long-
lasting neuromuscular junction problems.
    That's not even tapping into the NTE, the other enzyme, 
which is more of a long-term, you know, delayed neuropathy sort 
of thing.
    Certainly, there is evidence out there, and before and 
after the Gulf war. It's not bleak. It is simply not bleak. I 
just ask folks to really look at the reference list. It's not 
my interpretation. It's really the DOD determinations.
    Keep in mind some of the procedures about things. I'm not 
sure if anybody has published a study. When you publish a study 
and it's paid for by somebody, quite often you have to get 
endorsement. For example, that just recently came out on 
generic Synthroid. They had to get an endorsement.
    Being a pharmaceutical executive in clinical research, I am 
aware of the confidentiality agreements that I've asked a 
variety of investigators to sign.
    I believe it's a certainty that any study that is going to 
be postured in the scientific literature as a DOD-funded study, 
done by DOD employees, particularly at the Aberdeen Chemical 
Warfare R&D facility, is going to be approved up the chain of 
command and finally get an endorsement to get out into the 
published literature.
    Now, these studies are not done by low-level scientists 
running amok up in Aberdeen.
    Mr. Shays. Well, your testimony raises whole levels of new 
inquiry for us. I had accepted as reality that, as foolish as 
it seemed to me to be, the DOD wasn't into doing much work in 
low-level exposure and, as a result, I was critical of them, 
because I couldn't justify it in my own mind.
    You're saying--and we're going to go back and examine the 
record--you're saying that's not so. You've also basically 
testified that people under oath in 1994, in your judgment, 
were really contradicting a scientific fact.
    Mr. Tiedt. DOD and the FDA said, May 6--I didn't bring the 
testimony with me.
    Mr. Shays. It's right here.
    Mr. Tiedt. 1994.
    Mr. Shays. Right.
    Mr. Tiedt. That was the context. And, you know, actually, 
said, you know, ``We agreed to keep medical records; we agreed 
to give folks PB brochures outlining the side effects and the 
things to be cautious of. We agreed to do that.'' Well, they 
didn't do it.
    Mr. Shays. We are going to be having a hearing on May 8, 
1997, whose topic is going to be bioethics and informed 
consent, so we're going to be getting into that whole issue.
    Your testimony has been really quite excellent. It has been 
a very interesting day.
    Dr. Tucker, we didn't get as much into your area, but we 
have in the past. Is there anything that you would want to 
close with?
    Mr. Tucker. OK. I would like to make a remark relevant to 
the topic we were just discussing.
    Historically, U.S. chemical defense doctrine has----
    Mr. Shays. Let me interrupt you and say that I also 
understand you have some recommendations to make?
    Mr. Tucker. Yes, that's right.
    Mr. Shays. OK. Why don't you do that, as well?
    Mr. Tucker. OK. Thank you.
    Historically, U.S. chemical defense doctrine has discounted 
the possibility of harm from doses of chemical warfare agents 
that are too low to produce immediate acute effects.
    Much of the research on low-dose exposures has dealt with 
occupational exposures--for example, people who work at Army 
depots where chemical agents are stored and who work day in and 
day out with very low level, whole-body exposures. I think 
there has been a disconnect between the chemical defense 
doctrine for the battlefield and the development of 
occupational safety and health measures for depot workers. That 
might be part of the explanation.
    In general, the goal of chemical-defense doctrine has been 
to minimize the impact of an enemy's use of chemical weapons on 
the tempo and effectiveness of U.S. military operations. They 
have done this by setting up the so-called MOPP scale--mission-
oriented protective posture--which refers to the ensemble of 
protective gear that U.S. troops wear--gas mask, poncho, and 
protective garments.
    The idea is to calibrate the level of protection to the 
assessed chemical threat, because when people are in MOPP-4, 
the full ensemble, they are almost incapacitated. They cannot 
fight efficiently, particularly under hot weather conditions. 
They have poor vision. They can't communicate well. They are 
under a higher level of stress.
    To deal with this problem, the Army has sought to minimize 
the level of protection that troops wear in combat, and 
calibrate it to the assessed level of threat.
    As a result, there has been a kind of all-or-nothing 
mindset that has viewed chemical weapons exposures as either 
severe if they produce acute effects or, if they're sub-acute, 
they're just discounted, they're viewed as harmless.
    Commanders during the Gulf war generally disregarded 
reports of low-level chemical detections and exposures because 
of this all-or-nothing mindset. I believe that, later on, after 
the war, when large numbers of troops began getting sick, the 
same commanders wished to avoid accountability for serious 
errors of judgment, such as blowing up bunkers that may have 
contained chemical weapons. They refused to acknowledge the 
problem, hoping it would simply go away.
    In my view, regardless of who was at fault--that's really 
no longer important--the critical issue is to get to the truth, 
so that we can make sure that future soldiers are better 
protected against these low-level threats and better treated by 
their Government if they are exposed.
    In terms of my recommendations, I strongly believe that the 
executive branch's failure to deal forthrightly with this issue 
from the beginning has seriously eroded public confidence, not 
only in the Department of Defense but in Government in general. 
I think only a full disclosure of the facts and acceptance of 
official responsibility where it is due can restore the 
relationship of trust between Government and the people that is 
the essence of our democracy.
    To this end, I would offer two recommendations.
    First, a crucial untapped source of information about 
possible toxic exposures during the Gulf war is the large 
volume of environmental and biomedical samples that U.S. 
technical intelligence teams collected throughout the war zone 
during and after Desert Storm. A memo describing this sampling 
operation in detail is attached to my written testimony. It was 
coordinated by a rather shadowy unit called the JCMEC, based on 
Dhahran.
    Despite requests under the Freedom of Information Act, the 
results of these analyses have never been made public. I would, 
therefore, urge the subcommittee to request these records from 
the Department of Defense and, if the request is denied, to 
issue a subpoena for their release.
    Second, I would agree with Mr. Sanders that the Pentagon 
has suffered a significant loss of credibility and that the 
future investigation of chemical exposure incident should be 
entrusted to an objective and disinterested body that can 
regain the confidence of the American people.
    My suggestion would be for Congress to establish a 
bipartisan select committee of both houses to conduct an 
independent investigation of the exposures issue. This 
committee should have full subpoena power and access to the 
full range of classified information on the Gulf war.
    Mr. Shays. Thank you. Dr. Tiedt or Dr. Somani, do you have 
any closing comments?
    Mr. Tiedt. I would add, regarding the recommendation to get 
additional information, I'm aware, because I've received a 
couple copies, of unpublished DOD studies that are internally 
completed and have signoffs, but they simply did not, you know, 
fit the need to get published.
    It seems to me that, undoubtedly, there are many, many 
others--unpublished studies, finished, but just not ready for 
prime time publication--and I would recommend that those get 
requested, as well.
    Mr. Shays. OK. Dr. Somani.
    Mr. Somani. Yes. My recommendation would be that, as Dr. 
Rostker already pointed out, that they have announced about the 
grants for the low-level studies, and hopefully, they will 
continue that, because the future problem is with the low-level 
studies.
    Mr. Shays. One problem with studies for me right now is 
that I'm not prepared to recommend that we have a lot more 
studies. I'm not prepared to recommend we have a lot more 
studies. I feel like we're all studied out, and I want to see 
some action.
    Obviously, we need to continue studies, but I don't want to 
wait for action.
    Mr. Somani. Effective of a low level of the 
organophosphate, the nerve agents. OK.
    No. 2 will be, we know that there should be other 
pretreatment drugs besides pyridostigmine, like physostigmine, 
and I'm sure they should be looking into it. In fact, in the 
last symposium, they did say that they will be looking into 
physostigmine as a pre-treatment drug.
    Mr. Shays. I would like to thank you gentlemen. The third 
panel has the most difficult job, because we've been here a 
while. You were very stimulating and informative, all three of 
you.
    This was a day well spent. I'm very grateful to all of you. 
I thank those of you who have stayed to listen to the testimony 
of our witnesses, and I thank the Department of Veterans' 
Affairs, because I do know we have officials from there who 
have been here--most of the day, or all of the day? All of the 
day. For the record, that is very appreciated. Thank you very 
much.
    [Whereupon, the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:] 
[GRAPHIC] [TIFF OMITTED] T3668.248

[GRAPHIC] [TIFF OMITTED] T3668.249

[GRAPHIC] [TIFF OMITTED] T3668.250

[GRAPHIC] [TIFF OMITTED] T3668.251

[GRAPHIC] [TIFF OMITTED] T3668.252

[GRAPHIC] [TIFF OMITTED] T3668.253

[GRAPHIC] [TIFF OMITTED] T3668.254

[GRAPHIC] [TIFF OMITTED] T3668.255

[GRAPHIC] [TIFF OMITTED] T3668.256

[GRAPHIC] [TIFF OMITTED] T3668.257


</pre></body></html>
